Report No. SPO-2009-007                   September 30, 2009




                 Special Plans & Operations




   Report on the Assessment of U.S. and Coalition Plans
               to Train, Equip, and Field the
             Afghan National Security Forces
General Information
Forward questions or comments concerning this assessment and report and other activities
conducted by the Office of Special Plans & Operations to:

                          Office of the Assistant Inspector General
                               for Special Plans & Operations
                      Department of Defense Office of Inspector General
                                    400 Army Navy Drive
                                 Arlington, VA 22202-4704
                                              or
                                   E-mail: spo@dodig.mil

An overview of the Office of Special Plans & Operations mission and organization and a list of
past evaluations and future topics are available at http://www.dodig.mil

To Report Fraud, Waste, and Abuse
Contact the Department of Defense Office of Inspector General hotline at
(800) 424-9098, E-mail at hotline@dodig.mil or write:

                                      Defense Hotline
                                       The Pentagon
                                 Washington, DC 20301-1900
                                                Report No. SPO‐2009‐007 (Project No. 2009‐D00SPO‐0113) 
                                                                                     September 30, 2009 



               Executive Summary: Assessment of U.S.
               and Coalition Plans to Train, Equip, and
               Field the Afghan National Security Forces
Who Should Read This Report?
Personnel within the Office of the Secretary of Defense, the Joint Staff, the U.S. Central
Command and its subordinate commands in Afghanistan, the Military Departments, and
Agencies that are responsible for and engaged in training, mentoring, equipping, and other
aspects of capacity development of the Afghan National Security Forces (ANSF) should read
this report.

Background
Congress provided approximately $18.25 billion to the Iraq Security Forces Fund (ISFF) and
approximately $18.95 billion to the Afghanistan Security Forces Fund (ASFF) through Public
Laws 109-13, 109-234, 109-289, 110-28, 110-161, 110-252, and 111-32. These Public Laws
define the “train and equip” mission performed in Iraq and Afghanistan. The laws specify that
the funds be used in support of the security forces of Iraq and Afghanistan.

On April 2008, the Department of Defense Inspector General (DODIG) assembled and deployed
a team which conducted an assessment of Arms, Ammunition, and Explosives accountability and
control, security assistance, and logistics sustainment with respect to the Afghan National
Security Forces. The results of that assessment were published on October 24, 2008 in DODIG
report No. SPO-2009-001.

The fieldwork for this latest assessment was conducted during March 2009. The team evaluated
whether DOD, Coalition, International Security Assistance Force (ISAF),and Afghan Ministry of
Defense (MoD) and Ministry of Interior (MoI) goals, objectives, plans, guidance, operations, and
resources to train, equip, field, and mentor the Afghan National Security Forces (ANSF) were
prepared, issued, operative, and complete.

Results
The report is divided into four parts: (1) Notable Improvements; (2) Afghan National Security
Forces; (3) Afghan National Army, and (4) Afghan National Police. The report makes 23
observations and 68 recommendations. The results are discussed therein.

Notable Improvements
The report notes 14 examples where progress had been made in the areas of ANSF doctrine,
training, leader development, material/logistics, and international cooperation. They include,
among others:
      Strong rapport established between ANA Commanders Corps and below and their
       mentors/trainers


                                                 i
                                                 Report No. SPO‐2009‐007 (Project No. 2009‐D00SPO‐0113) 
                                                                                      September 30, 2009 

      ANA leading approximately 54 percent of current combat operations
      Maturation of the Focused District Development (FDD) police training program
      Establishment of Non-Commissioned Officer schools in the ANA, and
      Establishment of an Integrated Civil-Military Assistance Group (ICMAG), to coordinate
       interagency actions in support of ANA and ANP development

While these and other focus areas require continued careful attention in the future and much
work remains to be done, the Combined Security Transition Command–Afghanistan (CSTC-A),
their Embedded Training Teams (ETTs), and Police Mentoring Teams (PMTs) merit recognition
for their significant progress made to date conducting an extremely complex and difficult
mission.

Challenges—Areas of Concern
Oversight of Contracting and Contractors. CSTC-A continues to face challenges
with the contracting process and the quality of materials and services procured for the ANSF.
The lack of appropriate oversight support for CSTC-A contracts has been reflected in an ongoing
failure to ensure that contractors selected had the capability required to meet the standards set in
the contract; and to monitor contract performance to ensure contractual services delivered were
in compliance with contract specifications. The underlying factors contributing to these oversight
shortcomings are: (1) Insufficient experienced and trained contracting officers (COs) and
contracting officer representatives (CORs) in-country to provide appropriate contract oversight,
and (2) Insufficient Defense Contract Management Agency (DCMA) personnel directly
supporting CSTC-A to monitor performance on contracts. We made recommendations in this
area.

Strength of the Afghan National Security Forces. As of May 2009, the Afghan
National Army (ANA) end strength was approximately 86,558, with approved plans to expand to
134,000 by the end of calendar year 2011. In May 2009, the Afghan National Police (ANP) end
strength was approximately 81,509, with approved plans to increase its strength to 96,800.
Expansion of the ANSF beyond currently approved levels will face major challenges because of
issues associated with:
      Insufficient ANSF leadership capability (specifically junior officers/non-commissioned
       officers [NCOs])
      Shortages of certain lines of essential unit equipment (howitzers, mortars,
       communications, and engineer)
      Insufficient training facility capacity
      Limited capacity to construct ANSF permanent bases/facilities “down-range”
      Limited ANSF logistics capability lagging operational requirements, and
      Time necessary to develop ethical, competent leaders




                                                 ii
                                                Report No. SPO‐2009‐007 (Project No. 2009‐D00SPO‐0113) 
                                                                                     September 30, 2009 

Overcoming these challenges will require additional resources from the U.S., ISAF, and the
greater international community with respect to financing, personnel, equipment, facilities, and
time. We have made several recommendations in this area.

Logistics Development and Sustainable Capacity of the Afghan National
Security Forces. Development of the logistics capability of the ANSF significantly lags its
operational capacity. U.S., ISAF, and Coalition trainers and mentors, staff members in the MoD
and MoI, as well as ANSF commanders in the field uniformly described fundamental
shortcomings with the ANSF logistics system. Several factors have contributed to this situation,
including the previous priority given to combat force generation, lack of availability of
equipment, difficult geography and terrain, facilities construction problems, the lingering effects
of Soviet-imposed military logistics doctrine, and Afghan cultural tendencies. Consequently,
much work remains to be accomplished to build an appropriate, sustainable ANSF logistic
capacity, upon which the ability of the Afghan security forces to eventually operate
independently relies. CSTC-A will require the necessary support to provide the logistics-related
training, equipping, and mentoring required by the Afghan security forces.

Community Policing, Rule of Law, and the Counterinsurgency Fight. The
professional coordination and cooperation between the ANP and the criminal justice/Rule of
Law (ROL) system at the district level in Afghanistan was tenuous at best. This presented a
serious impediment to establishing a local environment characterized by effective civil policing,
in support of the ROL, and, therefore, to achieving the establishment of security and order
necessary for the protection of the population in support of counterinsurgency (COIN)
objectives.

Without an effective link between the local police and Ministry of Justice personnel responsible
for implementing the system of justice at the district level, Afghan Uniformed Police efforts to
implement Focused District Development (FDD) program objectives of providing enhanced
security for the population, including the ability to conduct community policing of criminal
activities and respect for the ROL, have been undermined when they return to their districts after
their training. As a consequence, FDD-trained Afghan Uniformed Police (AUP) were unable to
build and sustain public confidence in the police and government.

Lack of Accountability at All Levels of Afghan National Security Forces.
Lack of accountability for funds, equipment, and personal actions remains problematic
throughout the ANSF. Inspectors General and Internal Affairs personnel ranging from the
Ministries of Defense and Interior, to ANA Corps and ANP Regional commands reported what
they described as substantiated cases of corruption that resulted in little, if any, disciplinary
action. Equipment has been consistently damaged, lost or diverted to other uses through non-
combat actions without any systematic process to hold ANSF personnel accountable, when
appropriate. Processes and procedures were generally not established to be able to determine
individual accountability for equipment. Those accountability processes and procedures in place
were generally ineffective or not followed. We made recommendations for corrective action in
this area.




                                                iii
                                               Report No. SPO‐2009‐007 (Project No. 2009‐D00SPO‐0113) 
                                                                                    September 30, 2009 

U.S. and International Security Assistance Force/Coalition Trainers and
Mentors. CSTC-A ETTs, PMTs, and ISAF/Coalition Operational Mentor and Liaison Teams
(OMLTs) have historically been and still are under-resourced against required personnel levels,
which has delayed the development of the Afghan Army and Police. Moreover, further
expansion of the ANSF beyond the current approved ceilings for the ANA and ANP will require
additional U.S., Coalition, and ISAF personnel resources assigned in support of the train and
equip mission.

The ANSF train and equip mission is complex, broad-scoped, and especially difficult. It is
challenging at both the field and CSTC-A headquarters staff levels. In the case of the latter,
almost all of the officers and NCOs assigned are “dual-hatted,” e.g. they have two primary
missions. While serving as full-time CSTC-A staff members planning and directing the train and
equip assistance mission for the ANSF, they also have responsibilities as mentors to senior
Afghan officials in the MoD, General staff, and MoI. CSTC-A staff personnel reported that they
lack sufficient time to perform both missions. Even if assigned personnel reach full-
authorization, CSTC-A headquarters would not appear to have the personnel capability it
requires to carry out all of its missions.

The situation in the field where trainers interacted directly with their ANA and ANP counterparts
was equally concerning. There was about a 51 percent overall fill rate against the combined
ETT/PMT/OMLT requirement.

U.S. forces have recently committed significant additional manpower to support the ANSF train
and equip mission, which will result in the deployment in the fall of 2009 of an additional
Brigade dedicated to the mentoring and training mission, doubling the size of that force
capability. However, mentor and trainer personnel challenges will likely still remain. We made
recommendations in this area.

For detailed discussions of the foregoing observations and recommendations, please refer to the
respective sections in the report.

We request that you provide management comments in response to this report. Please see the
recommendations table on the following page.




                                               iv
                                                 Report No. SPO‐2009‐007 (Project No. 2009‐D00SPO‐0113) 
                                                                                      September 30, 2009 



Recommendations Table
Client                           Recommendations                        No Additional Comments
                                 Requiring Additional                   Required
                                 Comment/Information
Chairman, Joint Chiefs of
                                                                        21.c.
Staff

Undersecretary of Defense
                                 13
(Comptroller)

Under Secretary of Defense
                                 9.h.
for Personnel & Readiness

Chief of Naval Operations        7.c. and 9.d.

Chief of Staff, U.S. Air Force   7.b. and 9.c.

Commandant of the Marine
                                 9.e.
Corps

Commander, International
Security Assistance
                                 9.b., 19.b., 20.a., 20.b.
Force/Commander, U.S.
Forces–Afghanistan
Commander, U.S. Army
                                 6.a., 6.b.
Forces Command
Chief, National Guard Bureau                                            9.f., 15.a., 15.b., 15.c.

Chief, Army Reserves                                                    9.g.

Commander, U.S. Army
                                                                        2.a., 2.b.
Corps of Engineers

Director, Defense Contract
                                 3.c.
Management Agency

Commander, Combined              4.a., 4.c., 8.a.(1), 8.a.(2),
                                                                        1., 3.a., 3.b., 3.d., 4.b., 4.d.,
Security Transition              8.b.(1), 8.b.(2), 8.b.(3),
                                                                        5.a., 5.b., 5.c., 6.c., 7.a.,
Command–Afghanistan/             8.b.(4), 9.a., 11.b., 12, 14.,
                                                                        10.a., 10.b., 10.c., 10.d.,
Commander, North Atlantic        16.a., 17.a., 17.c., 18.a., 18.b.,
                                                                        10.e., 11.a., 16.b., 16.c.,
Treaty Organization Training     19.a., 20.c., 21.a., 21.b., 22.b.,
                                                                        17.b., 22.a., 23.b., 23.c.
Mission—Afghanistan              and 23.a.
Please provide comments by November 15, 2009.


                                                 v
Table of Contents
Executive Summary                                                                      i

Introduction                                                                          1
      Background                                                                      1
      Objectives                                                                      1

Part I – Notable Improvements                                                         3

Part II – Afghan National Security Forces                                             7

      1. Afghanistan Regional Security Integration Command Implementation of
         the Combined Security Transition Command–Afghanistan Campaign
         Plan                                                                         9
      2. The U.S. Army Corps of Engineers, Afghanistan Engineer District             13
      3. Combined Security Transition Command-Afghanistan Contracting
         Program—Continuing Oversight Issues                                         17
      4. Effectiveness of the ANSF Logistics System                                  25
      5. Combined Security Transition Command–Afghanistan Personnel Issues           37
      6. Pre-Deployment Training of Embedded Training Teams and Police
         Mentoring Teams                                                             45
      7. U.S. Navy and U.S. Air Force Re-Missioning Caveats                          51
      8. Personal and Professional Responsibility and Accountability in the Afghan
         National Security Forces                                                    55
      9. Operation Enduring Freedom and International Security Assistance Force
         Mentor and Trainer Tour Lengths                                             63
      10. Afghan National Security Forces’ Pay Issue                                 69
      11. Impact of Illiteracy on Afghan National Security Forces Development        73
      12. Construction of Facilities to Support Afghan National Security Force
          Fielding and Expansion                                                     79

Part III – Afghan National Army                                                      83

      13. The Afghanistan Security Forces Fund                                        85
      14. Potential Expansion of the Afghan National Army Beyond 134,000
          Personnel                                                                   89
      15. U.S. Army National Guard Partnering with International Security Assistance
          Force Operational Mentor and Liaison Teams                                  93
      16. M-1151 High Mobility Multi-Purpose Wheeled Vehicles Supplied to the
          Afghan National Army                                                        97
      17. Afghan National Army Soldiers and Organizational Clothing and
          Individual Equipment                                                       101
      18. D30 122-Millimeter Howitzers                                               105
Part IV – Afghan Police Organizations                                           107

      19. Size and Capability of the Afghan National Police                     109
      20. Afghan National Police and Rule of Law                                117
      21. Focused District Development–Reformed and Trained Afghan
          Uniformed Police                                                      125
      22. Afghan Border Police Training Issues                                  133
      23. Ministry of Interior Inspector General                                137

Appendices

      A. Scope, Methodology, and Acronyms                                       143
      B. Summary of Prior Coverage                                              147
      C. Glossary                                                               149
      D. Organizations Contacted and Visited                                    151
      E. Afghan/U.S. Policy, United States Code, Federal Regulations, and DOD
         Policies                                                               155
      F. Client Comments                                                        163
      G. Report Distribution                                                    209
Introduction
Background
On April 4, 2008, the Department of Defense Inspector General (DODIG) announced an
assessment to determine:

      Whether the accountability and controls over the distribution of conventional military
       arms, ammunition, and explosives provided to the security forces of Afghanistan were
       adequate
      Whether security assistance processes were responsive to Afghan National Security
       Forces (ANSF) equipment requirements
      Whether the ANSF logistics sustainment base was being effectively developed
      Whether mentoring and building the Afghan military health care system was taking place
       effectively.

The results of that assessment were published in DODIG report No. SPO-2009-001 on October
24, 2008.

Public Laws
Congress has provided approximately $18.25 billion to the Iraq Security Forces Fund and
approximately $18.95 billion to the Afghanistan Security Forces Fund (ASFF) through Public
Laws 109-13, 109-234, 109-289, 110-28, 110-161, 110-252, and 111-32. These Public Laws
define the “train and equip” mission performed in Iraq and Afghanistan. The laws specify that
the funds be used in support of the security forces of Iraq and Afghanistan to provide:
      Funding
      Equipment, supplies, services
      Training, and
      Facility and infrastructure repair, renovation, and construction.

Objectives
On February 3, 2009, the DODIG announced the “Assessment of U.S. and Coalition Plans to
Train, Equip, and Field the Afghan National Security Forces (Project No. D2009-D00SPO-
0113.000). The objectives of this assessment were to determine whether U.S. Government,
International Security Assistance Force, Coalition, and Afghan Ministry of Defense (MoD) and
Ministry of Interior (MoI) goals, objectives, plans, guidance, operations, and resources to train,
equip, and field the Afghan National Forces (ANSF) were:
      Prepared
      Issued
      Operative
      Relevant



                                                 1
Part I – Notable Improvements
Introduction
We found that the Combined Security Transition Command–Afghanistan (CSTC-A) had made
significant progress in the ANSF train and equip mission when compared to the development of
the Afghan Army and Police assessed during DODIG Special Plans and Operations visits in
September 2007 and April 2008.

Although much work remains to be accomplished in many areas of the ANSF train and equip
mission, particularly as the size of these forces are increased, notable advances were identified.
CSTC-A and the Afghan National Army (ANA) have surpassed their goal of fielding 84,000
soldiers by the end of FY 2009, and the ANA is on-track for expansion to 134,000 by December
2011. The ANA has established a reputation with their ISAF/Coalition and U.S. counterparts as
ready and capable fighters. The
ANA now participates in almost all
combat operations and takes the lead
in more than fifty percent of them.
As of May 2009, the Afghan
National Police (ANP) had
approximately 81,509 personnel
assigned against a recently increased
authorized size of 96,800. Pay and
rank reform initiatives were largely
completed in 2008 and 52 selected
districts are gaining or have already
gained more advanced capability via
the Focused District Development
program. And, the MoD and ANA
and MoI and ANP are beginning to
make progress in addressing what
has been the endemic problem of              Figure 1. U.S. ETTs provide instruction to ANA soldiers
corruption.                                                 on use of NATO weapons.
                                                            (Source: CSTC-A)



Doctrine and Performance
      The MoD and the General Staff (GS) are making progress in developing a foundation of
       essential internal management systems and controls which will provide the foundation for
       longer-term MoD and ANA independent institutional capacity. This is largely the result
       of the continuing effort by CSTC-A mentors, with USG contractor support.
      CSTC-A Ministerial Development Plans and Annual Action Plans were previously
       determined in an OIG assessment to be incomplete. During this assessment, the team
       observed notable improvements with respect to providing plans that were clear, concise,



                                                 3
    set target milestones that could be readily measured, and which assigned specific
    implementing responsibilities.
   Cooperation and rapport between U.S. mentors and the ANA were generally strong.
    Afghan Army Corps Commanders uniformly praised the dedication, quality, and
    contribution of their CSTC-A mentoring teams.
   A Mission Essential Task List (METL) has been developed for Police Mentoring Teams
    (PMTs) by the Regional Police Advisory Command (RPAC) in Afghan Regional
    Security Integration Command-South (ARSIC-S). The METL is specifically tailored for
    training police in the hotly contested southern region of Afghanistan.
   ARSIC-E established the Regional Border Assistance Command (RBAC) to give more
    visibility and priority to Afghan Border Police (ABP) issues, especially along the border
    with Pakistan. The RBAC regularly partners with the U.S. battle space commander to
    coordinate ABP issues. The RBAC also developed its own ABP Readiness Assessment
    Forms to evaluate ABP operational capability.
   Despite the challenges, the Operations Coordination Center-Regional (OCC-R) concept
    was being implemented in each Regional Command. With significant mentoring
    assistance, these centers were bringing together all key ANSF and intelligence-related
    security nodes for the Regions. ANP, ANA and, to a lesser extent, the National
    Directorate of Security (NDS), were sharing information and coordinating their
    respective operational efforts. A model Standard Operating Procedure for the
    coordination center had been developed in RCC East-Gardez.




                  Figure 2. MoD National Military Command Center in Kabul.
                       (Source: DoD IG - Special Plans and Operations)

   The ANA have demonstrated consistently that they will fight. There are still challenges in
    building officer and NCO leader capacity, but ANA units now take the lead on 54 percent


                                             4
      of all combat operations. As of May 2009, 41 percent of the fielded ANA organizations
      had reached Capability Milestone (CM) 1 (the unit, agency, staff function, or installation
      is capable of conducting primary operational mission[s], with the support of Coalition
      enablers—air support, medical evacuation, logistics, and intelligence).

Training
     Current FY 2009 ANA fielding will produce nine additional kandaks (battalions) at an
      acceptable readiness level. CSTC-A plans have been developed to accelerate the fielding
      to 12 to 13 kandaks per fiscal year to meet the 134K level target by the end of calendar
      year 2011. “War stoppers” have been identified which could prevent achieving this
      objective. Also included in the fielding plans are provisions to generate various higher
      level headquarters, as well as expansion of the ANA Air Corps.
     The ANP Focused District Development (FDD) Program decision process is maturing.
      The methodology currently used prioritizes which districts will receive the training and
      engages the appropriate U.S. and ISAF/Coalition, and Government of Afghanistan
      stakeholders. The Minister of Interior makes the final selection of the districts which will
      be trained next.

Leader Development
     Having completed the first four-year program, the National Military Academy of
      Afghanistan, patterned after West Point, just graduated a class of 84 officers in January
      2009.
     With CSTC-A assistance, the ANA has established a system of NCO schools that will
      develop a professional NCO corps, essential to providing unit leadership, over the long-
      term. The last key component, the Sergeant Major Academy, opened in June 2009.

Materiel/Logistics
     The CSTC-A Logistics Embedded Training Team (Log-ETT) was established in the past
      year and has made considerable headway, especially in standing up the mentoring effort
      for the ANP. Major challenges remain, but the initial steps appear to be on the right track.

International Cooperation
     The Integrated Civil-Military Assistance
      Group (ICMAG), a U.S. interagency
      coordinating body, stood up in
      November 2008 and brings together all
      the key U.S. interagency stakeholders to
      coordinate efforts on behalf of ANA and
      ANP development. This cooperation
      could be leveraged to address a number
      of key issues in the “train and equip”
      and COIN fight.
     The European Union Police (EUPOL)                Figure 3. EUPOL officer training an
                                                                Afghan policeman.
                                                                (Source: EUPOL)
                                               5
      and CSTC-A are cooperating extremely well. Each is leveraging the others’ resources
      and skills in coordinated training and mentoring initiatives. An example of this
      cooperation was the special training jointly conducted for ANP in Kabul by EUPOL and
      CSTC-A that focused on developing ANP effectiveness in manning checkpoints to
      handle and report incidents of terrorism and civil emergencies.

While these focus areas will continue to require careful attention to maintain positive
momentum, and much work remains to keep the ANSF train and equip effort on-track, CSTC-A
and its Embedded Training Teams (ETTs) and Police Mentoring Teams (PMTs) merit
recognition for the considerable progress made to date in the face of a formidable set of
challenges.




                                            6
Part II – Afghan National Security Forces
Introduction
This section contains a series of observations and recommendations for improvement that apply,
to a greater or lesser extent to the ANSF: both the Afghan National Army (ANA) and Afghan
National Police (ANP). For purposes of this assessment, the ANSF includes the Ministry of
Defense (MoD), Ministry of Interior (MoI), ANA, Afghan National Army Air Corps, the
Counter-Narcotics Infantry Kandak (CNIK), and the ANP, which includes the Afghan
Uniformed Police, Afghan Border Police (ABP), Afghan National Civil Order Police (ANCOP),
Counternarcotics Police, and the Afghan Public Protection Force.




                                              7
Observation 1. Afghanistan Regional Security Integration
Command Implementation of the Combined Security
Transition Command–Afghanistan Campaign Plan
The Afghanistan Regional Security Integration Commands (ARSICs) do not have fully
developed training, equipping, and mentoring plans to implement the CSTC-A Campaign Plan in
their respective regions.

This results from myriad factors, to include staff shortages, personnel turnover, competing
warfighting, training, and mentoring requirements, and insufficient CSTC-A direction.

This could result in a lack of synchronization in standardized implementation of CSTC-A’s
training, mentoring, and equipping mission for the ANA and the various ANP organizations, and
degrade necessary synergy between the ANSF and the ISAF/Coalition Force (CF) battle-space
owners, thereby limiting the accomplishment of CSTC-A Campaign Plan objectives.

Applicable Criteria
U.S. Government Counterinsurgency Guide, January 2009. This document
examines the theory and principles of insurgency and counterinsurgency (COIN), the
components of an effective COIN strategy, and interagency COIN assessment, planning and
implementation.

Campaign Plan for the Development of Afghan National Security Forces,
Combined Security Transition Command–Afghanistan, 20 September 2008.
This document provides an overarching strategy for the development of the Afghan Security
Forces, to include the Ministry of Defense (MoD) and Ministry of Interior (Mol). The plan aims
to synchronize security sector development efforts across the Ministry of Defense, Ministry of
Interior, the Combined Security Transition Command–Afghanistan (CSTC-A), and the wider
International Community. The plan lays out the guidance and the processes for security ministry
and Afghan security forces generation and development. It also takes into account the
Afghanistan National Development Strategy (AN DS) dated April 2008 and the altered
circumstances since these agreements and strategies were conceived, including changes to the
security environment. It is complementary to COMISAF OPLAN 38302 and supports the ISAF
security effects.

Combined Security Transition Command–Afghanistan Operations Order
08-006, Afghan National Security Forces (ANSF) Development Program, 14
January 2008. This order provides guidance for the development and execution of the
current United States Fiscal Year (FY) 2008 CSTC-A program to generate the Afghan National
Security Force (ANSF). It bridges the gaps between strategic aims of the CSTC-A campaign
plan, subordinate development strategies, and budget execution with program guidance focused
on annual operational objectives. The order describes a program to develop the currently
approved ANSF force structure and is a document that serves as a basis of record to direct
changes to the program as required.


                                                9
Afghanistan Regional Security Integration Command’s Implementing
Plans
While the CSTC-A Campaign Plan lays out goals, objectives, and metrics for development of the
ANSF, and CSTC-A OPORD 08-006 bridges the gaps between strategic aims of the CSTC-A
campaign plan and subordinate development strategies at the ISAF regional command/ANA
Corp levels, most ARSICs have not prepared a fully developed plan for each of their respective
regions to support implementation of the CSTC-A campaign plan and operational order.

The ARSIC programs and personnel we assessed were vigorously pursuing the primary
objectives of the CSTC-A Campaign Plan. However, implementation of the Campaign Plan has
not been documented and institutionalized in ARSIC regional plans to ensure that there is a
cohesive and integrated effort between them. Without a common plan for CSTC-A which
includes ARSIC staff and field mentors’ operations, there may not be cohesiveness and
synchronization of the respective regional and national training and mentoring efforts. This
could also lead to a lack of consistency and continuity in planning guidance for integrating new
training and mentoring personnel that arrive would be made more difficult.

The various ARSICs have parts of such plans under development, but only the ARSIC–North
Commander had prepared the core elements of a complete plan that laid out, among other
parameters, the milestones for meeting the objectives and metrics in the CSTC-A Campaign
Plan. However, even this plan was admittedly not yet fully developed or officially promulgated.

The current ARSIC organizational construct was scheduled to be replaced the second half of
calendar year 2009 by the new “2-Brigade Combat Team (BCT) Concept.” mentoring initiative.
Task Force Phoenix, currently comprised of one National Guard BCT, will be transformed into a
new concept and structure consisting of two task forces. Task Force Phoenix East will cover
regional commands north and east, while Task Force Phoenix West will be responsible for
regional command west and south. According to this plan, a new National Guard Brigade will
rotate in as scheduled to comprise TF West, and an active duty advise and assist U.S. Army
Brigade Combat Team will be deployed to assume responsibility for TF West. Each will act in
coordination under CSTC-A command and control to support the overall CSTC-A mission to
train, mentor, and equip the ANSF.

In support of this restructuring and augmentation of resources, each of the two regional task
forces under the new mentoring plan of operation will, of course, need to have parallel plans for
their respective areas of operation which are complementary and integrated into the
implementation of CSTC-A’s Campaign Plan and relevant OPORDs.

Recommendations, Client Comments, and Our Response
 1. Commander, Combined Security Transition Command–Afghanistan, direct the respective
 Commanders, Afghanistan Regional Security Integration Commands to coordinate with the
 in-bound Brigade Combat Teams that will replace them to prepare supporting plans for their
 task forces which implement the Combined Security Transition Command–Afghanistan
 Campaign Plan in each of their areas of operation.



                                                10
Client Comments
Commander, CSTC-A concurred with the recommendation, noting that the two BCTs that
recently arrived in Afghanistan had collaborated with TF Phoenix and the ARSICs during pre-
deployment preparation, developing supporting plans for both the BCTs and their subordinate
task forces. Consistent with the new theater Command and Control structure, these BCTs will be
transferred to the ISAF Joint Command on October 12, 2009.

Our Response
Commander, CSTC-A comments were responsive, and no additional comments are required.




                                             11
Observation 2. The U.S. Army Corps of Engineers,
Afghanistan Engineer District
The Afghanistan Engineer District (AED) of the U.S. Army Corps of Engineers (USACE) does
not have sufficient personnel to provide adequate oversight for the scope of its mission, both
current and projected, with respect to the management and coordination of the acquisition,
design, and construction of facilities in support of the ANSF. As of May 2009, only 411
personnel were assigned to AED of 641 authorized on the Interim Manning Document (IMD).
Additionally, the number of AED personnel that will be required to support further expansion of
the ANSF has not been established.

The shortage of personnel assigned to AED has resulted from the USACE not filling authorized
positions as outlined in the AED IMD. In addition, USACE has not yet provided personnel to
AED for it to be able to address the construction challenges presented by the current, more
difficult operational security environment. In addition, USACE has not planned additional
personnel to support the new infrastructure construction required to support further expansion of
the ANSF.

This could result in AED not having the capacity to meet its construction support objectives on a
timely basis and impede providing the required oversight of current and future projects for which
it remains responsible. As a result, the expansion of the ANSF and its ability to progressively
assume security responsibilities from U.S. and ISAF/Coalition forces could be delayed.

Applicable Criteria
Program Management Plan (PgMP) for the Afghan National Army (ANA)
Program, for various Facilities throughout Afghanistan, Afghanistan
Engineer District, U.S. Army Corps of Engineers, March 2009. The purpose of
this document is to ensure successful design and construction of facilities supporting the fielding
of the Afghan National Army (ANA) soldiers throughout Afghanistan. This PgMP outlines the
procedures and responsibilities Afghan and U.S. military and civilian organizations will
undertake during the acquisition planning, management, design, construction and closeout of the
programmed facilities.

The Corps of Engineers, Afghanistan Engineer District, Interim
Management Document, May 2009. This document lists personnel authorized and
personnel assigned to the AED with position title.

Afghanistan Engineer District Personnel Shortages
AED has projects ongoing throughout Afghanistan, and it forecasts additional construction
projects that will require more than the 634 personnel authorized in its IMD, of which only 436
had been assigned as of the end of May 2009. Although this shortage is somewhat offset by 593
on-hand contract personnel at the AED headquarters performing functions ranging from life
support to security, AED does not have the core personnel with the skill sets required to provide
adequate execution and oversight of the expanding scope of its mission to implement current and



                                                13
planned construction projects in Afghanistan. Although the decision has not been finalized,
AED expects to divide into two districts in the summer of 2009, and if approved, personnel
authorizations for AED are projected to increase to approximately 820.

ANSF end-strength could increase substantially from its current level of around 170,000. AED
will need to have the personnel capacity to prepare for and respond to this increased construction
challenge. For purposes of comparing personnel resources committed in our respective
Southwest Asia contingency operations with the scope of construction responsibility, AED
already plans, executes, and oversees approximately $4 billion worth of projects with 1029
personnel, including contractors, while the U.S. Army Engineer’s Gulf Resources Division in
Iraq and Kuwait manages approximately $3 billion worth of projects with three districts and
3,326 personnel, including contractors.

The AED has three major program areas:
      Afghan National Army (ANA) facilities construction
      Afghan National Police (ANP) facilities construction
      Installation management and sustainment (O&M) for ANA and ANP facilities




    Figure 4. From left: Gym facility being erected at Kabul Military Training Center; Safety training in
                             Pol-e-charki; Digging sewer lines in Kandahar.
                              (Source: USACE – Afghan Engineer District)

ANA projects include brigade garrisons, kandak billeting, and support facilities throughout the
country. The responsibility also extends to ANP projects, which tend to be even more widely
distributed geographically. ANP projects include facilities for border police, uniformed police,
and civil order police.

Oversight responsibilities are diverse; AED has staff embedded with Provincial Reconstruction
Teams (PRTs) at major ANA and ANP facilities, and with the Combined Joint Task Force
(CJTF). On-site responsibilities include reporting of construction progress to ensure contractor
compliance with their Quality Control Plan, resolving routine problems, maintaining progress
logs, conducting weekly construction coordination and tailgate safety meetings, updating weekly
construction status reports, and maintaining control over project sites until the projects are
accepted from the construction contractors and transferred to the CSTC-A representative by DD
Form 1354. AED was at least 10 percent behind on 62 percent of their projects as of March
2009.




                                                      14
Recommendations, Client Comments, and Our Response
2.a. Commander, U.S. Army Corps of Engineers, accelerate assignment of currently authorized
personnel against the current Interim Manning Document authorization.

Client Comments
The Commander, U.S. Army Corps of Engineers (USACE) concurred with the recommendation,
noting that AED is increasing staffing levels to meet the ANSF workload and that USACE is
aggressively filling positions on AED’s IMD. AED’s assigned strength increased from 411 in
May 2009 to 491 in August 2009. USACE reports that an additional 104 personnel have been
selected to fill vacant AED positions and that they are starting to see a larger pool of candidates
as requirements in Iraq begin to drawdown.

Our Response
Commander, USACE comments were responsive, and no additional comments are required. We
will follow-up to track progress on assignment of personnel against the authorizations in the
AED IMD.

2.b. Commander, U.S. Army Corps of Engineers, evaluate the adequacy of the current
Afghanistan Engineering District personnel authorizations against current and projected
infrastructure requirements and challenges in support of Commander, Combined Security
Transition Command–Afghanistan’s mission.

Client Comments
The Commander, U.S. Army Corps of Engineers concurred with the recommendation, noting
that, due to the expected surge in the ANSF workload projected in FYs 2010 through 2012, they
established a second district in Afghanistan (AED South). The latest manning document
establishes 854 positions for AED, an increase of about 200 from the March 2009 time period.

Our Response
Commander, USACE comments were responsive, and no additional comments are required.




                                                15
Observation 3. Combined Security Transition
Command–Afghanistan Contracting Program—Continuing
Oversight Issues
Hazeb Emerging Business (HEB), contracted by CSTC-A to perform country-wide maintenance
service on weapons provided the ANSF under the North Atlantic Treaty Organization (NATO)
weapons program initiative, did not meet its obligations, lacking appropriate skills, tools, and
kits. This particular problem concerning contract performance reflected an ongoing and systemic
issue with respect to insufficient contract oversight support provided by CSTC-A.

The lack of appropriate oversight support for CSTC-A contracts has been reflected in an ongoing
failure to ensure that contractors selected had the capability required to meet the standards set in
the contract; and to monitor contract performance to ensure contractual services delivered were
in compliance with contract specifications. The underlying factors contributing to these oversight
shortcomings are: (1) Insufficient experienced and trained contracting officers (COs) and
contracting officer representatives (CORs) in-country to provide appropriate contract oversight,
including quality assurance; (2) Insufficient Defense Contract Management Agency (DCMA)
personnel directly supporting CSTC-A to monitor performance on contracts.

The failure to provide appropriate oversight of this particular contract to support the fielding of
NATO weapons resulted in poor contract performance, reduced readiness in the use of NATO
weapons already provided to the ANSF, an inefficient use of Afghan National Security Force
Funds, and a potential delay in the effective expansion and sustainment of properly equipped
Afghan National Security Forces. But, it is indicative of an ongoing lack of oversight support
regarding CSTC-A contracts that could have had a detrimental effect on the ANSF train and
equip mission.

Applicable Criteria
Federal Acquisition Regulation (FAR) Subpart 46.201, “Quality Assurance:
General.” This subpart states that the contracting officer should include appropriate contractor
quality performance requirements in the contract solicitation and in the contract itself. These
requirements may range from inspection at the time of acceptance to a comprehensive program
for controlling quality during contract execution.

FAR Subpart 46.4, “Government Contract Quality Assurance.” This subpart
states that Government contract quality assurance must be performed at such times (including
any stage of manufacture or performance of services) and places (including subcontractors’
plants) as may be necessary to determine that the supplies or services conform to contract
requirements. Quality assurance surveillance plans should be prepared in conjunction with the
statement of work. The plans should specify all work requiring surveillance and the method of
surveillance. FAR Subpart 46.4 (e) states that Government inspection must be performed by or
under the direction or supervision of Government personnel.

FAR Subpart 46.402(e), “Government Contract Quality Assurance at
Source.” “Agencies shall perform contract quality assurance, including inspection, at source if


                                                 17
government inspection during contract performance is essential.” Quality assurance surveillance
plans ensure effective Government contract quality assurance.

FAR Subpart 46.5, “Acceptance.” This subpart states:
               Acceptance constitutes acknowledgement that the supplies or services conform
               with applicable contract quality and quantity requirements, except as provided in
               this subpart and subject to other terms and conditions of the contract.
               Acceptance may take place before delivery, at the time of delivery, or after
               delivery, depending on the provisions of the terms and conditions of the
               contract. Supplies or services shall ordinarily not be accepted before completion
               of Government contract quality assurance actions.

Department of Defense Directive 1404.10, “DOD Civilian Expeditionary
Workforce,” 23 January 2009. This document establishes the policy through which an
appropriately sized subset of the DOD civilian workforce is pre-identified to be organized,
trained, and equipped in a manner that facilitates the use of their capabilities for operational
requirements. These requirements are typically away from the normal work locations of DOD
civilians, or in situations where other civilians may be evacuated to assist military forces where
the use of DOD civilians is appropriate.

Defense Contract Management Agency Mission Statement. For those contracts
delegated to DCMA through the Joint Contracting Command Iraq/Afghanistan (JCCI/A) concept
of operations and delegation process, DCMA provides contract administration services to
USCENTCOM and subordinate commands in Southwest Asia to ensure delivery of quality
products and services to the warfighter; on time and on cost. Additionally:

               Before contract award, DCMA provides advice and services to help construct
               effective solicitations, identify potential risks, select the most capable
               contractors, and write contracts that meet the needs of DOD customers in
               Federal and allied government agencies.

               After contract award, DCMA monitors contractors’ performance and
               management systems to ensure that cost, product performance, and delivery
               schedules are in compliance with the terms and conditions of the contracts.

Continuing Contracting Issues
Hazeb Emerging Business (HEB)—A Recent Example. The contract performance
failure by HEB regarding maintenance of NATO
weapons (M4, M16, M203, M240, and M249)
included:
      Lack of knowledge––a U.S. contractor,
       MPRI (not an acronym), had to teach HEB
       personnel how to maintain NATO
       weapons
      Lack of tools––one ARSIC Deputy
       Commander described how HEB had to
       mount M-203 grenade launchers on M-16s                  Figure 5. ANA inventory of M4 rifles.
                                                                      (Source: DoDIG - SPO)

                                                     18
       using hammer and nails, because they didn’t have the proper tools. Reportedly, the
       appropriate tool kits have been ordered

Lack of Sufficient Contract Oversight--The problems with HEB Contract
Performance Were Not Unique. Concerns with respect to contracting and quality of
supplies provided to the MoD and ANA by CSTC-A were first brought to OIG attention during a
team visit with the Afghan MoD Inspector General in April 2008. The Inspector General was
then concerned about contracting and delivery procedures. He stated that his office did not
always review the contracts written by CSTC-A in support of the ANSF, and, therefore, often did
not know the terms and specifications of CSTC-A contracts that provided material and
equipment to the ANA.

The Afghan MoD Inspector General specifically noted that, previously, some uniforms provided
to the ANA had been substandard. Additionally, he believed that blankets had been ordered for
the ANA based on samples shown at the time the contract was being developed. However, when
the blankets were delivered, they allegedly were smaller than the samples shown and were made
of inferior cloth. He stated that this also had happened with boots, which came apart when worn
by ANA troops for only a short period of time.

During the March 2009 visit by OIG, some of the specific contract supply issues concerning the
ANSF raised previously, such as those related to poor quality uniforms, had been addressed by
CSTC-A. Specific examples of improvement were newly purchased appropriate quality boots
and uniforms that had been provided to the ANSF, although some of the previously purchased
inferior products were still in the Afghan supply system.

However, the MoD Inspector General again expressed concern with quality of uniforms being
provided the ANA and also raised what he said was a problem with timely issuance. He cited the
example of what he said was the recent late issue of winter gear and field jacket liners to the
ANA. Furthermore, the MoD Deputy Director of Financial and Technical Department indicated
that he has asked to review contract documents and samples of materials before they are
contracted for by CSTC-A. He claimed that this request has not yet been met. Thus, while it was
clear that CSTC-A and the MoD had made progress in addressing the latter’s contracting issues
and concerns, some problems appeared to be remain unresolved.

CSTC-A agreed that there had been difficulties contracting for ANSF uniforms, but it was not
clear whether this was because the initial statement of work and contract specifications had not
been properly prepared or whether contracting officers or their representatives had accepted
inferior products from the manufacturer that did not meet the contract specifications, or both.
CSTC-A further stated that the some of the materials and items in question were provided by
Afghan contractors through the “Afghan First” program, which emphasizes using contracting
with Afghan suppliers, whenever feasible. However, CSTC-A has been having difficulty finding
sufficient qualified Afghan contractors with which to work, and has often had performance
issues when contracting with Afghan companies they have used.

Shortage of Contracting Officers and Contracting Officers’
Representatives. The history of CSTC-A contracting challenges, including the recent HEB

                                               19
example, points to a lack of DOD quality assurance in the various phases of the contracting
process. This appears to have been caused by a shortage of trained, in-country, COs and CORs,
their rapid turnover, and the resultant lack of continuity.

In April 2008, the Joint Contracting Command–Iraq/Afghanistan (JCC-I/A) reported that there
were shortages of qualified and experienced contracting personnel in-theater and in-country.
JCC-I/A pointed out that COs spent about 30 percent of their time just ensuring that CORs were
in place and had not rotated out of theater. JCC-I/A also expressed concern about the adequacy
of the basic COR on-line training, noting that JCCI/A offered training in addition to the basic
online courses in an attempt to raise COR capability to an acceptable level.

During the latest OIG team visit, CSTC-A reported once again, as it did to the OIG team in
April 2008, that there was a continuing shortage of experienced COs in Afghanistan, and a
critical shortage of trained and experienced CORs. This deficiency was exacerbated by the
constant turnover of these personnel, caused by three to six month tours.

In addition, DCMA has recently had, on average, only three personnel who directly support
CSTC-A contracting. Moreover, their high turnover rate and assignment “under-lapping”
produces a lack of continuity in supporting CSTC-A. According to CSTC-A, DCMA could
improve its support of CSTC-A by specifically increasing the number of its contract specialists
to provide assistance with statements of work, quality control, and acceptance of goods,
particularly on pseudo-Foreign Military Sales (FMS) cases.

DCMA has significantly increased their presence throughout Southwest Asia from an assigned
strength of 175, against a requirement of 195 in January 2008, to 240, against a requirement of
281 in May 2009. They are currently at 100 percent fill against a requirement of 155 in Iraq, but
only at 59 percent fill against a requirement of 98 in Afghanistan. DCMA reported that it has
recently received approval for an augmentation to their Joint Manning Document for an
additional 57 personnel with specific skills needed for contract oversight requirements in
Southwest Asia, to include Afghanistan. Those positions have yet to be resourced by the
Services, however, and will require at least 120 days from resourcing until there are actual boots
on the ground.

The Way Ahead
Providing appropriate oversight, including quality assurance assistance, in all aspects of the
contracting process will become even more essential to CSTC-A supply operations in the coming
months as it supports a significant acceleration and expansion of the ANA and, potentially, the
ANP. Additionally, critical recurring contracts will come up for renewal, such as that with
MPRI, estimated to be in the range of $800 million.

In conclusion, there was and is a pressing need for additional oversight assistance in support of
CSTC-A at the “grass roots” level for its contracting in support of the ANSF. There were also
indications of continuing communications and coordination problems between CSTC-A and the
MoD regarding contracting and logistical supply issues.




                                                20
Recommendations, Client Comments, and Our Response
 3.a. Commander, Combined Security Transition Command–Afghanistan, in coordination with
 the Commander, Joint Contracting Command–Iraq/Afghanistan, ensure that the contract for
 maintaining North Atlantic Treaty Organization weapons includes specifications that ensure
 appropriate quality of products/services and that contractors hired are able to produce/perform to
 those standards.

Client Comments
Commander, CSTC-A concurred, noting that contracting and contract performance monitoring
has been a problem in the past. The Command has taken the following steps:

      Required HEB to hire qualified personnel for the NATO weapons maintenance contract
      Required HEB to provide the appropriate tools for their employees to conduct work to
       contract standards, less some specialized tools and gauges, due in late September or early
       October 2009
      Requires CORs to track equipment arrival, contractor personnel training qualifications,
       perform periodic inspections, and monitor reports from subordinate units and Technical
       Officer Representatives.

Our Response
Commander, CSTC-A comments were responsive, and no additional comments are required.
We will follow-up on the arrival of the specialized equipment for the HEB contract and ask the
Command for an analysis of the effectiveness of the actions outlined with respect to CORs.

3.b. Commander, Combined Security Transition Command–Afghanistan, ensure that local
Contracting Officers and Contracting Officer Representatives, in coordination with their
Ministry of Defense counterparts, perform a quality screen of inbound contracted commodities
upon receipt, but before Combined Security Transition Command–Afghanistan transfer to the
Afghan National Security Forces’ logistics system; and ensure follow-up to achieve contract
compliance with respect to quality of services delivered.

Client Comments
Commander, CSTC-A concurred. CSTC-A continues to work to improve the quality of its
contracting process and oversight of contractor performance, appointing Technical Officer
Representative at Depot 1 to perform quality assurance checks to verify contract compliance.
Additionally, CSTC-A is finalizing a SOP that provides “cradle to grave” guidance on
developing requirements and defining measurable performance criteria when preparing
Performance Statements of Work.

Our Response
Commander, CSTC-A comments were responsive, and no additional comments are required.



                                               21
3.c. Director, Defense Contract Management Agency evaluate an internal realignment of
personnel resources from Iraq to Afghanistan in order to support changing and increased contract
priorities on the ground, and review Defense Contract Management Agency personnel
requirements necessary to support the expanding Combined Security Transition Command–
Afghanistan mission.

Client Comments
Director, Defense Contract Management Agency partially concurred with the recommendation.
DCMA noted that, as circumstances permit, it does realign its resources based on theater
requirements, available resources, and overall theater leadership priorities that flow through JCC
I/A to DCMA as delegations. DCMA noted that a recent review had caused some incoming
personnel to be redirected to Afghanistan over the ensuing months. DCMA had also established
a new O6 command team and a staffing increase of 55 personnel in Afghanistan to support the
expanded mission. Specifically, DCMA reported that an additional three persons had been
assigned to the existing three person team at CSTC-A for the emerging contract administration
and oversight mission.

DCMA further stated that it did not have oversight authority or responsibility for all theater
contracts. DCMA’s contract oversight responsibility in theater, per OSD direction, was directly
linked to the delegations received from JCC I/A in accordance with the joint DCMA and JCC
I/A CONOPS and delegation process.

Furthermore, DCMA stated that its ability to meet its resourcing needs in both Afghanistan and
Iraq was hampered by its reliance on external sourcing. As indicated on page 20 of the [draft]
report, the DCMA request for 57 subject matter experts with specialized oversight capabilities
remained unfulfilled by the military services. Of the number requested, only 13 Subject Matter
Experts had been sourced (an additional 6 were provided for one cycle only). This shortfall of 38
experts imposed operational challenges.

Our Response
The DCMA comments were responsive. The comments clearly indicate difficulty in filling
contract oversight positions, but there is no mention of the number of authorized positions. We
request that DCMA provide us an update describing assigned strength versus authorized strength
in Afghanistan. If difficulty in manning to authorized strength is a problem that persists,
continued oversight may be in order.

3.d. Commander, Combined Security Transition Command–Afghanistan, develop a plan to
improve communication and coordination between Combined Security Transition Command–
Afghanistan logistics and contracting personnel and the Ministry of Defense, including its
Inspector General office.




                                                22
Client Comments
Commander, CSTC-A concurred, noting the recent focus with MoD’s 1st Deputy Minister and
MoI’s Deputy Minister for Logistics to improve coordination in logistics and contracting
activities. The CSTC-A IG is also active in this effort, coordinating with the MoD IG.

Our Response
Commander, CSTC-A comments were responsive, and no additional comments are required.




                                            23
Observation 4. Effectiveness of the ANSF Logistics System
The Afghan National Security Forces’ logistics 1 systems that support the Afghan National Army
(ANA) and the Afghan National Police (ANP), respectively, remained institutionally immature
and insufficiently effective. Army and Police personnel have not become proficient in applying
the established logistical model and did not demonstrate a high degree of confidence in the
logistics system’s capacity to perform as designed. To ensure the supply system worked
somewhat effectively, the ANA and ANP often depended upon U.S. mentors and trainers to
“push” them needed equipment and supplies by mobilizing the support of U.S. counterparts in
the ANSF supply chain.

This occurred because the ANA and ANP logistics functions were still in an early stage of
development, with the ANP significantly lagging the ANA. Neither the ANA nor the ANP had
enough trained and experienced logistics personnel to make their logistics processes and
procedures function properly. Moreover, trained logistics personnel and units had been
periodically diverted to “front line” security roles, which has been the ANSF and Coalition
forces’ priority.

In addition, CSTC-A did not have an overarching strategic plan with corresponding operational
implementation plans for developing logistics capability within the ANSF, and has not, until
recently, sufficiently emphasized the importance of developing a sustainable ANSF logistics
function appropriate to its growing operational capability. In addition, CSTC-A did not have
enough mentoring personnel to address effectively both security forces expansion and logistical
development issues.

Finally, establishing modern military and police logistical systems will require overcoming the
still strong legacy among ANSF leaders of the former Soviet-style, highly centralized, logistical
mindset, as well as the cultural tendency to hoard, resulting from the country’s prolonged
experience with poverty. Corruption, which has been endemic in the ANSF supply system and
continues to be problematic, undermines the potential effectiveness of the Army and Police
logistical systems.

As a result, the ANSF systems were unable to reliably meet army and police logistical needs.
Moreover, a widening gap has developed between the logistical and operational capabilities of
the ANSF. This has limited the capacity of the ANSF to support its current force size, which
could lead to a growing logistical gap, prolonged ANSF dependence on the U.S and
ISAF/Coalition, and delayed building of a logistically sustainable Afghan security force.

Applicable Criteria
Campaign Plan for the Development of Afghan National Security Forces,
Combined Security Transition Command-Afghanistan, 20 September 2008.
“The end state for Phase 3 is national military forces and police services correctly configured and

1
  JCS Pub 1-02 refers to logistics in terms of materiel, personnel, facilities, and services. For the purposes of this
observation, we limit our treatment of logistics systems to those systems and processes that deal with the acquisition,
storage, movement, distribution, maintenance, and disposition of materiel.


                                                         25
resourced for the security needs of the country. The forces will be postured to defend national
independence, sovereignty and territorial integrity against prospective enemies, with internal
security and law enforcement bodies capable of sustaining themselves either unilaterally or with
the international community’s support.”

MoI Policy “Process for the Management of Logistics”, January 6, 2009. This
decree prescribes common procedures, formats, forms, and time standards for the logistics
management processes of the MoI and movement of logistic information between supporting and
supported organization/activities of the ANP.

MoD/ANA Decree 4.2 “Materiel Accountability Policy and Procedures,”
June 2009. This MoD decree establishes the basic policies and procedures to account for
military materiel in the ANA.

Background
The separate 2 logistics systems used by both the ANA and ANP were relatively undeveloped and
immature, and were not yet capable of adequately supporting their respective security forces.
CSTC-A logistics mentors explained that the Afghan security forces had never had a functional
logistics system and the western-style logistics concepts and processes being implemented were
still relatively new and alien to the ANSF.

The Soviet-style system of top heavy command and control continued to influence decision-
making and had not been overcome, therefore limiting the effectiveness of the current supply
system which relies on a degree of fluidity up and down the supply chain. The current ANA
logistics model was first introduced in 2002 and 2003. But, although the ANA model has served
as the conceptual basis for establishing the ANP logistics system, the ANP system only began to
be formally initiated after the DoD assumed the training and equipping role for the ANP in 2005.

Prior to 2007, CSTC-A had only provided logistics mentoring at the senior ministry levels for
both the MoI and MoD. They relied upon U.S military logisticians entrenched in the Embedded
Training Teams (ETTs) to provide limited operational logistics assistance and training at the
Corps and Kandak level for the ANA. Because of an extreme shortage of mentors, CSTC-A was
never able to provide adequate logistics mentoring for the police, other than at the MoI level.

It was not until 2008 that CSTC-A began to organizationally coordinate and synchronize its
logistics mentoring resources, with the objective of establishing a logistics mentoring
organization capable of integrating and focusing logistics training for the ANA and ANP. The
continuing shortage of logistics mentors – particularly for the ANP – has limited the impact of
this effort.




2
  While both the Afghan National Army and the Afghan National Police are implementing a similar western-based
logistics model, their logistics systems are not interconnected or shared. They do have some storage facilities co-
located, but the logistics operations at these sites are independent of one another.


                                                         26
Challenges within the ANSF Logistics System
Notwithstanding organizational efforts by CSTC-A in the last two years to improve the
efficiency of its logistics mentoring in support of the ANSF, the logistics system of both the
ANA and ANP have continued to be inefficient and ineffective. Interviews with U.S. mentors,
trainers, and ANSF personnel indicated that developing an overarching logistics system with an
effective requisition and distribution process was still a major challenge and a top priority. One
CSTC-A logistics mentor stressed its importance by stating that “a logistics system that works is
what is going to allow us to be able to go home some day – helping the ANSF to become
functional and sustainable.” While the CSTC-A Campaign Plan provides some broad logistics
guidance and goals, CSTC-A has not yet created a strategic road map that can be operationally
implemented for developing the ANSF logistics capability to an end state that will enable it to
become independent and self-sustainable. Other key challenges that have impeded the
development of a functional and sustainable ANSF logistics system include:
      An inefficient and ineffective materiel requisition process
      The lack of trained ANSF logistics personnel
      An insufficient number of logistics mentors and advisors
Those challenges have been magnified by other Afghan-unique contributing factors, such as the
low rate of literacy, the legacy of the highly centralized Soviet-style logistical system, cultural
impediments, and endemic corruption.

No Strategic Plan for Developing Logistics Capability. Although CSTC-A leaders
and field mentors acknowledged the urgency to establish an effective ANSF logistics capability,
CSTC-A had not yet developed an overarching strategy and operational plans for establishing
that capability within the ANA and ANP. The CSTC-A Campaign Plan included logistics
sustainability as an end state, but did not provide an integrated, synchronized, implementation
strategy for achieving that goal. Neither did the Afghanistan National Development Strategy
(2008-2013), nor the Afghan National Security Policy include logistics capability development
within the ANA and the ANP as a strategic priority. And while the MoD and the MoI had issued
logistics policies within their respective organizations, neither had produced a strategic vision
defining what logistics capability they would need to develop and sustain in consonance with the
growing ANA and ANP force structure.

Not having an overarching ANSF logistics development strategy with operational plans
describing specific actions, resources, timelines, and metrics for achieving that capability has
delayed building a sustainable logistics system capable of supporting the operational needs of the
ANA and ANP fielded forces. Creating a roadmap for developing that logistics capability within
the ANSF and implementing it in a cohesive, systematic, and focused way to achieve an end-
state of ANSF logistics self-sufficiency within an acceptable timeframe will be essential to
ensuring the accomplishment of this important objective.

Difficulties in the Requisition Process. The ANA uses the MoD-Form 14 to
requisition and the MoD-Form 9 to issue supply items. The ANP uses a separate, but almost
identical process with the MoI-Form 14 used for requisitions and the MoI-Form 9 to document
issuance of items. Both requisition and issuance systems are derived from the U.S. military
supply system. The requisition and issuance process for both the MoD and MoI is


                                                 27
straightforward (Figures 1 and 2), but in order to work with transparency and accountability, it
must be linked to an accurate stock record accounting and property book system. The challenge
thus far has been to synchronize all three elements of the system. When operating as designed,
the ANSF supply system would be capable of providing management with fundamentally
necessary status reports on inventories, requisitions, and asset visibility.



                        MoD Requisitioning Process




                                 Figure 6. MoD Requisition Process
                                          (Source: CSTC-A)




                                                28
           MoI Requisitioning Process

                                        MoI 14   Provincial Supply
                                                       Point            MoI 14




                     Regional Logistics
            MoI 14        Center                                         District HQ         MoI 14


                                     Critical Concept in   System:
                                                        In Stock
                                      Single Document Number                           Police Unit
       Logistics Department
                                    Used by each Point in System                 Originates MoI Form 14
               MMC
                                         Tracks and accounts
                                        for a single requisition


                                                                                               MoI 9
            MoI 14                                                      Provincial Supply
                      National Depots                                         Point
                                                                                               Items



                          MoI 9
                         Issued                                      MoI 9, Items
                                             Regional Logistics
                          Items                   Center

                                    Figure7. MoI Requisition Process
                                           (Source: CSTC-A)

However, CSTC-A advisors reported that because there was little transparency in ANSF supply
distribution, each step in the requisition and distribution process was vulnerable to significant
inefficiency, as well as outright blockage of supplies due to corruption from bribes or from
pilferage. This has led to chronic supply delays or failure to receive ordered supplies. U.S.
mentors to the ANA and ANP chains of command have sometimes been able to determine the
cause of a supply problem and address the issue. But, because supplies were often not delivered
to ANSF units in a timely fashion, if at all, CSTC-A and ANSF personnel reported widespread
frustration with the supply requisition and issuance process and a lack of confidence in using it
as designed.

Some U.S., ISAF/Coalition, and ANSF field personnel stated that the respective MoD and MoI
supply systems were overly bureaucratic, inefficient, and generally ineffective. Some U.S.
logistics mentors opined that the strategy of replicating the U.S. logistical system within the
ANSF had thus far been unsuccessful. However, CSTC-A leadership expressed confidence that
the new logistical system could be made to work, once ANSF personnel receive sufficient
training and mentoring to understand how to use it properly. Senior CSTC-A logistics mentors
explained that since the Afghan security forces had never had a truly functional logistics system
before, it would take time to institutionalize the new concepts, processes, and procedures.

Despite the significant challenges to effective operation of the MoD and MoI supply systems,
CSTC-A reported that progress was being made. Although the systems had flaws, they were



                                                     29
moving slowly in the right direction. For example, our team discovered major improvements in
weapons accountability in both the ANA and ANP. CSTC-A mentors said that an ANP
transportation unit established in 2008 was already successfully transporting 10 percent of ANP
supplies with a goal of expanding that distribution capability. One mentor explained that, “The
MoD/MoI-14 system, which is modeled on our own system, may not (ultimately) work (as
presented) for the Afghans, but it gives them a place to start. It is up to the Afghans to develop
their own system that works for them. They need to find their way. The MoI-14 system gives
them a starting point.”

Insufficient Numbers of ANSF Logistics Personnel. U.S., ISAF/Coalition, and
ANSF personnel emphasized the importance of developing specialized logistics training and
logistics competency at all levels within the ANSF. The Commander of Afghan Regional
Security Integration Command-North observed that lack of basic competency was one of the
main reasons the ANSF supply system did not work. He observed that in the ANP, the
effectiveness of the logistics system was especially dependent on the capability level of the
provincial headquarters, through which all ANP requisitions passed.

To address the issue of the lack of logistics capability at all levels in the ANP, and at most levels
of the ANA, CSTC-A had recently initiated a contractor-run two-week logistics course. Some
ANA as well as ANP personnel, including battalion-level Border Police, had already attended.
However, actually transporting ANSF personnel to the training site presented formidable
challenges given the long distances, difficult terrain, and lack of security.

Developing and also maintaining a core capability of logistics personnel in the ANA has been a
particularly challenging problem. U.S. mentors
reported that there had been instances where
logistics-trained graduates reporting to a Combat
Service Support Battalion had been reassigned to
an operational infantry kandak. In part, this has
been due to the previous priority to grow the front
line fighting force. In several instances, this
problem was highlighted by the fact that units
originally established as Combat Support and
Combat Service Support kandaks were switched
over and fielded as infantry kandaks. An
additional contributing factor has been that ANA
soldiers in combat units receive extra pay           Figure 8. U.S. ETT mentors ANA soldiers at
incentives, whereas supply personnel may not.             Logistics Support Center in Kabul.
                                                                 (Source: U.S. Air Force)

CSTC-A intended to build new ANP Central Supply Depots and Regional Logistics Centers
(RLCs) that would be finished by the end of 2009. However, there was still a shortage of trained
Afghan logistics personnel to manage them. U.S. logistics mentors exclusively operated two of
the ANSF supply depots we visited. Because of the shortage of trained ANSF logistics
personnel, U.S. mentors did not appear to be very optimistic about being able to turn over the
management of the planned logistics facilities to the ANSF on schedule.



                                                 30
The SY 1388 Tashkil for the MoI, signed in late March 2009, included 1,628 logistics positions
throughout the MoI and ANP. 3 However, CSTC-A noted that recruiting and training civilians
would be a challenge, given the shortage of literate Afghan personnel. Even candidates with
basic literacy skills will not necessarily be qualified to manage the western-based logistics
system the ANSF has adopted until they demonstrate that they can actually assimilate the
necessary technical training.

Insufficient Numbers of ETT and PMT Logistics Mentors and Advisors. When
our assessment team visited Afghanistan in April 2008, there were few CSTC-A officer or NCO
mentors with logistics expertise assigned to the MoI and the ANP. In addition, there were no
Logistics ETTs working with the ANP below the provincial level. A CSTC-A contractor
provided most ANSF logistics mentoring, particularly for the MoI. CSTC-A has been addressing
that challenge. By March 2009, it had assigned 37 U.S. logistics personnel to the MoI and the
ANP to train and mentor at the ministry and provincial headquarters levels. In addition, CSTC-A
had organized four, two-man mobile logistics training teams to deploy to police units at the
provincial and district levels to help train the ANP to use the MoI logistics system.

CSTC-A had previously submitted several Requests for Forces to obtain the U.S. military
manpower required for its training and mentoring requirements, especially after it had been given
the mission of training the ANP in 2005. Since CSTC-A did not receive the police mentor
personnel requested in its Request for Forces, it could not make up the shortfall in Police Mentor
Teams (PMTs), including with respect to embedded logistics personnel. Therefore, in order to
create the minimal essential PMTs, mentors were transferred from existing ANA Embedded
Training Teams (ETTs). This resulted in PMTs that were staffed with skeleton crews and that
were not as robust as intended. In addition, the PMTs often had to mentor more police units
(usually, district headquarters) than originally planned. Transferring ETT personnel to establish
PMTs had the further effect of increasing the shortage of ETTs. Therefore, both PMTs and ETTs
were under-resourced, under-staffed, and had to mentor more units, with less than sufficient time
devoted to each. The pending deployment of a second Brigade Combat Team to Afghanistan to
provide additional mentors for the ANA and ANP will help address this problem. The CSTC-A
Commander indicated that he was hopeful that this increase in dedicated U.S. training forces
would alleviate much of the mentoring shortfall.

The lack of a trained logistics corps within the ANSF, and particularly within the ANP, resulting
in part from a shortage of U.S. logistics mentors and advisors to assist in its development, has
been one of the biggest obstacles to achieving an effective ANSF logistics system.

Other Contributing Factors
There are several other factors that have contributed to the ineffectiveness of the ANSF logistics
system.

Low Literacy Rate. Most of the skill areas associated with logistics requires a certain degree
of literacy. This is true for a mechanic using a maintenance manual, or a supply clerk processing

3
    Civilians would constitute 1002 of the 1628 positions. The remainder would be uniformed police logisticians.


                                                          31
a requisition or maintaining a property book. Consequently, the low literacy rate in the ANSF
has limited the development of an effective ANSF logistics system. Although ANSF logistics
officers were supposed to be literate many of them were not, according to U.S. mentoring staff.
Because of this factor, U.S. mentors often have filled out the MoD/MoI-9 and MoD/MoI-14
forms and performed required follow-up.

Afghan Culture: A Culture of Poverty. Thirty years of turmoil caused by invasion, civil
war, and repressive government left Afghanistan with dysfunctional governmental institutions
and an impoverished population. This “culture of poverty” has created distrust among the
Afghan people toward their leaders in the government and toward each other. Mentors explained
that ANSF are so afraid that they will be left with nothing (again) that they have a hard time
“giving up” or distributing items that come down the ANSF supply chain. U.S. trainers reported
that the mindset of not wanting to give up supply items for fear that no more would follow was
pervasive throughout the ANSF supply system.

Corruption. In 2009, the MoD and MoI initiated major efforts to reduce corruption. It will
take time, political will, and committed leaders, however, for new policies and procedures to
become institutionalized and therefore to have a significant effect. In one region visited, mentors
reported that the ANP logistics system was rife with corruption, and that most corruption was
perpetrated frequently by those at the higher ranks. Even when corruption was caught and well-
documented, it was very difficult to get senior officers removed or otherwise sanctioned. U.S.
logistics mentors explained that in the past, some officers found guilty of corruption were simply
reassigned to another location, rather than removed from service or otherwise sanctioned, thus
contributing no deterrent effect and setting a very poor example to the rank and file police
personnel.

CSTC-A reported that, largely because of corruption, fuel availability and distribution within the
ANP was proving to be a systemic problem. Corruption, combined with hoarding of fuel, has
repeatedly created a bottleneck in the ability to distribute fuel from the provincial to the district
police headquarters. Numerous reports from mentors in the field bore witness to the problem of
fuel hoarding at the provincial level with the result that police districts had to curtail vehicular
patrols because of lack of fuel.

In early 2009, the Ministers of Defense and Interior issued strong guidance requiring
accountability and control of equipment, including weapons. These actions should significantly
strengthen oversight over time and make corruption increasingly difficult, if the government and
ANSF chains of commands consistently apply these standards. Because of the proliferation of
corruption within the ANP, the MoI IG informed our assessment team that he had just completed
a preliminary “Anti-Corruption Plan” at the Minister of Interior’s direction. The Minister’s anti-
corruption initiatives included publishing the new MoI Logistics Policy, the implementation of
which had been delayed for some time because some senior MoI personnel allegedly feared that
doing so would provide “too much” transparency to the logistics process. In addition, the
Minister was initiating reforms in the contracting, logistics, and fuel programs, and was standing
up a formal Anti-Corruption Task Force.




                                                 32
Although the MoD and MoI, with the assistance of CSTC-A, have begun moving against
corruption to reduce its impact on the logistics and supply system, CSTC-A staff indicated it
would likely be at least another year before the ANSF would be able to demonstrate measureable
progress.

Transportation and Infrastructure. Logistics mentors indicated that the mountainous
terrain in Afghanistan, combined with the lack of functional roads and the narrowness of village
streets, made transporting supplies to locations outside of city centers very difficult and
dangerous. Police mentors reported that some police units were only accessible by goat path or
air transport, and some logistics facilities and regional supply centers were in locations that were
far from the receiving unit. Although CSTC-A reported that several new supply facilities were in
the process of being built or had just been completed, those facilities were concentrated in
geographic areas that were relatively accessible and secure. The lack of infrastructure and supply
stability in some of the more remote or “active” areas was still problematic for ANSF units who
operated there. A shortage of personnel and transportation equipment, poor or no roads, and the
security threat, which required additional convoy security force protection, further compounded
transporting supplies.

Consumable Supply Shortages. Because of the difficulty in applying the MoD/MoI-
requisition systems, some ANA and ANP units did not consistently receive necessary supplies
such as ammunition, generator fuel, firewood and, at times, winter clothing. In addition,
explaining a not uncommon condition, one district police chief said that he did not have enough
weapons for each of his policemen, and therefore all of the unit’s weapons were in constant use.
At some posts, there might be 10 policemen and only 5 weapons. Weapons were turned over
from one shift to the next and, because of that, the weapons were poorly maintained.

Conclusion
Logistics development in the ANSF is immature and numerous challenges must be overcome
before the ANSF has the capability to become self-sustaining. Some of those challenges include
the lack of a strong and capable ANSF logistics corps, the lack of logistics ETT/PMT trainers
and mentors, corruption, and the Afghan culture itself. Despite the many challenges in the
logistics arena, the mentors and trainers with whom we spoke indicated that progress was being
made and that they were very committed to succeeding in their mission. However, until the
ANSF have a functional logistics capability, U.S. and ISAF/Coalition mentors and trainers will
have to continue to “push” needed equipment and supplies out to the field and provide the
enabling forces to make the ANSF logistics process work.

Recommendations, Client Comments, and Our Response
 4.a. Commander, Combined Security Transition Command–Afghanistan, in coordination with
 the Minister of Defense and Minister of Interior, establish an overarching Strategic Plan for
 developing a comprehensive Afghan National Security Forces Logistics Capability, with
 accompanying operational Action Plans for each logistics area, including acquisition, storage,
 movement, distribution, maintenance, and disposition of material, that will enable the Afghan
 National Security Forces to become operationally independent and self-sustainable within a
 mutually acceptable timeframe.


                                                33
Client Comments
Commander, CSTC-A concurred with the recommendation, noting that they had developed
Ministerial Development Plans and supporting action plans for the MoI and MoD to improve
sustainable capacity and capability. The Commander also reported that, at his invitation, the U.S.
Army Materiel Command, the U.S. Army Central Command, and the U.S. Army Chief of
Staff/G-4 had dispatched a joint team to assess the Afghan logistics system and to propose a
strategy for greater ANSF self-sufficiency. He stated that the ANA portion of that assessment
was to be completed in September 2009 and the ANP portion would be completed by October
2009. These plans would then be coordinated with and implemented by the MoD and MoI.

Our Response
Commander, CSTC-A comments were responsive. We request that Commander, CSTC-A,
forward to OIG a copy of the proposed logistics plans for the ANA and the ANP when they are
completed.

4.b. Commander, Combined Security Transition Command–Afghanistan, in coordination with
the Minister of Defense and Minister of Interior, determine the Afghan National Security Force
logistics personnel requirements and develop a cadre of trained Afghan National Security Forces
logisticians who are recognized and rewarded for developing, maintaining, and increasing their
logistics skills.

Client Comments
Commander, CSTC-A concurred with the recommendation, stating that CSTC-A was currently
conducting an in-depth assessment of the ANA logistics capabilities, to include an analysis of the
future organizational and personnel requirements that will be required to sustain the planned end-
state for growth of the ANA.

Our Response
Commander, CSTC-A comments were responsive, and no additional comments are required.

4.c. Commander, Combined Security Transition Command–Afghanistan, in coordination with
the Minister of Defense and the Afghan National Army General Staff, develop personnel policy
requiring that soldiers with logistics specialty skills be assigned to positions and organizations
requiring those skill sets.

Client Comments
Commander, CSTC-A concurred with the recommendation. He reported that establishment of
improved ANSF personnel management systems that clearly identify training and military
occupational specialties attained by soldiers and police was a top priority for CSTC-A. He
indicated that development of such a system was part of a broader CSTC-A approach to improve
several ANSF systems, including personnel management, logistics, financial management, and
force management.



                                                34
Our Response
Commander, CSTC-A comments were partially responsive. Development of personnel
management systems that can track individual assignments, training, and skills of ANA soldiers
is part of a long-term solution toward ensuring that specially qualified personnel are assigned to
and report to the units where their skills are in demand. This holds true for many specialty areas,
not just logistics. Yet development of a systems approach to personnel management for the
ANSF seems to be several years in the offing. In the meantime, soldiers and officers who have
completed formal courses in logistics and who may have been designated as skilled logistics
technicians may be assigned wherever the immediate perceived need of the ANSF is greatest,
and, unfortunately, the assignment may not be to a job where their specialized skills will be put
to good use. We request that the Commander, CSTC-A comment on what actions are being taken
in the near-term within the ANSF to ensure that officers and soldiers who have received
specialized training in logistics are indeed being assigned to billets where their newly acquired
logistics skills can be effectively applied in support of the ANSF logistics mission.

4.d. Commander, Combined Security Transition Command–Afghanistan, in coordination with
Commander, U.S. Forces-Afghanistan/International Security Assistance Force-Afghanistan,
determine the number of dedicated U.S. and other international force logistics trainers and
mentors necessary to develop the required logistics capability within the Afghan National Army
and Afghan National Police.

Client Comments
Commander, CSTC-A concurred with the recommendation, relating that CSTC-A had recently
performed a top to bottom review of the National MoD and MoI logistics trainer requirements as
part of an ISAF-led “resources to task” analysis and will be considered as part of any
forthcoming COMISAF\USFOR-A request for additional ANSF trainers.

Our Response
Commander, CSTC-A comments were responsive, and no additional comments are required.




                                                35
Observation 5. Combined Security Transition Command–
Afghanistan Personnel Issues
The CSTC-A headquarters and its staff was insufficiently resourced to execute the broad-scope
and complexity of its mission, which entails the multiple tasks of training, equipping, and
mentoring to generate, develop, and sustain ANA and ANP security forces, as well as the
mentoring of senior Afghan MoD, General Staff, and MoI personnel.

Furthermore, there are insufficient numbers of U.S. and ISAF/Coalition mentors (ETTs/OMLTs
and PMTs/POMLTs) supporting the ANSF to effectively accomplish the in-the-field train and
equip mission. Additionally, the Military Occupation Specialty (MOS) skills and specialties
required of the ETTs/OMLTs and PMTs/POMLTs are not always analogous with the functions
they are mentoring.

Because the U.S. effort to build the ANSF has been an “economy of force” operation, and,
consequently, has not been adequately resourced with the appropriate number and skill sets of
personnel, progress in creating the ANA and ANP has been less expeditious than it potentially
could have been.

Failure to provide the personnel resources the ANSF train and equip mission requires has
delayed and will continue to delay building the sustainable capability of the ANSF to
successfully fight this war, and, unless addressed, will prolong the duration of U.S. and
Coalition/ISAF security responsibilities in Afghanistan.

Applicable Criteria
Request for Forces 937and 938. These are classified documents.

CSTC-A Joint Manning Document. This document authorizes the unfunded temporary
duty positions for CSTC-A while in support of Operation Enduring Freedom.

U.S. and Coalition/International Security Assistance Forces Train and
Equip Mission
Combined Security Transition Command–Afghanistan: Headquarters and
Staff Personnel Requirements. The ANSF train and equip mission is complex and
broad-scoped at all levels. It is particularly challenging at the CSTC-A headquarters and staff
level. Almost all of these officers and NCOs are dual-hatted, not only serving as full-time CSTC-
A staff members orchestrating the greater train and equip mission, for a force engaged in a
counter-insurgency campaign, but also mentoring senior Afghan officials in the MoD, General
staff, and MoI. CSTC-A personnel readily admitted that they do not have sufficient time to
properly carry out their senior ANSF leader and staff mentoring roles because of the often urgent
priority demands associated with their positions as CSTC-A staff officers and NCOs.

For example, the CSTC-A CJ7 section responsible for Focused District Development program
planning and implementation only had four personnel assigned, which appeared to be less than


                                               37
actually required. They had the dual responsibility of supporting this key program as part of
CSTC-A’s staff, as well as mentoring selected staff personnel at the MoI. The majority of their
time was spent planning and arranging logistical ANSF movements not related to mentoring the
MoI. Personnel shortfalls on the CSTC-A staff decreased the efficiency and effectiveness of their
mentoring mission and have consequently delayed the development of their MoD and MoI
counterparts.

Additionally, there were indications that the Combined Fielding Center (CFC) that provides
kankak (battalion) unit level training had insufficient numbers of U.S. and ISAF/Coalition
trainers assigned to effectively carry out that mission’s responsibilities. Combined Training
Advisory Group (CTAG) and CFC trainers expressed concerns that they did not have sufficient
U.S. and ISAF/Coalition personnel assigned, especially given the accelerated ANA fielding
schedule to meet increased ANA end-strength requirements.

The manpower requirements for the CSTC-A headquarters and staff, as well as for trainers
assigned to the KMTC, are documented on the CSTC-A Joint Manning Document (JMD). While
changing the JMD would be the usual procedure to increase personnel authorizations in this
situation, routine processing of such a change request, even if approved, would not likely result
in additional personnel actually on the ground until 2011. This would not provide the timely
assistance required to support the full scope of CSTC-A operations, including plans to increase
the ANA fielding to 134,000 soldiers by the end of 2011.

CSTC-A agreed that additional manpower at the CSTC-A headquarters and staff level could be
required and that an expedited JMD change request might be needed. However, this request
would depend on the outcome of an ongoing review of CSTC-A roles and functions to first
ensure overall efficiency was being achieved in the organization.

Embedded Training Teams and Operational Mentor and Liaison Teams.
ETTs and ISAF OMLTs provide the ANA with mentoring and training support of all unit
functions and capabilities that enhance the ability of the ANA to operate effectively and,
eventually, independently. The ETTs and OMLTs also provide direct access to essential U.S. and
ISAF resources and enablers, such as close air support and medical evacuation. In addition,
ETTs and OMLTs assess ANA unit capability, and identify strengths, shortfalls, and
opportunities for improvement.




      Figure 9. From left: U.S. ETT personnel advise ANA counterparts; British OMLTs mentor ANA
                                                 soldiers.
                             (Sources: Virginia National Guard; NATO ISAF)


                                                  38
The personnel challenge for CSTC-A increased significantly in 2005 when it was assigned the
mission of training and equipping the ANP in addition to the ANA, causing already short ETT
manpower to be diverted to support establishing PMTs. These shortfalls have not been filled in
response to previous Requests for Forces (RFFs). Consequently, ETT and PMT personnel
limitations have slowed the rate of development of the ANA and ANP.

As of May 2009, CSTC-A needed approximately 5,688 personnel for ETTs and PMTs when
compared to the requirement stated in RFF 920 and 937. However, only about 2,097 had been
assigned. Additionally, as of June 2009, ISAF and Coalition partners had provided 54 OMLTs
(about 831 personnel) out of the current requirement of 65, as established in the ISAF Combined
Joint Statement of Requirement (CJSOR). Combining the ETT/PMT/OMLT assigned strength
(approximately 2,928) against the 5,688 requirement provided CSTC-A with about a 51 percent
overall fill rate.

CSTC-A determined that the OMLT requirement to support an ANA force of 134,000 would be
103. However, CSTC-A expects the OMLTs to stabilize at only about 70 teams against that
requirement.

TF Phoenix regional commanders stated that these personnel deficiencies in CSTC-A ETT and
PMT field training mentoring personnel had presented significant problems in carrying out their
mission. Specifically:

      In ARSIC-E, ETTs are at less than 50 percent strength, staffed with four to six personnel,
       far short of the required 16.
      ARSIC-C reported that ETTs have an average of only four of 16 personnel required and
       are forced to “borrow” the necessary support and security personnel from nearby U.S.
       combat units.
      ARSIC-S reported that its operations have been stressed by the lack of personnel
       resources. For example, the minimum force protection requirement for movement off of a
       Forward Operating Base (FOB) by an ETT to conduct an outreach operation is nine
       personnel. However, some teams are comprised of as few as four soldiers. Because of
       this, some ANA units in outlying FOBs in ARSIC-S have not received the ETT
       mentoring support required. Those FOBs were visited whenever possible, but the ETTs
       could not provide the overwatch actually needed.
      Staff from the Regional Corps Advisory Command (RCAC) in ARSIC-E stated that
       replacement individual augmentees were rarely assigned by CSTC-A to the billet against
       which they were requisitioned, apparently due to a combination of combat and non-
       combat losses, as well as the changing situation on the ground. And, in many instances,
       personnel who were trained at Ft. Riley did not know whether they would be assigned as
       ETTs or PMTs until arrival in-country.
      CSTC-A staff assigned to the CFC noted that ETTs accompanying Afghan infantry
       battalions (kandaks) were invariably under-strength.
      Many of the ARSICs reported that MOS skills and specialties required of the
       ETTs/OMLTs and PMTs/POMLTs are not always analogous with the functions they are
       mentoring; personnel did not have the skill sets required for their positions.


                                               39
Police Mentors
Afghan National Police (ANP) organizations fall under the authority of the MoI. CSTC-A, along
                                with a civilian contracting organization hired by the State
                                Department’s International Narcotics and Law Enforcement
                                Bureau, have the critical mission of training and mentoring
                                the growth and development of a professional national police
                                force of 96,800. It was anticipated that the size of this force
                                would be further increased.

                                    However, the current lack of PMTs has significantly impeded
                                    building ANP capacity because CSTC-A PMT personnel
                                    levels have been insufficient to effectively support the ANP
                                    training and mentoring mission. The target number of teams
                                    to be fully operational was 635, while CSTC-A had only 90
                                    operational, and they were under-strength. The actual
                                    personnel present compared to the RFF stated requirement for
                                    PMT personnel was only 39 percent; 922 personnel were
                                    assigned against the 2,375 required.
 Figure 10. U.S. PMT advises ANP
              officer.
         (Source: CSTC-A)
A full strength 14-person PMT would be comprised of four military members (leader, personnel,
operations, and logistics), two civilian or military police (International Narcotics and Law
Enforcement Affairs [INL] contract employees), two linguists, and a six member U.S. military
security force element. Among the key duties of PMTs are regular assessments of a particular
district or districts, training and mentoring the ANP organizations assigned to that district(s), and
checking on their monthly progress until they reach a readiness level capable of functioning
independently. Further, the PMTs are especially critical to the ANP in a district or province
when they have been selected for the Focused District Development (FDD) program. In the FDD
process, PMT teams actually participate in the training program with their ANP counterpart
units. Insufficient numbers of PMTs thus limit the scope and rate of FDD training.

Without enough PMTs, commanders are forced to cut down on their mentoring missions. For
example, the U.S. Commander responsible for the 31 Kabul police districts indicated that, during
his tour, a combination of personnel shortages and realignments had reduced operational
capability from four to two 12-person teams. With four teams, he was able to conduct missions
to each district every few days. With only the two teams, they were only capable of visiting
districts about once every seven to ten days, and their understaffed PMTs had to cover multiple
districts.

In another example, five PMTs in RC North have had to support nine provinces and 10 districts.
Moreover, the PMTs reported that personnel shortages prevented them from supporting any
police companies at the provincial level. Consequently, when provincial police companies were
selected for FDD training, established plans called for PMTs to accompany the police and to
continue mentoring them once they returned to the province after completion of training.
However, there were no PMTs available to do either of these tasks, degrading the effectiveness
of the FDD training.


                                                 40
Ongoing Corrective Actions
The Joint Chiefs of Staff have recently taken steps to mitigate the shortfall of ETTs and PMTs
against the force requirements established in RFF 937 by tasking the Army to deploy an active
duty Army Brigade Combat Team to deploy and provide additional mentor and trainer support
for the ANSF train and equip mission. This “second” BCT will reinforce the one National Guard
Brigade (TF Phoenix) that has been carrying out the bulk of the mentoring mission,
supplemented by an additional number of individual mobilization augmentees.

The second BCT will almost double the ETT and PMT personnel presently on the ground in
support of the ANSF train and equip mission. In addition, the ETTs and PMTs provided by the
active duty BCT are expected to benefit from the synergy and cohesion that comes from being
supported by their parent battalion and brigade headquarters.

The RFF 938 for a Military Police battalion to provide additional personnel for PMTs has also
been approved and sourced.

The assignment of the National Guard Brigade, an active duty BCT, and an additional Military
Police battalion will significantly expand the number of personnel available to organize and man
ETTs and PMTs. However, the differences in the rank structure of U.S. military personnel in
these new mentoring units and that previously provided by individual augmentees deployed in
response to RFF 920 and 937 will result in a net decrease in the number of field grade and senior
NCO mentors. For example, an Afghan General Officer, who had formerly been mentored by a
U.S. colonel, may now be mentored by a U.S. lieutenant colonel or a major. The overall shortfall
in senior rank structure under the new 2-BCT mentoring concept will be approximately 136 field
grade officers and senior NCOs. The impact of this shortfall on overall mentoring effectiveness
cannot yet be determined. .

CSTC-A indicated it was not yet concerned about this mentoring seniority shortfall, noting that
the mid-grade officers of the U.S. active duty Army BCT come with the resources of a battalion
and staff to back them up. This support was not afforded to individual mobilization augmentees
who staffed senior mentor positions in the ARSICs under TF Phoenix.

Nonetheless, CSTC-A may still need additional senior officers and NCOs as mentors for senior
Afghan personnel. CSTC-A noted that they would re-evaluate the need for additional senior
officers and NCOs beyond those provided by the two BCTs, although they believed that the
actual requirement would likely be less than 136.

USFOR-A, in coordination with CSTC-A, has continued to implement a partnering program that
pairs U.S. combat units with specific ANA units to reinforce the overall mentoring effort. The
U.S. combat unit, the ANA unit, and the ETT participate together in staff planning, rehearsals,
and execution of combat operations in their assigned areas of responsibility. Increasingly, with
this and ETT support, ANA units have developed sufficient experience and capability to take the
lead in combined combat operations.




                                               41
USFOR-A has also taken steps to enhance the ISAF/Coalition ability to develop the ANP by
specific mission-tasking of inbound U.S. brigades and battalions to provide police mentors in
their battle space.

The Commander, CSTC-A was recently “dual-hatted” to provide him with the additional
authority of Commander, NATO Training Mission-Afghanistan. The result of this integration of
command and control over both U.S. and ISAF mentor elements should facilitate achieving
enhanced coordination and standardization of the ISAF efforts with that of U.S. forces and
improve mentoring performance of the ANSF.

Conclusions
There have been insufficient personnel assigned against the ANSF train and equip mission since
its inception. The CSTC-A staff authorization falls short of the requirement and the personnel
assigned to the ETTs and PMTs fall well short of the authorization. The JCS, in coordination
with CSTC-A and USCENTCOM, has taken steps some recent steps to correct this deficiency by
assigning an active duty BCT and active duty Military Police battalion to bolster the effort
provided by the National Guard Brigade that has historically been in place. While this will
greatly offset the shortage of ETTs and PMTs, there will still be selected shortfalls of senior
grade mentor and trainer personnel. The CSTC-A headquarters will also remain short of the
required personnel to effectively conduct their dual mission as CSTC-A staff and mentors to the
MoD and MoI.

Recommendations, Client Comments, and Our Response
    5.a. Commander, Combined Security Transition Command–Afghanistan, in coordination
with Commander, U.S. Forces Afghanistan, and Commander, U.S. Central Command, conduct
a Joint Manning Document review to address potential staff and mentor shortages within
headquarters and staff of the Combined Security Transition Command–Afghanistan.

Client Comments
Commander, CSTC-A concurred, reporting that an out of cycle JMD request to source necessary
key requirements had been submitted in May 2009. However, any growth of the CSTC-A JMD
will be factored into an overall request for ANSF trainers that may result from the COMISAF
strategic assessment.

Our Response
Commander, CSTC-A comments were responsive, and no additional comments are required.

5.b. Commander, Combined Security Transition Command–Afghanistan, in coordination with
Commander, United States Forces–Afghanistan, and Commander, U.S. Central Command,
develop a plan to request the necessary number of field grade officers and senior non-
commissioned officers on a continuing basis as individual augmentees that will not be sourced
by the 2 Brigade Combat Team concept in order to ensure acceptable rank compatibility with
Afghan National Security Force senior personnel.



                                               42
Client Comments
Commander, CSTC-A concurred with the recommendation, noting that the ANSF train and
advice effort had been greatly enhanced by the arrival of the second BCT. Both BCTs have been
augmented with senior grade officers and NCOs.

Our Response
Commander, CSTC-A comments were responsive, and no additional comments are required.

5c. Commander, Combined Security Transition Command–Afghanistan, in coordination with the
Commander, U.S. Central Command, Commander, U.S. Army Forces Command, and the
Commander of the inbound active duty Brigade Combat Team, take action to ensure appropriate
skills and training are provided to the personnel from the active duty Brigade Combat team who
will be assigned to Embedded Training Teams and Police Mentoring Teams.

Client Comments
Commander, CSTC-A concurred with the recommendation, noting that USFOR-A had recently
established a J-7 with the responsibility to provide specific training requirements for the ANSF
training mission to the CONUS based training programs. CSTC-A provided detailed training
information to 4-82 BCT prior to their deployment, to include a handbook developed by TF
Phoenix tasks associated with the ETT/PMT mission set.

Our Response
Commander, CSTC-A comments were responsive, and no additional comments are required.




                                               43
Observation 6. Pre-Deployment Training of Embedded
Training Teams and Police Mentoring Teams
The Embedded Training Teams (ETTs) and Police Mentoring Teams (PMTs) pre-deployment
training, currently conducted at Ft. Riley, Kansas for all U.S. military services except Marine
personnel, has largely focused on combat survival skills, without sufficient emphasis on Afghan-
centric mentoring and training skills. An effort to rebalance the course more in favor of mentor
training was implemented the spring of 2009, but the results will not be evident until later in the
year.

ETT and PMT soldiers interviewed in Afghanistan who trained at Ft. Riley also believed that the
course is unnecessarily long (approximately 72 days) in terms of its relevance to what they have
learned about their actual operational needs on-the-ground. In addition, some mentors observed
that the course was too Iraq-centric in its focus and needed to better incorporate the reality of the
Afghanistan expeditionary force environment. Also, logistics mentors noted that the training did
not prepare them to mentor ANSF logistics personnel, an increasingly key area of CSTC-A
focus.

Moreover, some personnel who trained at Ft. Riley as ETTs were subsequently assigned as
PMTs on arrival in Afghanistan. Therefore, they do not receive special emphasis on their PMT
mentoring role in the training.

The Program of Instruction (POI) at Ft. Riley, Kansas was developed to train 93 combat survival
tasks and 12 mentoring/advising tasks. These tasks are mandated by U.S Forces Command
(FORSCOM) training guidance.

The assignment of personnel trained as ETTs to PMT positions resulted from a lack of
coordination between FORSCOM, USCENTCOM, and CSTC-A.

As a consequence, of receiving insufficient training on their specific mission, mentor personnel
have not arrived in-country sufficiently prepared to carry out their responsibilities and their
Army or Police counterparts may not have been supported as effectively as required.

Applicable Criteria
DOD Directive 1322.18. DODD 1322.18, “Military Training”, January 13, 2009, states
that:

               Members of the Department of Defense shall receive, to the maximum extent
               possible, timely and effective individual, collective, unit, and staff training,
               conducted in a safe manner, to enable performance to standard during
               operations…

FORSCOM Message: Subject/2008 Revised Transition Team Training
Guidance, DTG 080257 Mar 08, Unclassified. This message provides updated
training guidance for transition teams deploying in support of operations in Southwest Asia
(SWA). This document replaces IAG training guidance DTG 182148Z Jan 07 and aligns


                                                     45
previous guidance for transition teams deploying to Southwest Asia with FORSCOM training
guidance for follow on forces deploying in support of operations in Southwest Asia. This
message directs that all transition team personnel are to conduct pre-deployment training in
accordance with this message.

FORSCOM Message: Subject/FORSCOM Training Guidance for Follow-On
Forces Deploying in Support of Southwest Asia (SWA), DTG: 172053Z Nov
08, Unclassified. This message provides a stand-alone document which does not require
referencing prior messages and incorporates requirements and procedures identified in
Headquarters, Department of the Army Execution Order 150-08, Subject: “Reserve Component
Deployment Expeditionary Force Pre and Post-Mobilization Training Strategy. It guides
development of plans for unified and collaborative reserve component deployment training.

Embedded Training Team/Police Mentoring Teams Pre-Deployment
Training
The majority of the military personnel that are currently assigned to ETTs and PMTs in
Afghanistan went through pre-deployment training at Ft. Riley, Kansas. (Marine personnel
usually train at one of their own training facilities.) To date, these personnel have mainly been
Reservists or Guardsmen from the various Services or active duty personnel sourced from the
Air Force or Navy. Including in and out-processing, the training lasts about 72 days and, in the
case of Army Guard and Reserve personnel, counts toward their year-long mobilization tour of
duty. The training is currently a Forces Command (FORSCOM) mission and is conducted by the
1st Brigade of the 1st Infantry Division. The training will be transferred from Ft. Riley to Ft. Polk,
Louisiana no later than September 2009. FORSCOM will retain responsibility for the training, at
least temporarily, with advice and assistance from the U.S. Army Training and Doctrine
Command.




   Figure 11. From left: Airmen at the Advanced Contingency Skills Training Course at Fort Dix, NJ;
             National Guardsmen participate in pre-deployment training at Fort Drum, NY.
               (Sources: U.S. Air Force; NY State Division of Military and Naval Affairs)

This training is critical to the preparation of ETTs and PMTs for their important role in the key
ANSF train and equip mission. Soldiers and leaders we interviewed in Afghanistan generally
believed the training was excessively oriented on the “kinetic”, e.g. light infantry aspect of the
preparation, and insufficiently focused on the skills, tactics, techniques, and procedures needed




                                                   46
for training and mentoring the Afghan Army and Police, especially in specialty functions such as
logistics.

CSTC-A and Task Force (TF) Phoenix have been developing a process to capture ETT and PMT
member’s lessons learned and will recommend course improvements based on these insights to
pre-deployment training personnel at Ft. Riley/Ft. Polk. This process is just being implemented
and consists of a survey at the beginning, mid-point, and end of a service member’s tour. CSTC-
A intends to provide this feedback to the trainers at Ft. Riley/Ft. Polk via CENTCOM.


Status of Pre-Deployment Training. A review of the current status of pre-deployment
training for ETTs and PMTs determined that:
      1st Brigade, 1st Infantry Division at Ft. Riley has had the training mission since 2006.
       The Brigade has about 820 personnel to support the training mission.
      The Program of Instruction (POI) is derived from FORSCOM training guidance. These
       documents mandate training on 93 combat survival tasks and 12 mentoring/advising
       tasks.
      Starting with Class 70, which began training on March 30, 2009, 1st Brigade at Ft. Riley
       has focused more attention on the mentoring/advisory tasks and counter-insurgency
       (COIN), increasing the Program of Instruction (POI) emphasis in these areas from three
       to 12 days. This was accomplished within the confines of the 72 days total at Ft. Riley.
       (None of the ETT/PMT personnel interviewed in Afghanistan had the benefit of this
       training change.) The effectiveness of the new increased emphasis on mentoring/training
       tasks may not be evident until about December 2009, when those trained under the
       revised POI complete CSTC-A’s mid-tour surveys.
      The 1st Brigade Operations section at Ft. Riley has been closely linked with the Iraq
       Assistance Group (IAG) and had a system initially established for personnel deployed to
       Iraq to routinely receive feedback used to adjust the training. This process appeared to
       have been less successful with CSTC-A and TF Phoenix in Afghanistan.
      In the past, CSTC-A did not send training information and lessons learned back to Ft.
       Riley for possible adjustment to the POI. For example, personnel assigned to PMTs had
       not been trained on the use of the Capability Endorsement form submitted monthly to
       CSTC-A to assess the level of competency and readiness of ANP units. Most of the
       trainers had not seen the forms before they arrived at their ANP organization.
      However, the 1st Brigade recently assigned a senior Sergeant and Lieutenant Colonel as
       liaison staff to TF Phoenix in Afghanistan to improve the coordination/feedback effort.
       There have also been recent exchange team visits to each location by 1st Brigade and
       CSTC-A personnel.
      Regional Police Assistance Command (RPAC) members indicated that the training they
       had received at Fort Riley did not adequately prepare them for the police training
       mission. The training was Iraq-centric. If they were taught anything about Afghanistan, it
       was from an ANA perspective vice ANP. They also said they needed more training on
       the ANP logistics system.




                                               47
      The ETT/PMT training mission will move from Ft. Riley, Kansas to Ft. Polk, Louisiana
       in the fall of 2009. Class 78 will be the last class trained at Ft. Riley and will graduate in
       mid-September 2009.
      The 162d Infantry Training Brigade will be activated at the JRTC at Ft. Polk to conduct
       the ETT/PMT training. Class 81 will start arriving at Ft. Polk in mid-August and will
       start training on 31 Aug 09. The POI for the instruction at Ft. Polk will be the same POI
       that has been taught at Ft. Riley for at least two or three rotations. About 140 personnel
       from 1st Brigade at Ft. Riley will transfer to the 162d Infantry Training Brigade at Ft.
       Polk to provide continuity. While there may be some unresolved range structure issues at
       Ft. Polk early on in the training, the transfer of the mission appears to be on-track.
      U.S. Forces-Afghanistan (USFOR-A) plans for key U.S military leaders and planners at
       all levels to attend the in-country COIN Leader’s Course, including those involved in the
       train an equip mission. However, it was acknowledged that this will be a difficult goal
       given the difficulty of travel in-theater. USFOR-A also intends to submit quarterly
       training recommendations through CENTCOM and JFCOM to FORSCOM for possible
       incorporation into the ETT/PMT training POI.

Recently, DOD decided to increase the number of personnel supporting the ETT and PMT
missions in Afghanistan by deploying an active duty Army Brigade Combat Team (BCT) to
support the Afghan train and equip mission. The additional BCT, which will be uniquely trained
and staffed, would roughly double the one National Guard Brigade that has traditionally
comprised TF Phoenix, the organization with oversight for ANA and ANP mentoring for CSTC-
A. The ETT and PMT training mission will be a new requirement for this active duty BCT.
Mobile training teams will be sent from Ft. Riley or Ft. Polk to the Army Brigade’s home base to
conduct training, including situational training exercises.

Recommendations, Client Comments, and Our Response
 6.a. Commander, U. S. Army Forces Command, in coordination with Commander, Joint Forces
 Command, Commander, U.S. Central Command, and Commander, Combined Security
 Transition Command–Afghanistan, review the program of instruction at all continental United
 States military service facilities that are training Embedded Training Team and Police Mentoring
 Team personnel for Afghanistan to ensure that the mentoring/training is adequate to meet on-
 the-ground operational needs in Afghanistan and that training is standardized across services.

Client Comments
Commander, U.S. Army Forces Command (FORSCOM) concurred with this recommendation,
noting that Programs of Instruction for ETTs and PMTs at all training facilities were developed
to meet the requirements published in the FORSCOM Southwest Asia (SWA) Training
guidance. This document was developed in coordination with USCENTCOM and Army Central
Command. It is updated in coordination with them every six months. Additionally, FORSCOM
hosted a working group on September 9 and 10, 2009, that addressed ETT/PMT training for
units sourcing those requirements. The U.S. Forces-Afghanistan J7 was present and concurred
with the recommended adjustments to ETT/PMT training developed by the working group.



                                                 48
Those adjustments will be captured in a Task Order and the next update to the SWA training
guidance.

Our Response
Commander, U.S. Army Forces Command comments were responsive. We request a copy of the
Task Order and the next update to the SWA Training guidance, when published.

6.b. Commander, U. S. Army Forces Command, in coordination with Commander, Joint Forces
Command, Commander, U.S. Central Command, and Commander, Combined Security
Transition Command–Afghanistan, develop the system to capture lessons learned specific to
Afghanistan and ensure these lessons are appropriately incorporated into the program of
instruction for Embedded Training Team and Police Mentoring Teams personnel.

Client Comments
Commander, U.S. Army Forces Command (FORSCOM) concurred with this recommendation.
The USFOR-A Deputy Commanding General, Support, hosted an Afghan Trainer’s Community
of Interest video teleconference (VTC) on September 9, 2009. This VTC was a part of an
ongoing series of weekly VTCs between the Training Team Training Mission and the theater,
designed to capture and build on lessons learned. As noted previously, FORSCOM will use this
data to regularly update training guidance.

Our Response
Commander, U.S. Army Forces Command comments were responsive. We request a copy of the
Task Order and the next update to the SWA Training guidance, when published.

6.c. Commander, Combined Security Transition Command–Afghanistan, in coordination with
Commander, U.S. Central Command, and Commander, U. S. Army Forces Command,
coordinate training and assignments so that individuals and teams are trained as either Army or
Police trainers and then are assigned to the position they trained for upon arrival in Afghanistan.

Client Comments
Commander, CSTC-A concurred with this recommendation and will implement to the extent
practicable. Changes in the mission, the operational environment, and available resources often
require the Commander to task organize available assets.

Our Response
Commander, CSTC-A comments were responsive, and no additional comments are required.




                                                49
Observation 7. U.S. Navy and U.S. Air Force Re-Missioning
Caveats
Official caveats applied by their respective services to U.S. Navy and Air Force personnel
assigned as CSTC-A mentors and trainers restrict the on-site Commander from reassigning them
to in-country duties or positions more appropriate to the needs of the train and equip mission.

These Service caveats have, in some instances, prevented on-site commanders of U.S. Navy and
Air force personnel from assigning them to perform duties that would serve essential needs of
the unit, but which may not have been included in their parent Service’s specific description of
their duty position. Some examples include reassignment to perform a related specialty skill, and
general security-related military duties required to support the forces in-theater, such as guard or
convoy security duties.

Due to the limitations imposed by Service caveats, U.S. commanders and leaders have been
hampered in achieving the full capability of teams and units to which U.S. Navy and Air Force
personnel have been assigned in Afghanistan. In addition, because Navy and Air Force personnel
cannot perform certain unit functions that U.S. Army personnel must carry out, unit cohesion and
morale has been negatively impacted.

Applicable Criteria
House Armed Services Committee Hearing on “The Use of In-Lieu-Of, Ad
Hoc, and Augmentee Forces in Operations Enduring Freedom and Iraqi
Freedom,” July 31, 2007. This hearing discussed the Services’ positions regarding the
employment of airmen and sailors in combat and combat support roles outside their services’
traditional core missions, and whether airmen and sailors are adequately trained and equipped for
performing predominantly Army missions.

U.S. Air Force Memorandum “Air Force Policy Supporting Global Force
Management Implementation Guidance (GFMIG),” July 11, 2008. This memo,
signed by the USAF Chief of War and Mobilization Planning Policy Division, delineates the Air
Force’s position on re-missioning units in support of CENTCOM requirements.

USNAVCENT Re-Missioning Memo, May 14, 2009. This memo, signed by the Vice
Chief of Naval Operations, delineates the Navy’s position on the re-missioning of Navy
personnel in support of Joint Manning Document, ad-hoc Request for Forces, and Force
Tracking Number requirements.

CSTC-A Re-Missioning Requirements
The U.S. military is fighting a persistent, counter-terrorism and counterinsurgency conflict in
Southwest Asia in which combatant commander force requirements and capability do not always
match the DOD-developed, in-lieu-of (ILO) force provider solutions. In the ILO process, the
military services provide personnel capabilities in mission areas outside of their traditional roles
and functions. ILO solutions include re-missioning, defined as taking an existing unit or
individual personnel and retraining that unit or individual for a different mission that is outside


                                                 51
the unit or individual’s core competency. For example, the Army routinely re-missions
transportation units against a requirement to provide a security force for U.S. and ISAF/Coalition
convoys. In Afghanistan, U.S. Navy and Air Force personnel are assigned as medical and
logistical mentors and trainers throughout the Afghan National Security Forces (ANSF).
According to the former CENTCOM Deputy Director of Operations, ILO units and individuals
have demonstrated an exceptional level of professionalism, while providing capabilities that are
often in very short supply in the Army.

The number of personnel actually assigned to CSTC-A to support the ANSF train and equip
mission have been consistently less than the requirement stated in the Request For Forces
(RFFs). Units have been, therefore, consistently under-manned. As of May 2009, U.S. ETTs
required a total of 3,313 personnel; however, only about 1,175 had been assigned. Additionally,
as of January 2009, U.S. PMTs required 2,375 personnel, yet only 922 had been assigned. This
has caused DOD to use ILO force provision solutions to augment their on-the-ground personnel
requirements with members representing all the Services.

“In Lieu Of” Re-Missioning Guidelines
U.S. Navy
Once CENTCOM identifies the required skills in a Unit Request Form or an RFF, the Navy then
works with Army HQ/Training Command to tailor training appropriate for the projected mission
and threat. All Navy personnel, active and reserve, with orders to support OIF/OEF receive basic
combat skills training at a variety of Army locations designed to meet theater-specific
requirements. Sailors assigned to CENTCOM missions that operate “outside the wire” receive
expanded combat skills training, focusing on self-defense in addition to a comprehensive
package of “warrior skills” training and associated drills.

In USNAVCENT’s re-missioning memo of May 14, 2009, the Vice Chief of Naval Operations
recognized and supported the need to recast forces in place to perform critical missions.
However, he also recognized that some Sailors may have volunteered for missions for which
they may not be properly trained, qualified, or equipped to safely perform, presenting potential
risks to friendly forces, Coalition partners, unarmed civilians, and the Sailors themselves.

In those instances where a Sailor, due to re-missioning, is assigned to duties for which he is
judged to be unsuitable because of lack of training and/or experience, USNAVCENT proposes a
corrective course of action such as:
      Redeploy the Sailor to their original pre-deployment assignment
      Reassign the Sailor to another Navy-tasked, in-theater requirement for which they are
       properly trained, qualified, and equipped
      Redeploy the Sailor to another assignment altogether

U.S. Air Force
The Air Force works to ensure that, prior to deployment, Airmen are organized, trained, and
equipped to perform CENTCOM’S ILO requirements with the required skills and competence.
To that end, Airmen receive combat skills training at a variety of locations by Army certified


                                                52
instructors, plus specific technical training, if required, all of which meet the operational
requirements of the mission the Airmen will be assigned to support.

However, an Air Force policy memo dated July 11, 2008 states the following:

               The Air Force will continue to leverage our Airmen’s capabilities within their
               core competencies and does not intend to remission existing units or personnel
               to perform missions outside their core competency in an ILO capacity.

Navy and Air Force Limitations on Personnel Duty Assignments
Several Afghan Regional Security Integration Commands (ARSICs) raised concerns that certain
U.S. Navy and Air Force personnel were limited in the duties they were able to perform due to
caveats imposed by their respective services. Specific examples included the inability to assign
them to perform guard/watch duty, convoy security, or to serve on crew-served weapon teams.
Already hampered by a severe shortage of personnel, the U.S. commanders expressed frustration
with also having to work around these duty limitations during mission planning.

According to the Navy’s and Air Force’s protocol for supporting CENTCOM’s ILO forcing
solutions, as described in their July 31, 2007 testimony, all Sailors and Airmen deploying in
support of CSTC-A’s ETT/PMT mission should be appropriately trained prior to arrival in
theater. This training should encompass all duties ETT/PMT personnel should reasonably expect
to perform, including guard/watch duty, convoy security, and manning crew-served weapons.
This pre-deployment training is provided to Sailors and Airmen at Ft. Riley, Kansas to enable
them to perform these functions.

However, the July 11, 2008 Department of the Air Force and May 14, 2009 Department of the
Navy memos seem to contradict their July 31, 2007 testimony, which attested that all Sailors and
Airmen were being properly trained and equipped for ILO taskings. Additionally, the Navy and
the Air Force seem to be taking different positions on what are acceptable duties for an ILO
assignment. The Navy seems to allow more leeway for ILO duties, as long as the Sailor has been
properly trained, while the Air Force limits duty to core competency. However, most of those
ILO Navy and Air Force personnel assigned against ETT and PMT positions received the same
72 days of training at Ft. Riley to prepare for their assignments as did their Army counterparts.

Service policy and caveats could cause Sailors and Airmen to perceive that some of the normal
duties carried out by ETT and PMT members are outside their core competencies, even if they
are not, thus presenting a problem to their Commanders when they are assigned to those billets.
When these Service members are part of an ETT or PMT and are unable to share the
responsibility for carrying out all of the team’s assigned duties, the team’s ability to effectively
carry out its mission can be severely hampered.

Recommendations, Client Comments, and Our Response
7.a. Commander, Combined Security Transition Command–Afghanistan, direct all personnel
serving as mentors/trainers at any level, regardless of military service, to carry out general
military duties, such as guard, watch, or convoy security.



                                                    53
Client Comments
Commander, CSTC-A concurred with the recommendation. However, he has determined that he
currently does not have the authority to direct these actions regarding non-Army personnel and
will address the recommendation with USFOR-A and USCENTCOM.

Our Response
Commander, CSTC-A comments were responsive, and no additional comment is required. We
subsequently addressed this issue with the Chief of Staff of the Air Force and the Chief of Naval
Operations, in Recommendation 7.b and 7.c.

7.b. Chief of Staff, United States Air Force, ensure that personnel assigned to mentor/trainer
positions are sufficiently trained in general military duties and eliminate caveats precluding
assignment to duties such as guard, watch, or convoy security. Any perceptions that personnel
have regarding what duties they may or may not be authorized to perform should be clarified by
their parent Service before deployment to Afghanistan for ETT or PMT duty.

Management Comments Required
The Chief of Staff, United States Air Force did not provide comments on the draft report. We
request that the Chief of Staff respond to the final report.

7.c. Chief of Naval Operations, ensure that personnel assigned to mentor/trainer positions are
sufficiently trained in general military duties and eliminate caveats precluding assignment to
duties such as guard, watch, or convoy security. Any perceptions that personnel have regarding
what duties they may or may not be authorized to perform should be clarified by their parent
Service before deployment to Afghanistan for ETT or PMT duty.

Management Comments Required
The Chief of Naval Operations did not provide comments on the draft report. We request that the
Chief of Naval Operations respond to the final report.




                                               54
Observation 8. Personal and Professional Responsibility and
Accountability in the Afghan National Security Forces
The efficacy of the U.S. and ISAF/Coalition’s advisory efforts to build the ANSF into an
effective security force has been hampered by the prevailing lack of personal and professional
responsibility and accountability throughout the ANA and ANP.

The MoD and MoI Inspectors General and some ANA Corps Commanders reported cases in
their ministries and commands in which allegations of corruption had been substantiated but no,
or relatively minor, sanctions were ever imposed on the army or police offenders.

This has occurred due to the ANSF’s failure to establish a visible, credible, and enforced
standard of army and police conduct and performance, and to create a culture of accountability at
the highest levels of the leadership.

As a result of this systemic problem within the army and police, the population often distrusts
ANSF personnel, especially the police, and confidence in the government has been undermined.

Applicable Criteria
MoD/ANA Decree 4.2 “Materiel Accountability Policy and Procedures,”
June 2009. This MoD decree establishes the basic policies and procedures to account for
military materiel in the ANA.

MoI Policy “Process for the Management of Logistics”, January 6, 2009. This
policy prescribes common procedures, formats, forms, and time standards for the logistics
management processes of the MoI and movement of logistic information between supporting and
supported organization/activities of the ANP.

Afghan National Army
Accountability/Responsibility as Defined by the Ministry of Defense
MoD Decree 4.2 clearly defines property accountability and responsibility as it relates to ANA
uniformed military and MoD civilian personnel. It states that:

               Resources are provided by the Government in the name of the citizens of
               Afghanistan to the Ministry of Defense with the expectation that we will use
               these resources for Afghanistan security. The Afghan National Army (both
               military and civilian personnel) has the responsibility to utilize resources for the
               intended purpose, neither for personal gain or betterment, nor in ways harmful to
               the MoD’s interest. This is especially true of materiel resources to include food,
               ammunition, trucks, and fuel, which must be accounted for. The MoD is merely
               the custodian of the Afghan Government’s hard earned money and trust. Let no
               member of the ANA betray this trust by being a poor steward of its resources.

Accountability and responsibility are defined in this decree as follows:




                                                       55
      Accountability is the obligation of a person to keep records of materiel, equipment, and
       supplies. These records show identification data, gains, losses, due-in materiel, due-out
       materiel, and balances on hand or in use. Records include supporting documents to
       address discrepancies.
      Responsibility is the obligation of an individual to ensure materiel and funds entrusted to
       their possession, command or supervision are properly used and cared for, and proper
       custody and safekeeping are provided.

Decree 4.2 also defines command responsibility, supervisory responsibility, and personal
responsibility:
      Command Responsibility. A Commander’s obligation is to ensure materiel within his
       command is properly used and cared for, and that proper custody and safekeeping are
       provided. Command responsibility is inherent in command and cannot be delegated. It is
       present by assignment to a command position at any level and includes:
           o Observing subordinates to ensure their work contributes to the proper custody,
             care, use, and safekeeping of all materiel within their command
           o Enforcing all security, safety, accounting requirements and proper record keeping
           o Taking disciplinary measures when necessary
      Supervisory Responsibility. A supervisor’s obligation is to ensure materiel issued to, or
       used by their subordinates is properly used and cared for, and that proper custody and
       safekeeping are provided. It is inherent in all supervisory positions and cannot be
       delegated. It arises because of assignment to a specific position and includes:
           o Providing proper guidance, direction, and training
           o Enforcing all security, safety, and accounting requirements
           o Maintaining a supervisory climate that will facilitate and ensure proper care and
             use of materiel
      Personal Responsibility. An individual’s obligation is to exercise reasonable and prudent
       care and safekeeping of property in their physical possession. It applies to all materiel
       issued for, acquired for, or converted to a person’s personal use, with or without receipt.

Decree 4.2 also notes that commanders or supervisors who determine that the cause of loss,
damage, or destruction warrants adverse administrative or disciplinary action should take
appropriate action. These actions include, but are not limited to:
      An oral or written reprimand
      Appropriate remarks in evaluation reports
      Removal from position
      Non-judicial punishment
      Suspension of privileges
Additionally, the nascent ANA court martial system provides a process and penalties for
incidents that are criminal in nature, although it currently seems to be sporadically functioning,
mainly at Corps and below.


                                                56
Lack of a Culture of Responsibility and Accountability within the Afghan
National Army
At the regional commands the team visited, U.S. and ISAF/Coalition trainers and mentors
repeatedly expressed their frustration with what they perceived as a pervasive lack of personal
and professional responsibility and accountability throughout the ANA.

ARSIC-Central ETTs:

       Some corrupt ANA leaders appear to be getting around the Electronic Pay System (EPS)
       process in order to continue extorting soldiers’ pay. For example, there are reports of
       officers and NCOs devising methods to “get around the EPS system” to extort part of a
       soldier’s pay. This would occur, for example, when the soldier is required to give up his
       military ID card to the officer or NCO to obtain permission to go downtown to the bank.
       On his return, the soldier is required to pay to get the ID card back.

ARSIC-South, J3 Staff:

       There is a problem in the 205th Corps with accountability and responsibility, not only for
       weapons and equipment, but also for personal behavior. There is no system in place for
       soldiers to be held accountable for their weapons, uniforms, assigned vehicles, or other
       equipment. There should be a functioning process and procedure for discipline at the
       Corps-level.

ARSIC-East, RCAC Mentors:

       There is little accountability (e.g., clothing/inventory records), poor quality assurance and
       control, and virtually no consequences for loss or damage to equipment.

ARSIC-East, HQ Personnel:

       For every 100 units of supply ordered by an ANA unit, on average, only about 80 or 90
       will make it to the company. Additionally, 300 percent of the necessary cold weather gear
       had to be fielded to the 1st brigade, with no explanation for the duplication and no
       consequences to anyone for the loss and/or theft of the gear. And with no inventory
       records to document what has been issued to each soldier, the situation will not improve.
       ISAF/Coalition forces need to emphasize mentoring the concept of personal
       responsibility and accountability.

ARSIC-South, OMLT Mentors (Canada):

       Very rarely is anyone punished for corruption or for losing equipment or uniforms, and if
       someone is reprimanded, it is usually quickly forgotten. A kandak commander from 205th
       Corps was caught stealing items from the unit’s mosque. When confronted, he blamed
       the interpreter, despite the fact that the items in question were found in the commander’s
       quarters. Although he was verbally reprimanded by the Corps Commander, supposedly
       court-martialed, and relieved of his command, the kandak commander went back to his


                                                57
       unit and is still in command. Reportedly, a Corps Commander does not have the authority
       to relieve a kandak commander. That authority is held at the MoD.

       In another case, a kandak was issued 25 new vehicles, but while transporting them from
       the depot to the unit location, 21 of the vehicles were damaged or destroyed. No one was
       held accountable.

The problem is not unique to the “rank and file,” but starts at the highest levels of the MoD and
General Staff. For example, it was reported that a number of allegations of corruption have been
substantiated against individual senior civilians and General Officers in the MoD and General
Staff, but they have generally not been held accountable. More often than not, the corrupt official
was simply moved to another position and sometimes even promoted.

Afghan National Police
Accountability/Responsibility as Defined by the Ministry of Interior
The MoI’s January 2009 Logistics Policy sets forth the Ministry’s procedures on accountability
and responsibility as it relates to the ANP. It states that,

               …accounting for all materiel and property…is of the highest priority in the MoI.
               All property within the MoI and ANP organizations/units and activities belong
               to the Government of Afghanistan. Receipt for and use of materiel and property
               does not constitute personal ownership. It does however require that all materiel
               and property be accounted for and used in accordance with the laws of
               Afghanistan.

The MoI Decree also states that all Ministry of Interior leaders and Police organization/unit
commanders are responsible for the proper accountability of materiel under their control. In
addition, all leaders and commanders are required to develop procedures that provide visibility
and accountability of resources within their unit or organization.

In addition, the loss of accountability for Government resources by any MoI personnel will result
in financial liability, disciplinary action and/or termination of employment. Theft or intentional
misuse of resources will be referred to the Criminal Investigations Division or Internal Affairs
for criminal investigation and prosecution. The Ministry of Interior fully supports the
Government of Afghanistan’s efforts to eliminate corruption by Government employees.

The MoI’s list of requirements for command responsibility, supervisory responsibility, and
personal responsibility are identical to those of the MoD, reiterating the concept that anyone
utilizing government materiel or property is responsible for its proper use, care, custody, and
safekeeping.

Lack of a Culture of Accountability within the Afghan National Police
MoI internal reports and briefings by the MoI IG revealed a comparable or greater lack of
accountability within Afghan police organizations. The MoI IG’s assessment and analysis of the
Ministry’s Inspection Reports for Solar Year 1387 (2008) revealed the following:




                                                     58
       Senior officials lack control of their personnel and do not regularly monitor their
        performance
       Units are not implementing the Reward and Punishment Process to incentivize and
        discipline personnel
       Police forces have a weak level of professional training and there are no disciplinary
        units at the provincial level to control them
       A number of police vehicles have not been recorded and registered to the drivers’
        accounts. Additionally, out of 2,083 police drivers, only 775 (37 percent) have licenses

The MoI IG brief gave an example of a provincial Traffic Police Director who has been assigned
to his position for the past 17 years. During that time, he was transferred from his post on seven
occasions, presumably due to substandard performance and allegations of corruption, but was
eventually reassigned to the same position each time. Due to recent allegations, the MoI IG once
again recommended transferring him out of the Traffic Police Director position.

Conclusion
The MoD and MoI have taken appropriate action to codify their Ministries’ policies on
accountability and responsibility in exacting detail. However, it will require equally exacting
leadership oversight and sustained political will to enforce these standards.

Without leaders at all levels in the ANSF actively setting an example with respect to
accountability and responsibility, soldiers and patrolmen are unlikely to adhere to accountability
policies and procedures, or to depend on, trust, or loyally support in their leaders. Strong
compliance by the chain of command to all the inherent obligations in the MoD and MoI policies
and standards, combined with vigorous enforcement, could, over time, significantly reduce the
incidence of accountability issues.

Moreover, if U.S. and ISAF/Coalition forces have to replace or repair less materiel and property
lost or damaged due to soldiers’ and patrolmen’s negligence, irresponsibility, or corrupt
activities, a significant cost savings could result. Moreover, such measures, if fairly and
effectively implemented, could result in development of a more professional ANSF.

Development of a stronger culture of personal and professional responsibility and accountability,
implemented through effective leadership that consistently enforces related policies and
procedures, will also be necessary to ensure the accountability of supplies of all types and
categories, including sensitive equipment items such as weapons.

Recommendations, Client Comments, and Our Response
8.a.(1) Commander, Combined Security Transition Command–Afghanistan, in coordination
with the Minister of Defense, the Minister of Interior, and the Chief, General Staff, mentor the
development and institutionalization of civil and military judicial policy and procedures that
will enable senior MoD and MoI civilian officials and military officers to be held accountable
for their actions.



                                                59
Client Comments
Commander, CSTC-A concurred with this recommendation. CSTC-A published an order to all
its personnel to report on incidents of corruption and is now including in ANSF training civil and
military judicial policy and procedures that enable senior MoD and MoI personnel to be held
accountable for their actions.

Our Response
Commander, CSTC-A were responsive. We request that Commander, CSTC-A forward a copy
of the order requiring reporting of corruption. We also request that CSTC-A further describe the
training referenced in their comments, including who is receiving the training and at what level is
it being given.

8.a.(2) Commander, Combined Security Transition Command–Afghanistan, in coordination with
the Minister of Defense, the Minister of Interior, and the Chief, General Staff, develop a process
to track case progress and disciplinary action taken against senior officials who have allegations
of corruption substantiated by the Ministry and/or General Staff Inspectors General or other
investigative authorities.

Client Comments
Commander, CSTC-A concurred, noting that the issue will require a concerted and synchronized
effort over time by all levels of command and in all activities of the U.S. government effort in
Afghanistan. The CSTC-A IG and SJA are actively engaged with their Afghan counterparts to
improve on these efforts. CSTC-A personnel have been directed to report suspected/alleged
corruption or bribery by Afghan government officials or by the ANSF.

Our Response
The comments were partially responsive. While the steps outlined are important in the anti-
corruption effort, they do not address the specific need to develop a transparent process to track
case progress, including any disciplinary action taken against senior officials as a result of
corruption substantiated by the Ministry and/or General Staff Inspectors General or other
investigative authorities. We request additional information on development of such a tracking
system.




                                                60
8.b. Commander, Combined Security Transition Command–Afghanistan, mentor the Minister of
Defense, Minister of Interior, and the Chief, General Staff to enforce a system of accountability
across the Ministry of Defense, General Staff, Afghan National Army, Ministry of Interior, and
Afghan Police organizations that:

   (1) Ensures senior Ministry of Defense, Ministry of Interior, Afghan National Army, and
   Afghan National Police leaders set the example with respect to their personal and
   professional conduct.

   (2) Empowers commanders within the Army and Police chains of command to take
   appropriate non-judicial punishment action against subordinate officers and, as appropriate,
   refer serious cases for criminal charges.

   (3) Delegates to commanders the authority to relieve and/or court martial subordinate
   commanders and soldiers/police officers for corruption and substandard performance.

   (4) Recognizes and rewards examples where units/individuals in the Afghan National Army
   or Afghan National Police have met the highest standards of responsibility and
   accountability.

Client Comments
Commander, CSTC-A concurred with these recommendations. He noted that CSTC-A continues
to train the MoD and MoI to enforce a system of accountability. Specific actions include:
      Advising and training ANSF leaders and IGs
      Leveraging CONUS-based training venues
      Increasing emphasis on face-to-face interaction among IGs in Afghan organizations, and
      Monitoring Afghan-led assistance visits, inspections, and investigations.
However, progress is slow. Efforts to delegate to subordinate commanders the authority to deal
with offenses through relief, court-martial, or non-judicial punishment are hampered by
resistance of senior Afghan officials. The policies and laws to allow subordinate commanders to
investigate and dispose of allegations of misconduct using a form of non-judicial punishment are
in place, but not uniformly employed.

An awards and recognition policy has been drafted and is awaiting Ministerial approval at the
MoI. CSTC-A will assist the MoD in developing a similar policy.

Our Response
Commander, CSTC-A comments were responsive. We request a copy of the policies and law
mentioned in the Client Comments. We also request a copy of the MoI and MoD awards policy,
when they are completed.




                                               61
Observation 9. Operation Enduring Freedom and
International Security Assistance Force Mentor and Trainer
Tour Lengths
The CSTC-A mission, which including the U.S./ISAF/Coalition mentoring, training, and
equipping challenges, is multi-faceted and extremely complex. At present, only U.S. Army
active duty soldiers serve 12-month mentor or trainer tours in Afghanistan. U.S. Army Reservists
and Guardsmen, Navy, Marine, and Air Force personnel, and ISAF international force personnel
assigned as mentors or trainers serve anywhere from three to nine month tours.

This has occurred because of a failure to recognize that achieving success as a trainer or mentor
requires sufficient time on the ground to gain the experience required and to build effective
partner relationships. In addition, the U.S. military departments, and ISAF militaries have not
established tours of sufficient length to optimize the train and equip mission.

The lack of a standardized tour length of sufficient duration has contributed to uneven mentor
performance and effectiveness by ETTs, OMLTS, PMTs, and POMLTs, and has limited their
ability to build sustainable ANSF partnerships and improve performance. As a consequence, it
has also slowed the development of an independent and sustainable ANSF.

Applicable Criteria
Secretary of Defense Memorandum, dated January 19, 2007, Subject:
Utilization of the Total Force. This document establishes tour length policy for the
various DoD military components.

Request for Forces 620, 937, and 938. These are classified documents. They establish
a minimum tour length of 365 days.

Current ETT/PMT Personnel Tour Lengths
CSTC-A’s ETT and PMT personnel (except for the Logistics and Medical Logistics ETTs) are
assigned to TF Phoenix. At present, TF Phoenix’ personnel serve varying tour lengths,
depending on service (Army, Navy, Air Force) and component (active, guard, reserve). For
example, within the Army, active duty service members deploy for 365 days “boots on the
ground” (BOG).

U.S. Army Reservists and Guardsmen serve on 400-day mobilization orders which include 130
days earmarked for training, leave, and demobilization, which results in their having only 270
days BOG–over three months short of the one year requirement established by the RFFs.

The average U.S. Marine Corps tour length is seven months, while both the Navy and Air Force
tours range from four to six months.

Prior to the recent approval of the 2-BCT mentoring concept, which will be in effect by
September 2009, almost all of the ETT and PMT personnel consisted of Army National



                                                63
Guardsmen on one-year mobilizations, or 270 days BOG. The second BCT to be deployed to
Afghanistan in support of the train and equip mission will be an active duty BCT; ETTs and
PMTs formed from this brigade will serve 365 days BOG.

Standardization of Tour Length Leads to Greater Continuity of Effort
Establishing relationships of confidence with ANA and ANP counterparts is a process that takes
time and becomes fruitful over an extended period. The varying tour lengths of the different U.S.
military services, Coalition, and ISAF forces has caused disruptions in continuity and impeded
the establishment of effective mentor relationships with ANSF counterparts. Consequently, it
has made it difficult for mentors to learn their job and duties, and still have sufficient time to
contribute at a high level of mentor performance. Moreover, the frequent and uneven rotation of
personnel has slowed ETT or PMT OPTEMPO in order to integrate newly-deployed troops
constantly into the mentor/trainer team and its mission. The troops nearing the end of their tour
are further limited in what they can accomplish because they are training their replacements,
assuming there is an overlap, which is not always the case.

In an October 2008 NATO mission report, a former CSTC-A commander recommended that
tours of duty in Afghanistan should be no less than 12 months, since he considered that to be the
minimum tour length necessary for personnel to develop the trust required for effective
collaboration with Afghan personnel. The NATO 2009 Spring Session Committee Report echoed
that view: several NATO and Afghan sources commented on the difficulties posed by the
relatively rapid rotations of ISAF personnel. Tours of as little as four months have limited ISAF
personnel’s ability to master their duties and achieve an in-depth knowledge of Afghan society.
The report observed that in such a complex operating environment, it is essential to put a
premium on field experience and building relationships with local populations and officials,
which can only be developed over time.

There has also been extensive research by U.S. military analysts that supports tours of at least
twelve months. A recent U.S. Air Force study reported, for example, that extending tours for all
personnel supporting critical mission requirements to one year could reduce the mission
degradation caused by personnel turnover by seventy five percent. Thus, assuming it takes four
to six weeks to establish a sufficient knowledge base to become effective (learning curve), a
significant portion of a service member’s deployment could be converted from learning the job
to production by extending all U.S. and ISAF/Coalition mentor and trainer tours to 12 months in-
country.

In 2008, Britain and the Netherlands agreed to extend the tour length of all their units in
Afghanistan to 12 months. However, this change in policy has so far not been replicated by other
European nations in ISAF, which typically have tours of only three to six months.

Twelve month deployments have been standard for U.S. Army tactical units. The extended tour
length is critical as well for those serving in advisory capacities with Afghan forces in order to
have sufficient time to build a relationship of mutual trust and confidence. Such relationships are
critical to mentor and trainer mission accomplishment, as is gaining sufficient hands-on
experience in such a unique operational assignment.



                                                64
Conclusion
The differing tour length of U.S. mentors assigned from the respective military services and
components has made it difficult to establish continuity within ETT and PMT teams and to
achieve full effectiveness. ETTs and PMTs are usually made up of personnel from different
components who are in theater for disparate lengths of time and do not deploy/redeploy together.
The continual rotation of team members has made it difficult to keep up a U.S. mentor/trainer
unit’s OPTEMPO, plus it has hindered the relationship-building process with the trainers’ ANSF
counterparts.

The tour length issue is also applicable to ISAF and Coalition personnel serving on OMLTs and
POMLTs.

A number of studies of mentor personnel effectiveness in Afghanistan have recommended that
troop tours, regardless of service, should be, at a minimum, one year in length, to promote unit
stability, and to maximize mentor/trainer effectiveness. By standardizing and lengthening tours
in-country, U.S. ETTs/PMTs and ISAF/Coalition OMLTs/POMLTs would have more time and
opportunity to establish effective mentoring procedures and strengthen their Afghan
partnerships.

Recommendations, Client Comments, and Our Response
9.a. Commander, Combined Security Transition Command–Afghanistan, in coordination with
Commander, U.S. Forces–Afghanistan, Commander, U.S. Central Command, and Chairman,
Joint Chiefs of Staff, establish a requirement that all U.S. mentors, including those serving on
Embedded Training Teams and Police Mentoring Teams, as well as logistics and medical
mentors, be assigned to their positions for 12-months.

Client Comments
Commander, CSTC-A concurred with this recommendation, noting that a document that codifies
this requirement would be provided to USFOR-A. CSTC-A noted that current policy limits
Army National Guard personnel to a one year mobilization. After conducting necessary training,
they serve about 9 months in Afghanistan.

Our Response
Commander, CSTC-A comments were responsive. We request that Commander, CSTC-A
forward a copy of the requirements document noted in the Client Comments. We have addressed
the “one year mobilization” policy with an additional recommendation to the Office of the Under
Secretary of Defense for Personnel and Readiness.

9.b. Commander, International Security Assistance Force, coordinate with the Commander,
North Atlantic Treaty Organization to establish longer in-country tours, ideally lasting 12
months, for all Operational Mentor Liaison Teams and Police Operational Mentor Liaison
Teams.




                                                65
Client Comments
The Commander, USFOR-A, dual-hatted as COMISAF, concurred with the recommendation.

Our Response
Commander, USFOR-A comments were not responsive in that he did not specify which actions
he planned to take to implement the recommendation. We request that Commander, USFOR-A,
in his dual-hatted role as COMISAF, respond by describing what efforts have been or will be
taken to standardize 12-month tours of duty for NATO personnel assigned to OMLTs and
POMLTs.

9.c. Chief of Staff, Air Force, support a standardized requirement for 12-month tours in-country
for mentor/trainer personnel.

Management Comments Required
The Chief of Staff, United States Air Force did not provide comments on the draft report. We
request that the Chief of Staff respond to the final report.

9.d. Chief of Naval Operations, support a standardized requirement for 12-month tours in-
country for mentor/trainer personnel.

Management Comments Required
The Chief of Naval Operations did not provide comments on the draft report. We request that the
Chief of Naval Operations respond to the final report.

9.e. Commandant, U.S. Marine Corps, support a standardized requirement for 12-month tours in-
country for mentor/trainer personnel.

Client Comments
The Commandant, U.S. Marine Corps non-concurred with the recommendation, citing support
for the USMC 270-day Boots on Ground (BOG) that included:
     The initial Joint Forces Command OEF Order 06-08, authorizing service rotation down to
        210 days.
     Ease of meeting dwell time goals given a 270-day BOG deployment vice a 365-day BOG
        deployment.
     The two week rest and recuperation leave authorized for 365-day deployments actually
        translates into about 330-day BOG.

Our Response
Commandant, U.S. Marine Corps comments were responsive. We continue to maintain,
however, that the importance of the ANSF advise and train requirement and the significant role
in Afghan culture placed on establishing personal relationships with their mentors supports a 12-


                                               66
month BOG tours for Marines assigned to this mission. We note that the January 19, 2007
SECDEF memorandum titled, “Utilization of the Total Force” states “The planning objective for
the Active Force remains one year deployed to two years at home station.” We request that the
USMC reconsider its non-concurrence to the recommendation.

9.f. Chief, National Guard Bureau, support a standardized requirement for 12-month tours in-
country for mentor/trainer personnel.

Client Comments
The Chief, National Guard Bureau concurred with this recommendation, but noted that the
January 19, 2007 SECDEF memorandum titled, “Utilization of the Total Force” limited
involuntary mobilization of reserve component personnel to one year at any one time.

Our Response
The Chief, National Guard Bureaus comments were responsive. We have addressed the “one
year mobilization’ policy with an additional recommendation to the Office of the Under
Secretary of Defense for Personnel and Readiness.

9.g. Chief, Army Reserve, support a standardized requirement for 12-month tours in-country for
mentor/trainer personnel.

Client Comments
The Chief of the Army Reserve non-concurred with the recommendation noting that DA and
SECDEF policies limit total mobilization time to 12 months.

Our Response
Chief of the Army Reserve comments were responsive. We have addressed the “one year
mobilization’ policy with an additional recommendation to the Office of the Under Secretary of
Defense for Personnel and Readiness.

Added Recommendation. As a result of an assessment of client comments to
Recommendations 9.a., 9.f., and 9.g., we have added the following recommendation for the
attention of the Office of the Secretary of Defense.

9.h. Under Secretary of Defense for Personnel and Readiness coordinate an exception to the
policy in the January 19, 2007 Secretary of Defense Memorandum, Subject: Utilization of the
Total Force, that will direct 365–day “boots on ground” tours of duty for all U.S. personnel,
regardless of their Service or Component, when assigned as mentors and trainers for the Afghan
National Security Forces.

Management Comments Required
This is a new recommendation that did not appear on the draft report. We request that the
Undersecretary of Defense for Personnel and readiness respond to the final report.


                                               67
Observation 10. Afghan National Security Forces’ Pay Issue
Despite several years of Rank and Pay Reform initiatives, the ANSF continues to face challenges
ensuring pay is regularly provided in the appropriate amount to its Army and Police personnel.

This has occurred because there are not enough banks throughout Afghanistan to support the
Electronic Pay System (EPS) that has been initiated throughout the ANA and ANP. As a
consequence, many ANSF personnel still have to be paid in cash. Further, the EPS is not
adequately updated with personnel and payroll information to maintain 100 percent payroll
accountability and disbursement. In addition, there are payment difficulties because of
dysfunctional legacy computer systems, as well as other infrastructure challenges, such as lack of
electricity.

As a result of these pay problems, ANSF personnel do not receive their pay regularly, and are
not always able to reliably support their families. Consequently, ANSF morale has been affected.
Some ANSF personnel have resorted to corrupt practices, driven at least in part by the need to
have sufficient money for their families to survive. Corruption is more prevalent within the ANP
where personnel are paid less, on average, than ANA personnel, who often draw additional
combat pay.

Corrupt behavior that exploits the population has caused the Afghan people to distrust the police,
undermined government credibility, and created vulnerability to expanded insurgent influence.

Applicable Criteria
Campaign Plan for the Development of Afghan National Security Forces, 20
September, 2008. This document provides an overarching strategy for the development of
the Afghan Security Forces, to include the Ministry of Defense (MoD) and Ministry of Interior
(Mol).

Afghan National Police
Some pay issues are endemic within the ANP, but less so within the ANA. This is partially due
to the geographic dispersion of many police districts throughout Afghanistan and the difficulty of
getting pay to them. The ANA generally have centrally located brigades and battalions confined
to one area. The dispersion of police districts makes it difficult for police personnel to get access
to banks and for ANP units to transmit payroll information to their Provincial Headquarters,
which may be miles away. Since many ANP personnel are locally recruited, they do have the
advantage of being nearer their families to provide them cash.

Electronic Pay System
As of February 2009, the MoI had 76,000 personnel enrolled in the EPS out of 80,000 assigned,
based upon Human Resource information received by the Law and Order Trust Fund-
Afghanistan (LOTFA). LOTFA manages the funds received from international donor countries,
including the United States, which provide ANP salaries and also oversees the EPS on behalf of
the Ministry of Interior and the Ministry of Finance. LOTFA receives reports from the MoI
provincial offices and accumulates this information into a central database.


                                                 69
The EPS that has been implemented within the MoI and the ANP is decentralized and not
connected in “real time” with the financial offices at the MoI Headquarters. This electronic
decentralization of the payroll system is reflected in a stand-alone payroll data base at each
Provincial Police HQ. Since there is no corresponding electronic personnel data base, payroll
entries must be made manually. Local precincts and districts have to collect and forward
personnel changes to the Provincial HQ for updating into the payroll system. Frequently, update
of this information does not happen in a timely manner, with the result that some policemen have
not received pay for months.

Until payroll performance is monitored through a centralized system, and the personnel rolls
continuously validated, CSTC-A and MoI will be unable to effectively manage fund allocation
for the ANSF. CSTC-A has a planned initiative to address this issue in order to provide better
management control over payroll actions and develop accountability. Parwan Province has been
designated as a prototype location to institute a new centralized pay process.

Afghan National Police Hazardous Duty Pay
Hazardous Duty Pay is authorized in Afghanistan for members of the ANP deployed in
dangerous areas. However, not all ANP assigned to hazardous areas receive this benefit, only
districts with EPS direct deposit capability. This has created an inequity in the ANP payroll
system. There are only approximately 50 banks in Afghanistan, so direct deposit is not available
to most districts. For example, two districts in Gardez qualify for hazardous duty pay, but only
the police in the district with a bank receive this benefit.

Afghan National Army
Although pay issues are not as prevalent in the ANA as the ANP, the ANA does have some
pay-related problems. For example, not all battalions, or kandaks, have banking capability
nearby. Therefore, roving teams of ‘cash men’ are used to pay those soldiers in areas without
electronic banking capability. In a ‘cash man’ operation, a team of three Army officers draw
money to pay the soldiers. Any money that is not paid out is supposed be returned. Reportedly,
this does not always happen. ETTs in the 205th Corps learned that cash men had allegedly
pocketed the equivalent of approximately $20,000 from ANA payroll funds in recent months. In
addition, some soldiers in the 205th Corps have been required to pay fees to these payroll
personnel to receive their pay and/or to make electronic cash transfers to family members.
Further, there have allegedly been instances where a soldier’s pay was fraudulently diverted by
using someone else’s thumb print in the pay book.

Ongoing Corrective Action
The judicial and court-martial systems have been relatively ineffective in negating pay
corruption. Apparently, it has proven difficult to investigate ANA and ANP personnel in these
cases and to develop sufficient proof for administrative or judicial action under their respective
systems. Victims are often reluctant to complain and perpetrators cover for each other.
Additionally, the perpetrators often take active steps to commit these crimes “out of sight” of
ETTs, OMLTs, PMTs, and POMLTs. However, some individual corruption cases involving pay
issues in the ANA have been addressed using court martial procedures under “failure to secure
soldier’s pay.”


                                                70
The CSTC-A Commander and staff, in coordination with MoD, and MoI, are attempting to
address problems with troop and police pay-related corruption. The CSTC-A Campaign Plan
notes that key elements of ANSF pay reform initiatives include:
       Improving pay accuracy and timeliness
       Automating payroll execution and electronic funds transfer
       Ensuring special and hazardous duty pay for eligible elements of the forces
       Achieving equality of pay between the ANP and ANA

Recommendations, Client Comments, and Our Response
    10.a. Commander, Combined Security Transition Command–Afghanistan, mentor the
Minister of Interior and the Minister of Defense to ensure focused priority on instituting a
centralized electronic pay process for the Army and Police that is integrated with their
personnel data systems.

Client Comments
Commander, CSTC-A concurred with the recommendation. He stated that CSTC-A was
partnering with the Afghan MoI and MoD to develop and institutionalize an electronic pay
process that is integrated with the personnel system. He explained that the MoD had conducted a
pilot test to examine the potential for implementing an electronic payroll system across the ANA.
He reported that CSTC-A would work with both ministries to integrate their centralized pay
systems with the personnel data system.

Our Response
Commander, CSTC-A comments were responsive, and no additional comments are required.

10.b. Commander, Combined Security Transition Command–Afghanistan, mentor the Minister
of Interior and the Minister of Defense to enroll all Army and Police personnel in the Electronic
Pay System.

Client Comments
Commander, CSTC-A concurred with the recommendation, noting that 95% of the police force
and 93% of the Army had been enrolled in the electronic payroll system and that over 60% of all
ANSF received their pay through electronic funds transfer. The Commander predicted that
percentages would increase as security and stability increased and as banking facilities become
more accessible.

Our Response
Commander, CSTC-A comments were responsive, and no additional comments are required.




                                                71
10.c. Commander, Combined Security Transition Command–Afghanistan, mentor the Minister
of Interior and the Minister of Defense to coordinate with the appropriate Ministries to establish
access to banks or equivalent financial facilities for all Army and Police personnel.

Client Comments
Commander, CSTC-A concurred with the recommendation, commenting that CSTC-A
collaborates with the MoI and MoD to expand bank access for the ANP and ANA. He reported
that the ANP was conducting a “pay by phone” test to increase the potential for cashless salary
payments across remote areas where banking facilities are not readily available. He stated that
the MoD, Ministry of Finance, and banks were working to expand access by increasing banking
infrastructure and electronic connectivity.

Our Response
Commander, CSTC-A comments were responsive, and no additional comments are required.

10.d. Commander, Combined Security Transition Command–Afghanistan, mentor the Minister
of Interior and the Minister of Defense to institute controls in the ANA and ANP to manage and
monitor payroll performance.

Client Comments
Commander, CSTC-A concurred with the recommendation. He affirmed that the MoI and MoD
leadership acknowledged the need to implement controls to manage and monitor payroll
performance. He stated that to strengthen the ANP pay system, CSTC-A and MoI were
developing regional support teams to provide greater expertise in budgeting, payroll, and
accounting. The ANA had recently approved a manning document to create a management team
for internal reviews and to augment the efforts of the MOD and General Staff Inspector General
auditing capability.

Our Response
Commander, CSTC-A comments were responsive, and no additional comments are required.

10.e. Commander, Combined Security Transition Command–Afghanistan, mentor the Minister
of Interior and the Minister of Defense to vigorously apply non-judicial or judicial procedures to
punish offenders responsible for payroll corruption.

Client Comments
Commander, CSTC-A concurred with this recommendation, stating that CSTC-A seeks all
opportunities to reinforce with the MoD and MoI the need to prosecute those who violate the
law.

Our Response
Commander, CSTC-A comments were responsive, and no additional comments are required.


                                                72
Observation 11. Impact of Illiteracy on Afghan National
Security Forces Development
The low literacy rate of the Afghan population in their native languages, and therefore among
ANSF Army and Police recruits, significantly limits the development of systems, processes, and
functions necessary to improve significantly the operational and logistical effectiveness of the
ANA and ANP.

Of necessity, CSTC-A has had to emphasize heretofore what has been the more immediate
priority of generating sufficient ANSF personnel to help counter the growing insurgency and
other illegal activities. Literacy training to ensure the long-term success and sustainability of the
ANSF has not been emphasized, and CSTC-A has only recently begun to implement literacy
training programs in the ANSF, which will take time to produce results.

As a result, about 70 percent of recruits for the ANSF are functionally illiterate. Without the
ability to read and write, junior soldiers or police patrolmen cannot be trained to perform
effectively in many fundamental skill areas, including logistics, maintenance, and medical
support. Nor can they progress into more responsible technical and supervisory positions, such as
those held by NCOs, which require at least a basic degree of literacy to participate in the tactical
planning process, orders development, and execution.

Applicable Criteria:
Combined Security Transition Command–Afghanistan Campaign Plan for
the Development of Afghan National Security Forces. September 20, 2008,
Objective 3.2: An enduring training base that can provide military and police personnel with
basic and initial training; professional training and education with a focus on officer and NCOs;
and literacy education at all stages.

Afghan National Development Strategy. Islamic Republic of Afghanistan:
Afghanistan National Development Strategy: A Strategy for Security, Governance, Economic
Growth, and Poverty Reduction, 1387-1391 (2008–2013). The Government has set a target to
enable at least 1.8 million Afghans to attain demonstrated literacy by 2010.

The Challenges of Illiteracy in the ANSF
Out of an Afghan population of approximately 34 million people, only 28 percent are literate–13
percent of females and 43 percent of males. 4 These rates are reflected in the applicants that are
recruited for the ANSF. The low rate of literacy has resulted from a 30-year history of political
turbulence and civil war, exacerbated by five years of control by the restrictive Taliban, who did
not allow females to go to school.

Literacy training is a critical factor in building self-sustainment within the ANSF. For example,
CSTC-A has provided vehicles and related equipment to enable the ANSF to transport personnel
and supplies, but the ANSF does not have enough trained mechanics to properly maintain the

4
    CIA World Factbook: Afghanistan.


                                                 73
vehicles. It is difficult to train additional mechanics because of the shortage of personnel who
can read, write, and do basic math. The sophistication of the vehicles and equipment being
supplied to ANSF, with computerized ignition systems and various electronic modules, requires
trained technicians who can read repair manuals and operate diagnostic equipment.

CSTC-A confirmed that providing technical training to the ANSF was a particular challenge
because of the lack of literacy and math skills. While some PMTs and ETTs reported insufficient
maintenance manuals, the manuals were often of little use to ANSF personnel anyway because
of their low literacy rates. The resulting difficulty in developing trained mechanics contributes to
the low readiness level of Afghan-maintained equipment. Until this problem can be addressed,
the ANSF will continue to rely on U.S. and Coalition logistics support.

Low literacy rates are also a major impediment to developing an NCO Corps within the ANSF.
Literacy is supposed to be a requirement to become an NCO or an officer, but this standard can
not always be maintained. One Kabul District Police Chief informed the team that four of his
NCOs had received no formal training at all, mainly because they were illiterate. Of the 325
Border Police students that were in training at the Regional Training Center in Gardez, only 24
were literate, which was not considered enough to develop an effective NCO base. The shortage
of qualified NCO candidates from the junior ranks and new recruits has created a gap in ANSF
succession planning and force development, which are critical elements for its sustainment,
progression, and continuity.

Literacy Efforts
CSTC-A had at least two previous contracts to teach literacy to ANSF personnel, but they were
only marginally effective. Due to shortages of qualified teachers and ETTs/PMTs and the general
security situation, those contracts had little oversight and little impact on improving literacy
within the ANSF.




                         Figure 12. Literacy course administered by German
                                     trainers in Mazur-e-sharif.
                             (Source: German Federal Foreign Office)
In October 2008, CSTC-A awarded two new contracts for literacy training—one for ANA
personnel and another for the ANP.




                                                  74
The ANA contract was focused on more in-depth instruction and provided opportunities for
ANA personnel to attain Level 3 literacy—the Afghan equivalent of 8th grade. The ANP
contract was broader-based, aimed at educating more policemen, but only intended to raise their
literacy to Level 1—the Afghan equivalent of 4th grade. Both programs involved training local
Afghans to train the ANSF—a “train the trainer” program. CSTC-A CJ-7 planned to assess the
outcomes of the two contracts in 12 to 18 months to see which was most effective and then
expand the more effective program throughout the ANSF.

As of March 2009, literacy training was getting off to a slow start at several ANP Regional
Training Centers and at select ANA Commands. Those training efforts faced a number of
challenges, including the lack of space for classrooms, the lack of supplies (pencils and paper),
and in some cases, the initial training materials supplied were not in the appropriate language for
the students training at that site. In addition, some ANA Commanders were requesting that
contractors provide a letter of authorization from MoD before they would be let onto the ANA
compound. These letters had not yet been issued.

In remote areas where literacy training had not yet been delivered, such as the Baglan Provincial
Police headquarters in RC-North, the police chief had taken the initiative on his own to create a
literacy course. That training was being conducted at the police headquarters by local Afghans.

The Minister of Interior admitted that, although literacy was a top priority for developing the
ANP, because of the shortage of policemen, there was no time for many police to attend literacy
training. The Minister believed that if the ANP significantly increased in size beyond its current
authorization, he would be able to permit regular rotations for literacy training. The Minister did
state that he intended to incorporate literacy training within the Afghan Public Protection
Program (APPP)—a pilot project to create local security forces that was recently initiated in
Wardak Province.

On February 23, 2009, CSTC-A issued WARNORD 09-036, “ANSF Literacy Training
Information,” which instructed the Combined Training Advisory Group (CTAG) and Afghan
National Army Training Command (ANATC) with publishing Literacy Program Implementing
Guidance.

Although a number of concurrent literacy programs for the ANSF were being implemented or
about to be implemented, there was no comprehensive CSTC-A plan prepared in coordination
with the MoI to develop a uniform literacy program across the ANSF that would provide a pool
of literate personnel for follow-on technical and leadership training.

Literacy as a Readiness Indicator
Literacy was not yet a readiness indicator on the Capability Assessment Forms (CAFs), the
Training Readiness Assessment Tool (TRAT), or the Police Training Readiness Assessment
Tool (PTRAT) rating systems. When determining the readiness level of a unit, and its ability to
perform independently, literacy could be a meaningful readiness indicator, especially at the NCO
level and in Combat Support and Combat Service Support kandaks.




                                                75
Conclusion
CSTC-A has awarded several recent contracts in an effort to increase the level of literacy n the
ANSF. However, it has not yet published a literacy development plan, with metrics to measure
performance, nor issued clear guidance to its trainers and mentors on program oversight
responsibilities. CSTC-A indicated it intended to address these issues. A comprehensive scoping
study and data collection plan that included a needs analysis study had been developed by CJ-7
for consideration by CSTC-A’s leadership.

Follow up
CSTC-A Training & Education Division has reportedly been reorganized since this field
assessment and was transformed into a branch in each of the ANA and ANP Divisions within
CSTC-A. The points of contact for the ANA and ANP contractor-provided literacy programs
stated that both programs were operational as of April 8, 2009.

The ANP contract Statement of Work indicated that the literacy program for ANP consisted of
two phases—the primary phase (phase one) would last six months and take students to the
Afghan grade six level. The secondary level (phase two) would last three months and take the
students to the Afghan grade eight level. The CSTC-A ANP literacy program was designed to
gradually transition responsibility to the MoI Training and Education Directorate. Additionally, a
MoI Directive on literacy training issued in late March 2009 provided the program with much
needed support and directed commanders to enroll their illiterate policemen in it.

The ANA contract Statement of Work had four levels of instruction that progressed from the
Afghan grade 4 (Level One) to the Afghan grade 12 (Level Four). Level Four training, which
included some specialized computer training, was only for senior NCOs at the Kabul Military
Training Center (KMTC). Training will be given in both Dari and Pashto languages.

Additionally, the Scoping Study that was available in draft form at the time of this field review
was subsequently revised and briefed to the CSTC-A Commanding General. A literacy analysis
study team deployed from the United Kingdom in May 2009 to conduct the detailed analysis
called for in the Scoping Study. The results of that analysis were briefed to the CSTC-A CG on
July 13, 2009.

Recommendations, Client Comments, and Our Response
11.a. Commander, Combined Security Transition Command–Afghanistan, in coordination with
Commander, U.S. Forces–Afghanistan, add progress in improving literacy rates as part of the
Current Operations Briefings to senior commanders and track literacy progress as an Afghan
National Security Forces readiness indicator in the Training Readiness Assessment Tool and
Police Training Readiness Assessment Tool databases.

Client Comments
Commander, CSTC-A concurred with the recommendation, reporting that literacy rates were
now tracked and briefed as part of the Current Operations Briefings held weekly. CSTC-A



                                                76
further related that CSTC-A had conducted detailed analysis to identify roles, responsibilities,
and metrics as required by a literacy scoping study conducted by the United Kingdom.

Our Response
Commander, CSTC-A comments were responsive, and no additional comments are required.

11.b. Commander, Combined Security Transition Command–Afghanistan, establish a plan and
publish Literacy Program Implementing Guidance that clearly identifies roles, responsibilities,
and metrics for the Afghan National Security Force’ literacy programs, to include oversight of
both Afghan National Army and Afghan National Police contracts.

Client Comments
Commander, CSTC-A concurred with the recommendation and stated that CSTC-A will publish
Literacy Program Implementing Guidance in October 2009.

Our Response
Commander, CSTC-A comments were responsive. We request a copy of the Literacy Program
Implementing Guidance when it is published.




                                                77
Observation 12. Construction of Facilities to Support Afghan
National Security Force Fielding and Expansion
Forward operating bases and other facilities supporting the growth of the ANSF have been
generally built to U.S. standards. In some cases, this construction was behind schedule,
necessitating “work around solutions.” Furthermore, Afghan security forces personnel were
unable to maintain the facilities once they were built, thus making them unsustainable without
U.S. funded contractor support.

There are multiple reasons why the “build” of facilities is behind schedule and will continue to
be a challenge. Key among them are lack of skilled Afghan contractors and in-country supply of
construction materials, difficulty of readily acquiring land, the security threat, and insufficient
Afghanistan Engineer District (AED) oversight personnel. These challenges are exacerbated by
construction of the new ANSF facilities to a U.S. standard.
These obstacles have delayed completion of permanent facilities necessary to support the ANSF
and, therefore, progress in its development and operational readiness. With further ANSF
expansion already planned to occur over the next several years, the lack of ability to build the
necessary facilities to support this expansion could become a serious obstacle, unless the primary
issues are addressed. Otherwise, development of ANSF operational and logistical sustainment
capability could be significantly delayed, as a result.

Applicable Criteria
Program Management Plan (PgMP) for the Afghan National Army (ANA)
Program, for various Facilities throughout Afghanistan, Afghanistan
Engineer District, U.S. Army Corps of Engineers, March 2009. The purpose of
this document is to ensure successful design and construction of facilities supporting the fielding
of the Afghan National Army (ANA) Soldiers throughout Afghanistan. This PgMP outlines the
procedures and responsibilities Afghan and U.S. organizations will undertake during the
acquisition planning, management, design, construction and closeout of the programmed
facilities.

Afghanistan Engineer District, U.S. Army Corps of Engineers, Command
Brief, December 2008. This document provides an overview of the AED mission in
Afghanistan to include a command introduction, command relationships, AED workload
history/forecast, Afghan National Security Forces, U.S. and ISAF/Coalition forces, roads,
Commanders Emergency Response Program (CERP) and support for others, and construction
execution and challenges. This brief was presented to the DODIG during our visit in March
2009.

“Progress Toward Stability and Security in Afghanistan,” Report to
Congress in accordance with the 2008 National Defense Authorization Act
(Section 1230, Public Law 110-181, Department of Defense, June 2009.
This report, prepared in coordination with the Secretary of State, the Director of National
Intelligence, the Attorney General, the Administrator of the Drug Enforcement Administration,



                                                79
the Administrator of the United States Agency for International Development, and the Secretary
of Agriculture, provides a description of the comprehensive strategy of the United States for
security and stabilization in Afghanistan. It is the third in a series of reports required to Congress
every 180 days through fiscal year 2010.

The “Build” of Facilities to Support ANSF Fielding Faces Challenges
AED has three major program focus areas:
      The Afghan National Army (ANA)
      The Afghan National Police (ANP)
      Installation operations and maintenance (O&M) for ANA and ANP facilities
AED’s stated goal is to work in concert with CSTC-A and the Government of the Islamic
                                                Republic of Afghanistan (GIRoA) to build
                                                facilities, on schedule and within budget, that
                                                safely meet mission requirements. However,
                                                due to a series of construction-related issues--
                                                lack of in-country materiel, problems
                                                encountered with procurement of land, lack of
                                                skilled contractors and labor, and security
                                                problems--construction gets delayed or stopped
                                                altogether. In areas where security concerns are
                                                at their worst and protection is difficult to
                                                provide, hiring contractors and retaining a local
                                                work force has become especially problematic,
                                                if not at times impossible.
  Figure 13. AED personnel discuss facility plans.
   (Source: USACE - Afghan Engineer District)

So far, construction of facilities for the ANA and ANP has generally kept pace with fielding
requirements, although some shortfalls have occurred. AED reported that 69 percent of their
projects were 10 percent delayed. As a result, some fielded ANA units have had to live in tents,
funded by AED, while their new permanent base facilities were finished. The facilities already
built for the ANSF have not been well-maintained because of the lack of skilled labor in the
Army and Police, and among the general Afghan population. In addition, the GIRoA cannot pay
for contracted maintenance, so the U.S and/or the ISAF/Coalition currently finance this support
of ANSF facilities, often hiring non-Afghan contractors because no qualified Afghan contractors
or personnel are available. Further expansion of the ANSF will likely contribute to additional
“shortfalls” in facility completion and readiness against unit fielding schedules; operations and
maintenance (O&M) expenses can also be expected to increase.

O&M costs will continue to be a responsibility for the U.S. and ISAF/Coalition partners for the
foreseeable future. CSTC-A’s “Progress toward Security and Stability in Afghanistan, January
2009,” report to Congress stated, “It is estimated that the GIRoA will cover less than 20 percent
of its total recurrent expenditures, including core and external budgets, in FY 2009.” The current
value of contracts to provide O&M for existing ANSF facilities is approximately $75 million a
year, funded mainly by the United States. As the ANA grows to 134,000, projected O&M costs,
just for the ANA, are expected to be $60 million in FY 09 and $75 million in FY 10. AED


                                                     80
program managers have not yet projected O&M costs for a possible significant expansion of
ANP end strength.

New ANSF facilities the team visited were being constructed to a standard that differed from
what the Afghans needed or were accustomed to in the past. Moreover, they were not prepared to
maintain them as built. In many cases, U.S. and ISAF/Coalition-provided facilities observed
already indicated signs of disrepair. Examples included sinks that had been torn off barrack walls
so ANA soldiers could sit in them to wash their feet before prayers, which is important in the
Afghan culture. ANA soldiers were also building fires on the floor of their new barracks to cook
and to provide heat, even though the building had a heating system installed and a dining facility
that fed them.

CSTC-A is responsible for providing project definition to AED. Together they work in concert
with U.S. and Coalition/ISAF mentors, the MoD, and the MoI to define issues related to strategic
planning, land use, operations, communications, security, and force protection. Given the
difficulties associated with construction of infrastructure in Afghanistan and the finite capacity in
this area, along with the current and future costs associated with O&M for the ANSF
infrastructure, consideration should be given to developing ANSF facilities which address what
the Afghan security forces operationally “need” and which they can more readily maintain and
sustain.. Any future de-scoped construction would still have to maintain appropriate safety and
security standards, of course.

Recommendations, Client Comments, and Our Response
12. Commander, Combined Security Transition Command–Afghanistan, in coordination with
the Commander, U.S. Afghan Engineer District, evaluate courses of action to build Afghan
National Security Force’ facilities to an appropriate standard which meet ANSF mission
requirements and that they can sustainably maintain. Courses of action must incorporate
appropriate safety considerations.

Client Comments
Commander, CSTC-A concurred with this recommendation. CSTC-A reported that, in
coordination with AED and the Air Force Center for Engineering and the Environment
(AFCEE), they are planning and designing standard, more austere and operationally functional
ANSF facilities constructed to a minimal military standard, similar to those utilized by NATO.
This standard design results in low maintenance requirements. While meeting International
Building Code and National Electric Codes, these standard designs are intended to directly
reduce design and procurement time, as well as costs.

Our Response
Commander, CSTC-A comments were responsive. We request a copy of the standard building
designs.




                                                 81
Part III – Afghan National Army
Introduction
This section contains a series of observations and recommendations for improvement that apply
to the MoD, ANA, the Afghan National Army Air Corps, and the Counter Narcotics Infantry
Kandak (CNIK).




                                              83
Observation 13. The Afghanistan Security Forces Fund
CSTC-A found it difficult to effectively and efficiently obligate the FY 2009 Bridge
Appropriation, provided under the Supplemental Appropriations Act, 2008 (Public Law 110-
252), by the end of FY 2009.

This occurred because the FY 2009 Bridge Appropriation, provided under the Supplemental
Appropriations Act, 2008 (Public Law 110-252), initially made Title 10 Afghan Security Forces
Fund (ASFF) available through September 30, 2009 and CSTC-A did not receive this funding
until the second quarter of FY 2009.

This problem was partially corrected by the Supplemental Appropriations Act, 2009 (Public Law
111-32), which made ASFF available through September 30, 2010, vice 2009. However, the fact
that these funds were not provided CSTC-A until the second quarter, and the unpredictability
from year-to-year in terms of the funding life of ASFF, will continue to hinder CSTC-A’s ability
to flexibly manage and efficiently obligate these funds in support of the Afghan National
Security Forces (ANSF) train and equip mission. Without greater timeliness of availability and
assured flexibility in the use of ASFF funding, CSTC-A may be unable to provide equipment and
build infrastructure consistent with its operational plans, which could delay the build-up of
ANSF capability and extend reliance on U.S., Coalition, and ISAF combat forces.

Applicable Criteria
Public Laws. Congress has so far provided approximately $18.25 billion to the Iraq Security
Forces Fund and approximately $18.95 billion to the Afghanistan Security Forces Fund through
Public Laws 109-13, 109-234, 109-289, 110-28, 110-161, 110-252, and 111-32. These Public
Laws define the train and equip mission performed in Iraq and Afghanistan. The laws specified
that the Iraq Security Forces Fund and the Afghanistan Security Forces Fund funds be used to
provide funding; equipment; supplies; services; training; facility and infrastructure repair,
renovation, and construction for the security forces of Iraq and Afghanistan.

31 United States Code (U.S.C.) § 1502(a). This U.S.C. generally requires that
appropriated funding only be used for expenses properly incurred in the same fiscal year.

National Labor Relations Board—Funding of Subscription Contracts, B-
309530 (September 17, 2007). This decision provides possible exceptions to the
requirements of 31 U.S.C. § 1502(a) based on future need.

Afghan National Army Fielding Plan. This Ministry of Defense/CSTC-A document
provides information on plans to develop and field kandaks through the end of December 2011,
with a target of 134,000 ANA personnel (122,000 in kandaks and 12,000 in training, hospital
etc.)




                                               85
Near-Term Funding Issues Impacting on Expansion of the Afghan
National Army
Current planning calls for expansion of the ANA from the previous authorized ceiling of 84,000
soldiers to 134,000. The target date for completion of the expansion has been moved up from
December 2013, to December 2011. Having ASFF financing available on a timely and flexible
basis to support this ANA force expansion therefore becomes a more necessary condition to meet
this objective.

However, CSTC-A reported that they have had a continuing problem with ASFF monies arriving
well into the FY, affecting their ability to ensure support to the ANSF on a reasonably timely
basis. For example, CSTC-A received their initial FY 09 ASFF money in February 09, over four
months into the fiscal year. This made it difficult to plan and execute its budget in support of the
planned expansion of the ANSF and to meet the need of ensuring a steady-state flow of
equipment with long procurement lead times.

The Office of the Secretary of Defense (C) confirmed that the initial FY 2009 $1.4B bridge
funding provided in Public Law 110-252 (FY 2008 Supplemental) was only available for
obligation until September 30, 2009. This was a one-time occurrence, to date, and was corrected
by the Supplemental Appropriations Act, 2009 (Public Law 111-32), making ASFF available
through September 30, 2010. They also reported that they have taken steps to expedite fund
availability to CSTC-A in support of the ANSF, once appropriated by Congress. They report
that, under the most recent appropriation, Public Law 111-32, ASFF was released 21 days after
enactment.

Due to the complexities of changing purchasing requirements in the wartime Afghan
contingency environment, and the long lead time associated with procurement of certain critical
items of equipment for the ANSF, CSTC-A could manage ASFF funding more efficiently in
support of its mission if all such funding were appropriated as multi-year on a continuing basis
and consistently made available early in the Fiscal Year.

Recommendations, Client Comments, and Our Response
Revised Recommendation. Based on an assessment of comments provided by the
Deputy Comptroller, Office of the Under Secretary of Defense, we have revised draft
Recommendation 13 as follows:

 13. Under Secretary of Defense (Comptroller), take appropriate action to request that future Title
 10 Afghanistan Security Forces Fund money is requested as multi-year in Congressional DoD
 appropriations, and that Department of Defense processes are in place to expeditiously make
 these funds available to the Combined Security Transition Command-Afghanistan.

Client Comments
The Deputy Comptroller, Office of the Under Secretary of Defense, partially non-concurred with
the observation and recommendation as written in the draft. The Deputy Comptroller


                                                86
recommended edits to reflect that the Department already requests and has received the ASFF as
an appropriation available for more than one year. The FY 2009 Bridge Appropriation, provided
under the Supplemental Appropriations Act, 2008 (Public Law 110-252), which made ASFF
available for only one year, was the sole exception. The situation was corrected by the
Supplemental Appropriations Act, 2009 (Public Law 111-32), making ASFF available through
September 30, 2010.

Our Response
The Deputy Comptroller comments were responsive and no additional comments are required.
To address the comments provided by the Deputy Comptroller, we modified the observation and
adjusted the recommendation.




                                             87
Observation 14. Potential Expansion of the Afghan National
Army Beyond 134,000 Personnel
The accelerated fielding plan increasing the size of the ANA to 134,000 by the end of CY 2011
has presented challenges that have stretched CSTC-A’s current train and equip system to the
edge of acceptable limits.

This has occurred because of issues associated with:
       Insufficient ANA leadership capability (specifically junior officers/non-commissioned
        officers [NCOs])
       Shortages of certain lines of essential unit equipment (howitzers, mortars,
        communications, and engineer)
       Insufficient training facility capacity
       Limited capacity to construct ANSF permanent bases/facilities “down-range”
       Limited ANA logistics capability lagging operational requirements and
       Time necessary to develop ethical, competent leaders
Unless the U.S. and international partner forces provide additional resources to address these
issues, expansion of the ANA beyond the currently approved 134,000 personnel could diminish
force quality and its long-term viability.

Applicable Criteria
“Progress Toward Stability and Security in Afghanistan,” Report to
Congress in accordance with the 2008 National Defense Authorization Act
(Section 1230, Public Law 110-181, Department of Defense, June 2009.
This Department of Defense Report, prepared in coordination with the Secretary of State, the
Director of National Intelligence, the Attorney General, the Administrator of the Drug
Enforcement Administration, the Administrator of the United States Agency for International
Development, and the Secretary of Agriculture, provides a description of the comprehensive
strategy of the United States for security and stabilization in Afghanistan. It is the third in a
series of reports required to Congress every 180 days through fiscal year 2010.

Afghan National Army Fielding Plan. This Ministry of Defense/CSTC-A document
provides information on plans to develop and field kandaks through the end of December 2011,
with a target of 134,000 ANA personnel (122,000 in kandaks and 12,000 in training, hospital,
leave, etc.)

Expansion of the Afghan National Army Beyond 134,000 Personnel
“Establishing security in Afghanistan is a prerequisite for achieving our strategic goals.” 5

5
  “Progress Toward Stability and Security in Afghanistan,” Report to Congress in accordance with the 2008
National Defense Authorization Act (Section 1230, Public Law 110-181, Department of Defense, January 2009,
page 17.


                                                     89
Tasked to expand the ANA to 134,000 personnel, CSTC-A determined they could obtain the
resources needed to complete that mission by the end of December 2011, vice the original target
of December 2013. The generation of the 134,000 ANA force has begun with the acceleration of
eight light infantry kandaks and one division support unit into FY 2009. However, any
expansion of the ANA beyond the 134,000 could prove problematic.

Were the ANA to be expanded beyond the current authorization of 134,000, several issues must
be addressed to ensure future force generation and development produces operationally effective
and logistically sustainable forces on a timely basis. The primary potential challenges are:

      Personnel: The ANA has historically been and continues to be critically short of trained
       and qualified junior officers and NCOs, personnel essential to providing sound unit
       leadership. While some of the senior Afghan leadership still supports the mujahedeen
       model of one leader among a band of equals, in which no NCO corps existed, the current
       ANA force has not been organized this way. Today, a viable, sustainable ANA capable
       of winning the COIN fight requires a sufficient quantity of quality leaders. Since
       illiteracy is widespread, recruiting and developing ANA soldiers who can read and write
       at a level acceptable to be trained as an NCO is problematic. While additional resources
       for literacy training within the ranks will help, this is an issue that will take time and
       cannot be significantly impacted in the near-term.
      Equipment: There have been difficulties providing certain types of basic equipment
       essential for fielding units and sustaining their readiness, such as howitzers, mortars,
       communications, and certain types of engineer equipment. This equipment is critical to
       the effectiveness of combat, combat support, and combat service support kandaks. Even
       with procurement funding available, planners expect supply delivery lead times as long
       as two years.
      Training: The Kabul Military Training Center (KMTC) and the Consolidated Fielding
       Center (CFC), where new ANA recruits undergo basic training and units are organized
                                                                              into kandaks for
                                                                              equipment issue and
                                                                              limited collective
                                                                              training, respectively,
                                                                              will be operating at
                                                                              their maximum
                                                                              capability and capacity
                                                                              to generate the 134,000
                                                                              size ANA force by the
                                                                              end of CY 2011.
                                                                              Further acceleration of
                                                                              ANA fielding will
                                                                              require additional
                                                                              facilities, trainers, and
                 Figure 14. ANA soldiers training at KMTC.                    funding support.
                             (Source: NATO)




                                                 90
      Physical Infrastructure: Facilities on forward operating bases or outposts, which house,
       train, and sustain fielded security forces, are fundamental to any future expansion of the
       ANA, as well as the ANP. Almost all such facilities have to be built over a large
       geographic area with few connecting roads. Lack of security makes it even harder for
       contractors to carry out construction projects. The Afghan Engineer District (AED)
       already reports difficulty completing projects on-time—62 percent of projects were at
       least 10 percent delayed. There will be a need for additional base and outpost growth if
       the ANA expands beyond 134,000, but, a finite construction capacity and lack of security
       has disrupted planning in the past.
      Logistical Capacity: The ANA logistics system has not developed in tandem with its
       operational growth; the demands of generating combat units previously took priority over
       building logistical capacity. Implementing this “hurry-up offense” has resulted in the
       ANA tactical capability growing more rapidly than its logistical capacity. Due to this
       imbalance in force development, ANA logistical capacity is unable to provide necessary
       support to effectively support and sustain its combat forces. This presents a significant
       challenge to current and future force development, which senior Afghan MoD and ANA
       leadership view as a significant weakness. The system currently functions with
       significant assistance from U.S. and ISAF/Coalition enablers who facilitate a number of
       basic logistical functions, ranging from the supply system, to transportation, and other
       primary expertise. In some cases, due to shortage of necessary mission essential
       equipment, units formed to be in direct logistical support of ANA combat brigades—
       support battalions—have been fielded instead as infantry kandaks. CSTC-A and MOD
       are working to build logistical system capacity in line with ANA operational needs.
      Time: Further expansion of the ANA beyond 134,000 soldiers will, of course, require
       sufficient time to build and
       field a quality force capable
       of defeating the insurgency.
       For example, developing an
       additional cadre of quality
       officers and NCOs is a
       process not easily
       foreshortened. Furthermore,
       long lead time requirements
       for certain types of critical
       equipment cannot be ignored.
       Furthermore, construction of
       necessary facilities is already
       constrained by factors and                  Figure 15. Afghan National Army soldiers.
       forces not easily overcome.                             (Source: NATO)


Due to the significant challenges faced, the expansion of the ANA beyond the 134,000 objective
could diminish force quality and its long-term viability, unless additional U.S. and international
resources are made available well in advance. CSTC-A is evaluating several scenarios for further
expansion of the ANA to determine what resources will be required, given various timelines.



                                               91
Recommendations, Client Comments, and Our Response
 14. Commander, Combined Security Transition Command–Afghanistan, in coordination with
 Commander, U.S. Forces–Afghanistan and U.S. Central Command, develop a plan for any
 further expansion of the Afghan National Army that identifies the resourcing necessary to meet
 requirements, while maintaining the quality of the force. The plan should include developing
 the logistics capability of the Afghan National Army to sustain and support operations based on
 the size of the expanded combat forces.

Client Comments
Commander, CSTC-A concurred with the recommendation, reporting that a plan has been
developed that supports COMISAF’s Strategic Assessment in terms of acceleration, growth, and
enhanced sustainable capacity and capability of the ANSF.

Our Response
Commander, CSTC-A comments were responsive. We request a copy of the plan to support
expansion of the ANSF.




                                               92
Observation 15. U.S. Army National Guard Partnering with
International Security Assistance Force Operational Mentor
and Liaison Teams
U.S. Army National Guard military personnel assigned to combined Operational Mentor and
Liaison Teams (OMLTs) via the National Guard’s State Partnership Program (SPP) have
sometimes arrived in Afghanistan without sufficient training and equipment commensurate with
their mission requirements.

This occurred through lack of sufficient preparation and coordination by U.S. National Guard
authorities at the national and state levels prior to the unit’s departure from the United States and
because the Guard soldiers did not attend the ETT/PMT training at Ft. Riley, KS, leaving them
unprepared to execute the train and equip mission.

As a result, CSTC-A’s Task Force (TF) Phoenix has had to divert resources to address the Guard
unit’s deficiencies and the deployment of the combined U.S.-ISAF OMLTs had to be delayed
until they became operationally ready.

Applicable Criteria
Request for Forces 937 and 938. These are classified documents.

Title 10 USC 168, (10 U.S.C. 168), amended on February 10, 1996. The
Secretary of Defense may conduct military-to-military contacts and comparable activities
designed to encourage a democratic orientation of the military forces of other countries. To carry
out the program, Title 10 states that funds appropriated and made available for carrying out the
authorized activities may be used for, among other things, U.S. activities and expenses for
military liaisons and traveling contact teams as well as for seminars and conferences held in the
theater of operations.

NATO Partnership for Peace Program. This NATO program provides assistance to
countries who want to develop cooperative military and peacekeeping relations with it. The
overarching goal of the Partnership for Peace Program (PfP), as defined by the member countries
of NATO, is to enhance stability and security throughout Europe and Eurasia by forging strong
partnerships between the NATO Alliance and partner countries. Partnerships are based on
practical cooperation and commitment to democratic principles. Full participation in PfP is
essential for countries that want to join NATO because the partnership allows those countries to
develop interoperability with NATO forces and to prepare their force structure and capabilities
for possible future membership.

S. HRG. 110–506, NATO: Enlargement And Effectiveness Hearing Before
the Committee on Foreign Relations, United States Senate, One Hundred
Tenth Congress, Second Session, March 11, 2008. The Honorable Daniel Fried,
Acting Under Secretary for Political Affairs, U.S. Department of State said:




                                                 93
               We also need allies and partners to do more to train and equip the Afghan
               national security forces—the Army and the police. NATO is providing small
               embedded teams directly into Afghan forces to serve as coaches, trainers, and
               mentors to the Afghan Army units. Currently, there are 34 NATO training and
               mentoring teams (called Operational Mentoring and Liaison Teams—OMLTs)
               deployed in Afghanistan. But we need at least 22 more by this time next year
               and we are asking all of our allies and partners to step up and do more.

Headquarters Department of the Army (HQDA) Execution Order (EXORD)
171-09, US Forces Augmentation to NATO Operational Mentor and Liaison
Team (OMLT), date time group 220426 Zulu April 2009 (classified). This
document establishes training requirements and other criteria for assigning U.S. National Guard
soldiers to NATO OMLTs via the National Guard’s SPP.

U.S. Embedded Training Team and Coalition Operational Mentoring
and Liaison Teams Joint Train and Equip Mission
As of June 2009, there were 54 ISAF and Coalition OMLTs deployed in Afghanistan. Four of
these OMLTs were combined teams consisting of U.S. National Guard personnel and ISAF
forces from affiliated SPP countries. This program links a U.S. state’s National Guard with the
military of a foreign nation to promote enhanced bilateral relations. The mission of the SPP is to
enhance the Combatant Commanders’ ability to establish enduring civil-military relationships
that improve long-term international security, while building partnership capacity across all
levels of society. Today the program encompasses all geographic Combatant Commands and
includes 61 SPP partnerships.

When an SPP country’s government elects to participate in the train and equip mission in
Afghanistan, a contingent of soldiers from its military is linked to 11 to 15 soldiers from their
partner U.S. state’s National Guard. The U.S. Army requires that all U.S. military personnel
being assigned to the mentor/trainer mission attend training at Ft. Riley, Kansas. This includes
U.S. National Guard soldiers. (An alternative to attending training at Ft. Riley is training
conducted at the units’ home station by Mobile Training Teams from Ft. Riley.) They then join
                                                              their Coalition partner in their home
                                                              country for additional individual
                                                              training, followed by final team
                                                              training at the Joint Training Forces
                                                              Center NATO training facilities in
                                                              Bidcus, Poland. Once that training is
                                                              complete, the combined OMLT,
                                                              including the Guard contingent,
                                                              ships their equipment from the Joint
                                                              Forces Training Center to
                                                              Afghanistan and deploy directly. The
                                                              entire training process takes about
                                                              four months and counts toward the
                                                              U.S. National Guard soldiers’
    Figure 16. Serbian soldier receives U.S. jump wings from  twelve-month deployment.
   National Guard site commander as part of an SPP military
                          exchange.
               (Source: Ohio National Guard)
                                                    94
In at least one instance, the U.S. National Guard soldiers by-passed the training at Ft. Riley and
processed through the CONUS Replacement Center at Ft. Benning, GA instead. However, the Ft.
Benning program is organized to process individual augmentees and does not provide the in-
depth training necessary for soldiers to serve as mentors and trainers in the train and equip
mission.

The U.S. National Guard soldiers have also experienced problems with the lack of NATO
standard ammunition while training in their partner force’s country, as well as the inability to
provide secure storage for their weapons. For Guard forces that by-passed Ft. Riley, they also
lacked training on some of the equipment they would be required to use once deployed to
Afghanistan, like the latest secure radios and the various vehicular anti-IED systems.

Occasionally, when U.S. Guard soldiers deploy via commercial air carriers to attend training
with their SPP countries’ OMLT forces, they have had to initially pay out-of-pocket to transport
their individual weapons. Furthermore, the combined force OMLTs have sometimes arrived in-
country before their equipment, to include weapons.

Task Force Phoenix has then had to divert resources to complete the necessary Guard training
and provide weapons and other equipment for the combined OMLTs to use until their shipment
arrives from Poland.

Recommendations, Client Comments, and Our Response
 15. Chief, National Guard Bureau, in coordination with Commander, U.S. Central Command
 and Commander, Combined Security Transition Command–Afghanistan, develop and
 implement a plan for support of U. S. Army National Guard contingents partnering with
 International Security Assistance Force Operational Mentor and Liaison Teams to ensure that:
      a. The U.S. National Guard contingent conducts appropriate training at Ft. Riley/Ft. Polk
 prior to joining their partner Operational Mentor and Liaison Team.
     b. Appropriate equipment and ammunition support is provided to the U.S. National Guard
 contingent during it training with the partner country’s Operational Mentor and Liaison Team.
     c. The Guard’s weapons arrive in Afghanistan prior to the combined OMLT/U.S. force.

Client Comments
The Chief, National Guard Bureau concurred with these recommendations, noting that “HQDA
EXORD 171-09 US Force Augmentation to NATO Operational Mentor and Liaison Team
(OMLT), published on April 22, 2009, addressed the identified issues. Prior to this guidance,
and during the DoDIG field work, the Army National Guard had no DoD requirements to
resource against, relying instead on NATO guidance.




                                                95
Our Response
The Chief, National Guard Bureau comments were responsive and no additional comments are
required. We will follow-up to determine the effectiveness of the criteria published in HQDA
EXORD 171-09.




                                              96
Observation 16. M-1151 High Mobility Multi-Purpose
Wheeled Vehicles Supplied to the Afghan National Army
There were unresolved issues with respect to the fielding of M-1151 High Mobility Multi-
Purpose Wheeled Vehicles (HMMWVs) in the ANA. Some of the problems we found included:
      Some HMMWVs supplied to the ANA, equipped with a cupola, did not have mounted
       weapon systems authorized in the Tashkil for the vehicle, e.g. M-2 50 Caliber, M-240, or
       M-249 machine guns.
      For those HMMWVs that were authorized weapon systems, some had been fielded
       without them at all, or their fielding was incomplete.
      HMMWV-compatible weapon systems were being fielded to ANA units that were only
       authorized Light Tactical Vehicles (Ford Ranger pickup trucks), while, in some cases, the
       more capable and survivable HMMWV they received had no weapon system.
      HMMWVs that did have authorized and fielded weapon systems were missing an adapter
       (pintle) needed to mount the weapon
      HMMWV weapons training was not occurring as scheduled or not even being presented
       due to a lack of the appropriate weapon systems.

This occurred because the ANA Tashkil did not properly identify weapons and matching
equipment requirements for each type of unit. Additionally, HMMWVs were not consistently
arriving with their required weapon systems, and the parts necessary to mount the weapons.

As a result, some ANA units were not able to use HMMWVs with the intended weapon systems,
thus eliminating this essential operational capability. And, training could not be provided to the
ANA soldiers on the HMMWV weapons to prepare for combat operations.

Applicable Criteria
“Progress Toward Stability and Security in Afghanistan,” Report to
Congress in accordance with the 2008 National Defense Authorization Act
(Section 1230, Public Law 110-181, Department of Defense, June 2009.
This Department of Defense Report, prepared in coordination with the Secretary of State, the
Director of National Intelligence, the Attorney General, the Administrator of the Drug
Enforcement Administration, the Administrator of the United States Agency for International
Development, and the Secretary of Agriculture, provides a description of the comprehensive
strategy of the United States for security and stabilization in Afghanistan. It is the third in a
series of reports required by Congress every 180 days through fiscal year 2010.

Afghan National Army Tashkil. This document establishes the end strength, rank and
skill structure, and equipment requirements for the ANA and subordinate units. It is similar to a
U.S. Army Modified Table of Equipment (MTOE).




                                                 97
Issues with the HMMWV Fielding Program
The ANA was in the process of fielding the M-1151 HMMWV to selected units, with the
assistance and oversight of CSTC-A. The primary ANA transport vehicle previously had been
the Light Tactical Vehicle (LTV), a Ford Ranger Truck. This conversion program, according to
CSTC-A in their “Progress toward Security and Stability in Afghanistan,” January 2009 report
to Congress, includes more than 4,100 HMMWVs and is scheduled to be completed in mid-
2010.

The Afghan Tashkil identifies ANA unit-specific requirements, to include personnel, weapons,
vehicles, and is very similar to the U.S. Military Table of Organization. It should identify and
authorize the appropriate weapons, along with radios and other equipment to be fielded, to make
the HMMWVs fully combat ready.

In some cases, however, the ANA Tashkil did not authorize mounted weapon systems for units
receiving HMMWVs. For example, the team found HMMWVs fielded to recon platoons and
mortar platoons in each of the infantry kandaks, but the Tashkil had not authorized any of the
necessary M-240, M-249, or M-2 machine guns. The heavy machine gun platoon in one weapons
company was authorized M-2s, but the unit was mounting them in LTVs because they were not
authorized HMMWVs.

For those HMMWVs authorized weapon systems,
the fielding of these systems was sometimes
incomplete. In Gardez, the ANA infantry kandak
visited had over 30 HMMWVs with cupolas for
mounted weapons systems parked and not being
used. The weapons had not arrived, so the
vehicles were of no combat use. In Kandahar, the
G3, 1st Brigade, ANA 205th Corps reported that,
“HMMWVs are arriving and this is good, but
they are not coming with the crew-served
weapons needed to operate them properly.”
                                                         Figure 17. ANA HMMWVs in Gardez.
                                                                (Source: DoDIG – SPO)

Furthermore, at Gardez, most of the HMMWVs that did have authorized and fielded weapons
systems were reportedly missing the pintle, an adapter needed to mount the weapons. Depot 1
had recently received some pintles, but none had arrived at the unit level yet. Reportedly, some
ANA soldiers were fabricating their own pintle-like mounts for Russian 12.7mm machine guns
(similar to a U.S.50 caliber M2) in the HMMWV cupola so they could use the vehicle in combat.

Because of the failure to supply HMMWVs with their associated weapon systems, the weapon
portion of the HMMWV training program in Gardez could not be conducted. The Program of
Instruction (POI) included weapon live fire exercises scheduled for two weeks at the end of the
HMMWV training cycle. ARSIC East leadership indicated they were working to address this
problem.




                                               98
Conclusion
The deployment of M-1151 HMMWVs into the fight was being delayed because the Tashkil was
not aligned with mission requirements for the different types of ANA units, and weapon systems
were not being provided to the right units at the right time. As a result of poor planning and
organization, ANA soldiers were not receiving the proper vehicles, weapon systems, spare parts,
and training to utilize the M-1151 HMMWV’s full combat capability.

Recommendations, Client Comments, and Our Response
16.a. Commander, Combined Security Transition Command–Afghanistan, in coordination with
the Minister of Defense, ensure that the Tashkil authorizes M-1151 High Mobility Multi-
Purpose Wheeled Vehicles with appropriate weapons systems for units requiring them for
combat operations, based on the unit mission.

Client Comments
Commander, CSTC-A concurred with the recommendation. CSTC-A completed a detailed
mission analysis to determine the mobility requirements and ancillary equipment requirements of
the 134,000 ANA and 96,800 ANP in comparison to Tashkil documentation. CSTC-A is
carefully reviewing requirements and resources for further growth of the ANSF.

Our Response
Commander, CSTC-A comments were partially responsive. It is still unclear whether action has
been taken to document in the MoD Tashkil the appropriate weapons systems for M-1151 High
Mobility Multi-Purpose Wheeled Vehicles for units requiring them for combat operations, based
on the unit mission. We request that CSTC-A provide additional comment on this issue
addressing the concern stated.

16.b. Commander, Combined Security Transition Command–Afghanistan, in coordination with
the Minister of Defense, ensure that authorized weapons systems for the M-1151 High Mobility
Multi-Purpose Wheeled Vehicles are delivered with all ancillary parts, equipment, and adapters
required to make the systems operational.

Client Comments
Commander, CSTC-A concurred with this recommendation, noting that a full review of all
ancillary parts, equipment, and adapters for M-1151 weapons systems had been completed.
CSTC-A stated that they will ensure such items are placed on FMS cases or locally procured.

Our Response
Commander CSTC-A comments were responsive, and no additional comments are required.




                                              99
16.c. Commander, Combined Security Transition Command–Afghanistan, in coordination with
the Minister of Defense, ensure that once weapons systems arrive, units and personnel receive
weapons familiarization instruction and conduct live-fire exercises to develop M 1151 High
Mobility Multi-Purpose Wheeled Vehicles’ crew capability and maximize combat effectiveness.

Client Comments
Commander, CSTC-A concurred with the recommendation and is currently implementing this
training.

Our Response
Commander, CSTC-A comments were responsive, and no additional comments are required.




                                             100
Observation 17. Afghan National Army Soldiers and
Organizational Clothing and Individual Equipment
ANA soldiers were arriving at the Consolidated Fielding Center (CFC) or their unit’s home
station either missing some or completely without any of their initial issue of Organization
Clothing and Individual Equipment (OCIE). Neither the chain of command nor the soldiers were
being held accountable for OCIE losses.

OCIE was issued to all ANA soldiers upon entering Basic Warrior Training at Kabul Military
Training Center (KMTC). This OCIE was then supposed to be brought with each soldier to the
CFC and then on to the home duty station. Missing OCIE resulted from ANA soldiers allegedly
losing or selling their OCIE while on leave after completing basic training or after the end of
CFC training. In addition, the soldiers were arriving at the CFC or their kandak’s new home-base
without their clothing records, making it difficult to establish accountability.

This lack of accountability for OCIE caused delays in preparing soldiers for unit training and
operational missions, and created additional expense for CSTC-A since ANA soldiers had to be
reissued OCIE to become effective.

Applicable Criteria
MoD Decree 4.2 “Materiel Accountability Policy and Procedures,” June
2009. This MoD decree establishes the basic policies and procedures to account for military
materiel in the ANA.

Afghan National Army Tashkil. This document establishes the end strength, rank and
skill structure, and equipment requirements for the ANA and subordinate units. It is similar to a
U.S. Army Modified Table of Equipment (MTOE).

ANA Form 3645, Personal Clothing Record. This form is used to document the issue
of OCIE to individual ANA soldiers.

U.S. and International Security Assistance Forces/Coalition Forces
Train and Equip Mission
A significant number of soldiers reportedly have arrived at CFC for unit training without
complete OCIE. In addition, many did not have the ANA Form 3645, Personal Clothing Record,
provided to them at KMTC. This prevented verification of what had been issued. Soldiers have
also arrived at their kandak’s home station after CFC lacking OCIE and also missing the Form
3645.

After completing Basic Warrior Training (initial/basic training) at KMTC, ANA soldiers were
given a two-week leave prior to reporting to the CFC. ANA soldiers will usually travel back to
their homes across Afghanistan during this time. Due to the lack of adequate mass transportation,
it can take ANA soldiers up to a month to complete the round trip journey from home and back
to their duty stations. Returning home was crucial to many ANA personnel so they could provide
money/support to their families.


                                               101
However, by the time soldiers returned to the CFC to begin unit training, some of them were
missing part or all of their OCIE. Many did not travel on leave with OCIE due to the extremely
high threat of violence against them from insurgents and terrorists who might identify them as
part of the ANA. However, OCIE left behind at the KMTC while the soldier went on leave was
often poorly secured and sometimes stolen. Those ANA soldiers that did depart KMTC with
their OCIE would sometimes leave it at home for their families to use. Or, due to the high
poverty and poor standard of living conditions, ANA personnel also sold or pawned their OCIE
for money.

Another factor contributing to missing equipment and uniforms has sometimes been the inferior
quality of the product issued. Some boots and blankets issued to the ANA have been sub-
standard, according to the MoD Inspector General. Consequently, when the equipment became
unserviceable, the soldiers discarded it. CSTC-A was assessing how to best address the
contracting issues related to the purchase and issuance of sub-standard boots and blankets.

Additionally, the only copy of the soldier’s ANA Form 3645, Personal Clothing Record that has
historically been available to the chain of command is the one the soldier is supposed to hand-
carry from Basic Warrior Training, on to CFC, and, finally, to the home duty station. The soldier
often loses this paperwork or throws it away. Because there has been no administrative process
by which Form 3645 was separately passed to CFC and to the soldier’s receiving unit, it has been
difficult to hold the soldier accountable for missing OCIE.

CFC reportedly initiated an administrative procedure with KMTC to address the problem. U.S.
and ISAF/Coalition trainers at CFC said they were now making three copies of the ANA Form,
3645 Personal Clothing Record, and distributing them as follows:
      One for the soldier,
      One for CFC records, and
      One that is forwarded to the gaining unit.
In the meantime, U.S. and ISAF/Coalition trainers are reportedly maintaining and transferring
OCIE records, while they mentor the Afghans on the process.
While individual soldiers were apparently “losing” their OCIE and ANA Form 3645 during
periods of leave after basic training and CFC, accountability of sensitive equipment items,
including weapons, was being rigorously enforced during KMTC basic training. Inventories
were conducted:
      Upon receipt of the sensitive equipment,
      Every 30 days during training,
      During unit validation, and
      When command-directed (kandak commander and/or mentor).
With respect to accountability for OCIE, ANA officers and NCOs were gradually learning to
enforce the ANA requirement promulgated in MoD Decree 4.2. “Until the ANA leadership




                                               102
systematically implements investigation and punishment procedures, ANA leaders and their
soldiers will not recognize the importance of accounting for their equipment.” 6

Recommendations, Client Comments, and Our Response
    17.a. Commander, Combined Security Transition Command–Afghanistan, in coordination with
    the Minister of Defense and Chief, Afghan National Army General Staff, develop a process to
    ensure that the Afghan National Army Form 3645, Personal Clothing Record, is prepared for
    each Afghan National Army soldier documenting issue of clothing and equipment at the Kabul
    Military Training Center and that a copy of that record is transmitted to the Consolidated
    Fielding Center and the soldier’s gaining unit.

Client Comments
Commander, CSTC-A concurred with this recommendation, noting that KMTC had initiated
corrective action and had implemented an ANA Consolidated Solider Record that includes an
ANA Form 3645.

Our Response
Commander, CSTC-A comments were partially responsive. It is unclear what process is in place
to transmit the Consolidated Soldier Record from KMTC to CFC and then beyond to the
soldier’s gaining unit. We request that CSTC-A provide additional comments addressing this
issue.

17.b. Commander, Combined Security Transition Command–Afghanistan/Commander, North
Atlantic Treaty Organization Training Mission–Afghanistan, ensure that Embedded Training
Teams and Operational Mentor and Liaison Teams mentor the Afghan National Army on the
importance of developing/maintaining individual accountability records and conducting regular
and timely inventories of Organization Clothing and Individual Equipment to enforce established
standards.

Client Comments
Commander, CSTC-A concurred with this recommendation. CSTC-A stated that they were
training ANA units at all levels to improve accountability of OCIE and other equipment. CSTC-
A noted that this area required their constant attention. It would also require the constant
attention of the ISAF Joint Command when it assumed responsibility for the development of the
fielded ANSF.

Our Response
Commander, CSTC-A comments were responsive, and no additional comments are required.
We plan to follow-up on this series of recommendations in a future assessment.

6
  Combined Training Advisory Group Briefing Slides,” Proposed CFC Sensitive Item & Equipment Accounting
Training System,” (draft) February 28, 2009.



                                                   103
17.c. Commander, Combined Security Transition Command—Afghanistan/Commander, North
Atlantic Treaty Organization Training Mission—Afghanistan, coordinate with the Minister of
Defense to ensure accountability procedures are in place and implemented by the Afghan
National Army chain of command to address the loss of Organization Clothing and Individual
Equipment.

Client Comments
Commander, CSTC-A concurred with this recommendation. MoD Decree 4.2 “Material
Accountability and Procedures,” signed in June 2009, clearly outlines accountability procedures
and mandates use of MoD form 3465 to record OCIE transactions. At the conclusion of winter
2009, CSTC-A provided storage space to allow ANA units to properly secure winter OCIE
during summer months to enhance accountability. CSTC-A reported that they planned to
conduct inspections to ensure accountability of these items.

Our Response
Commander, CSTC-A comments were responsive. We request that CSTC-A provide a summary
of the results of the planned CSTC-A inspections designed to enhance accountability of winter
OCIE in the ANA.




                                              104
Observation 18. D30 122-Millimeter Howitzers
All four ANA Corps Commanders visited reported that they did not have the quantity of D-30
122-millimeter (mm) howitzers authorized and that some pieces had been inoperable an
excessive amount of time waiting for repair parts.

This has occurred because the in-country D30s were left over from the Soviet occupation or were
more recently donated to the Afghan government by other countries. Obtaining additional D-30s
and repair parts from these sources has been difficult.

Continued shortage of D30s and lack of parts to service these howitzers deprives the ANA of a
critical combat enabler that will have to be provided by the U.S. and the ISAF/Coalition on a
continuing basis, and limits the operational capability of the ANA forces.

Applicable Criteria
ANA Fielding Plan. This document provides information on plans to develop and field
kandaks through the end of December 2011, with a target of 134,000 ANA personnel (122,000 in
kandaks and 12,000 in training, hospital, or on leave.)

CSTC-A Planning for ANA Artillery in Combat Support Kandaks
CSTC-A acknowledges the problem related to current ANA shortages of D30 122-mm howitzers
and the parts and serviceability issues with the ones on-hand.
      The total requirement of D-30s for the 134,000 end strength ANA is 283.
      The ANA currently has in their inventory 86 of the 96 howitzers authorized by the Solar
       Year 1388 Tashkil (effective March 2009).
      Of the 86 on-hand, 65 are operationally ready (75.5 percent operationally ready vice on-
       hand/67.7 percent operationally ready vice currently fielded authorization).
      CSTC-A evaluated the option of replacing the D30 howitzers with the U.S made 105-mm
       howitzer, but decided against it for the following reasons:
           o   The ANA already have a significant number of D30s on-hand.
           o   The D-30 is simple to maintain and operate.
           o   The ANA is already trained on and familiar with the system.
           o   The ANA already has the ammunition stocks on-hand.
           o   The truck fleet that CSTC-A is procuring for the ANA will be capable of moving
               the D-30s, but not the M105s.
      The D-30s in country are a combination of both donated D-30s and D-30s left in the
       ANA inventory from the days of the Soviet occupation. CSTC-A is currently working on
       acquiring additional D-30s via purchase or donation, but has not concluded any
       international offers or contracts.
      There is reportedly a supply of artillery pieces and repair parts available through both
       donation and FMS procurement, although to date, CSTC-A has had limited success in



                                             105
       this area. If parts were available, both HEB and the ANA Logistics Command Central
       Workshop are capable of repairing D-30s.
      CSTC-A is currently developing a $12.5 million contract to repair and refurbish the
       D-30s in-country, which is expected to be awarded in September 2009, with work to
       begin this calendar year. The contract will refurbish up to 200 D-30s that are serviceable
       enough to qualify.

Recommendations, Client Comments, and Our Response
 18.a. Commander, Combined Security Transition Command–Afghanistan, in coordination with
 Commander, U.S. Forces–Afghanistan/International Security Assistance Force and the Minister
 of Defense, develop a plan to procure the additional D30 122-millimeter howitzers that are
 authorized on the Tashkil.

Client Comments
Commander, CSTC-A concurred with this recommendation. FMS Case E5-B-UDC and
MOR# 09-E1A-311 were submitted for procurement of 44 D30 artillery systems. The Request
for Proposal was provided to potential vendors on August 17, 2009. As part of this contract,
Afghan personnel in the ANA central workshop will be trained to maintain the D30s.

Our Response
Commander, CSTC-A comments were responsive. We request a copy of the contract, once let,
for the procurement of the D30s.

18.b. Commander, Combined Security Transition Command–Afghanistan, in coordination with
Commander, U.S. Forces–Afghanistan/International Security Assistance Force and the Minister
of Defense, develop a plan to repair the unserviceable D30 122-millimeter howitzers and to
secure a reliable supply of repair parts.

Client Comments
Commander, CSTC-A concurred with this recommendation. FMS Case E5-B-UAW and MOR#
09-S1A-307 were submitted to procure a contract to service, repair, refurbish, and convert D30
artillery to NATO standards. This contract will be awarded in late September/early October
2009.

Our Response
Commander, CSTC-A comments were partially responsive. We ask that CSTC-A clarify
whether these FMS cases and contracts include provisions that ensure a steady supply of repair
parts.




                                               106
Part IV – Afghan Police Organizations
Introduction
This section contains a series of observations and recommendations concerning the Ministry of
Interior and the Afghan National Police (ANP, which includes the Afghan Uniformed Police
(AUP), Afghan Border Police (ABP), and Afghan National Civil Order Police (ANCOP).




                                             107
Observation 19. Size and Capability of the Afghan National
Police
During the stability phase of U.S. military counterinsurgency strategy, building a viable police
constabulary to provide sufficient security for the population, support the rule of law through
community policing, and develop the confidence in national government authority is critical to
success. However, the number and capability of the Afghan National Police (ANP) currently
authorized does not enable it to accomplish the broad scope of both the counterinsurgency and
community policing challenges.

The U.S. Government and GIRoA, along with the international community, have not yet agreed
on the size ANP force required to accomplish the mission in Afghanistan, and have not
committed to providing the funding that would be required to support any needed expansion.

However, as a result of insufficient numbers and therefore police capacity, especially among the
Afghan Uniformed Police (AUP), the ANP is unable to play a sufficiently effective role in
providing local security to defend the contested areas of the country and, at the same time,
deliver the community policing services to control an increase in crime and fortify the nascent
national system of justice.

Further, this limitation in ANP personnel and capability has impeded the GIRoA and
international partner forces’ ability to make sufficient progress in protecting the population and
stabilizing the country. Achieving these objectives are necessary pre-conditions for establishing
effective governance and rule of law, and sustained economic development, in order to gain and
maintain the loyalty of the populace, and defeat the insurgency. Moreover, until the ANP
becomes sufficiently effective, U.S. and other international partners will have to continue the
presence of their security forces in Afghanistan.

Applicable Criteria
DoD Directive 3000.05, “Military Support for Stability, Security, Transition,
and Reconstruction (SSTR) Operations,” November 28, 2005. This document
provides guidance on stability operations that will evolve over time as joint operating concepts,
mission sets, and lessons learned develop. It also establishes DoD policy and assigns
responsibilities within the DoD for planning, training, and preparing to conduct and support
stability operations. The Directive also states it is DoD policy that:

               Stability operations are a core U.S. military mission that the Department of
               Defense shall be prepared to conduct and support. They shall be given priority
               comparable to combat operations and be explicitly addressed and integrated
               across all DoD activities including doctrine, organizations, training, education,
               exercises, materiel, leadership, personnel, facilities, and planning.

               Stability operations are conducted to help establish order that advances U.S.
               interests and values. The immediate goal often is to provide the local populace
               with security, restore essential services, and meet humanitarian needs. The
               long-term goal is to help develop indigenous capacity for securing essential



                                                     109
                services, a viable market economy, rule of law, democratic institutions, and a
                robust civil society.

                Many stability operations tasks are best performed by indigenous, foreign, or
                U.S. civilian professionals. Nonetheless, U.S. military forces shall be prepared
                to perform all tasks necessary to establish or maintain order when civilians
                cannot do so. Successfully performing such tasks can help secure a lasting
                peace and facilitate the timely withdrawal of U.S. and foreign forces….

U.S. Army Field Manual (FM) 3-24 / Marine Corps Warfighting Publication
(MCWP) No. 3-33.5, “Counterinsurgency,” December, 15, 2006, establishes doctrine
(fundamental principles) for military operations in a counterinsurgency (COIN) environment.

Afghan National Police in the Forefront of Counterinsurgency
Struggle
Unlike the ANA, which conducts operations throughout Afghanistan in tactical groups, the ANP
and, especially the Afghan Uniformed Police (AUP), live and work in the communities in which
they serve. By operating within the communities, the police have an ongoing and direct impact
on the security reality experienced by the local population, and their respect for the law and
order-based environment the government needs to establish. When the police are capable of
providing both COIN-related security protection and traditional community policing services,
                                                    they can also develop closer relationships
                                                    with the populace and gather the necessary
                                                    intelligence about criminal and insurgent
                                                    activities upon which even more effective
                                                    policing operations must be based.
                                                    Ultimately, the success of the ANP at the
                                                    local level depends on being able to play its
                                                    role in both countering the insurgents and
                                                    supporting the rule of law, since together they
                                                    are key to developing the commitment of the
                                                    Afghan people in support of the national
                                                    government.
        Figure 18. ANP officers participate in
         marksmanship training in Pashmul.
        (Source: Canadian National Defence)
                                                    However, precisely because the Afghan
                                                    policemen operate in relatively small numbers
among the populace, they make easier targets for insurgent and criminal elements. To
demonstrate the contrast, between January 2007 and October 2008, international forces suffered
464 personnel killed in action, the ANA lost 505 personnel, and the ANP lost 1,215. Trends
indicate that the ANP continue to suffer casualties at three to four times the rate of the ANA.

That the police suffer a significantly higher proportion of casualties accounts for the direction the
coalition has taken in its priority focus in ANP training on developing tactical operational
capability, sometimes at the expense of training in community policing activities. The focus of
training for the ANP has been the source of an ongoing debate among international partners and
organizations for several years. The tack taken by CSTC-A has been to train the police so that


                                                     110
they are “fit for purpose” – trained sufficiently in both counterinsurgency skills (to be able to
defend themselves), and in community policing (to be able to conduct essential civil policing
activities).

Police Force Generation
Historical
Establishing a consensus regarding the appropriate size of ANP needed to provide effective
policing in the counterinsurgency environment of Afghanistan has been elusive. From 2002
through 2007, the size of the ANP was arbitrarily set by the international community at 62,000 –
a reasonable number of police that they believed the government could sustain. Due to the
resilience of the insurgency, however, in late 2006 the MoI requested an incremental increase in
ANP personnel strength to 82,000, which was subsequently approved. In June 2009, the
authorized ANP strength was further increased to 96,800. According to the Joint Coordination
and Monitoring Board (JCMB) 7, in 2007, a multi-national threat assessment conducted by the
German Police Program Office, in coordination with CSTC-A, the Norwegian Police Project,
and the United Nations Assistance mission to Afghanistan (UNAMA), concluded that a force
size force of 94,000 to 99,000 ANP would be needed to protect the civilian population in all
parts of the country. The current Minister of Interior has stated that he believes the size of the
current police force is insufficient and should at least be increased to approximately 160,000
personnel.

Solar Year 1388 Tashkil
The Solar Year 1388 ANP Tashkil that became effective in March 2009 again authorized a total
ANP force of 82,000. Of the 82,000 authorized positions, 47,384 were AUP. 8 In June 2009, the
International Police Coordination Board (IPCB) approved the Minister of Interior’s request for
an ANP increase of 15,000, which raised the authorized ANP ceiling to 96,800. This increase
was intended to boost the numbers of police in advance of the August 2009 presidential election.
According to the Minister, the 15,000 policemen would be deployed to the most vulnerable
provinces before the elections. In addition, additional police were needed to strengthen police
capacity in Kabul, the target of increasing insurgent attacks..

Counterinsurgency Planning Ratios
Successful strategies for population security and control in past counter-insurgency operations
have required force ratios either as large as or larger than 20 security personnel (troops and
police combined) per thousand inhabitants. U.S. Army Field Manual 3-24 – the
Counterinsurgency Manual – recommends a total security force ratio that falls within a range of
20 to 25 security personnel for every 1,000 residents in the area of operation. Based on
Afghanistan’s 2009 population of approximately 33.5 million, providing a ratio of 20 security
7
  The JCMB was established by the Afghan Government and the international community to coordinate
implementation of the Afghanistan Compact after the endorsement of the Afghanistan Compact and the Interim-
Afghanistan National Development Strategy at the 2006 London Conference. The JCMB consists of 28 members – 7
representatives of the Government of Afghanistan and 21 representatives of the international community.
8
  According to figures provided by CSTC-A, the distribution of ANP personnel resources in the1388 Tashkil was:
AUP (47,384), Traffic (2,646), Fire (882), ABP (17,621), ANCOP (5,365), Medical (393), Customs (600), Special
Police (1,108), Training (1960), Counternarcotics Police (2,519), MoI HQ (2,615), Public Protection (524), Anti-
Crime HQ (303), Major Crimes TF (100).


                                                     111
personnel per thousand inhabitants would yield an Army/Police force of over 650,000. This ratio
approaches what Iraq, a smaller, less populated country, is developing for its security structure.
Of course, Iraq has an internal economy strong enough to bear the cost of a force this size.

U.S. COIN planning emphasizes the importance of the role of the police as the direct
government interface with the population. Typically, the 20:1,000 ratio of security force
personnel to population is roughly 10 times the ratio required for simple policing in a tranquil
population. In a historical analysis of troop ratios in contingency operations, however, the
Combat Studies Institute at Fort Leavenworth Kansas has posited that 13.26 soldiers per 1,000
inhabitants should be the basic planning factor for determining troop density in executing a
contingency operation. Of these, at least 4.1 soldiers (or police) per 1,000 inhabitants should be
devoted specifically to police duties.

The fielding ratio of police to population in Afghanistan with the current Tashkil is
approximately 2.4 police per thousand, compared to a ratio of between 4.3-5.1 per thousand in
Europe, 4.9 per thousand in New York City, and 4.1 per thousand in Los Angeles, none of which
are in an environment at war. With the recent police increase of 15,000, raising the ceiling to
96,800 police, the ratio of police to population for Afghanistan approaches 2.88 per 1,000. An
increase in ANP to 135,300 would be required to achieve the ratio of 4.1 police per 1,000
population – a figure that approaches the ratio for tranquil policing in western countries. But, this
would still be far short of the ratio achieved in Iraq, and it would not represent the number of
police to population that would be required, historically, to be effective in a counterinsurgency.

Remarks by senior Afghan officials, ANP commanders, and coalition police mentors support the
strongly held perception that there were too few policemen on the ground to provide adequate
local security for the population. Minister of Interior Atmar reported that in many contested
locations it was impossible for the police to “hold” areas that had been “cleared” by the ANA
because the ANP in these districts did not have a sufficient number of well-trained and equipped
policemen. Two Kabul District Police Chiefs with whom our team spoke both complained that
the paucity of policemen within their districts prevented them from manning all their required
checkpoints and from establishing neighborhood walking patrols. One of these Chiefs stated that
he was authorized 136 policemen, and he had 136 on hand. Nevertheless, he said that this
number was insufficient and equated to less than 1 policeman per 1,000 citizens in the district.

Similar concerns regarding insufficient numbers of police have been frequently reported in
monthly Capability Endorsements submitted by the Police Mentoring Teams for those districts
that had completed the FDD process. The Deputy Commander of one of the U.S. Afghan
Regional Security Integration Commands opined that “If we don’t build ANP to a large and
competent entity, we will never get out of here.”

Afghan Public Protection Force
To help meet the requirement for increased security at the local district level, especially in the
most threatened areas of the country, the Afghan MoI, with support from the U.S. and the
ISAF/Coalition, has initiated the development of an Afghan Public Protection Force (APPF).
This Afghan-led initiative relies on increased community responsibility for security. Local
candidates for the force are selected by the local tribal council, or “shura,” vetted by the MoI and


                                                112
the National Directorate of Security (NDS), and trained by ANP Regional Training Center
instructors (with U.S. Special Forces assistance) for three weeks before assignment to their home
district to supplement the ANP. They are
commanded by the local District
Commander of the AUP. Although in
initial stages of development, with the
first phase targeted on Wardak Province
near Kabul, this program has the
potential, U.S. commanders believe, to
significantly reinforce the formal
Afghan security force structure at the
local level. It should be noted, however,
that the APPF will serve in a public
protection security role rather than in a
law enforcement capacity. They do not
have arrest powers.
                                                              Figure 19. APPF graduation ceremony.
                                                                     (Source: NATO – ISAF)
The APPF is modeled on a traditional Pashtun tribal force structure called the Arbakai, which
traditionally enforced the settlement of tribal disputes. As of March 2009, over 243 recruits from
Saydabad district in Wardak province had completed training, while 200 recruits from the
neighboring district of Jalrez had begun training. The program was set to be reviewed by CSTC-
A before the end of summer of 2009. If found to be effective, the APPF model would likely be
expanded in an attempt to quickly bolster security for the population until sufficient ANP and
ANA forces can be fielded and deployed.

Fiscal Realities
The GIRoA is currently unable to pay its police forces, which are funded by the international
community through the UN’s Law and Order Trust Fund Afghanistan. In its 2007 assessment
regarding a possible increase in ANP personnel, the JCMB Task Force noted that:

                   The primary mitigating factor on any proposal to increase the size of the ANP is
                   the effect of this increase on the financial situation of both the Government of
                   Afghanistan (GOA) and the Law and Order Trust Fund Afghanistan (LOTFA).
                   The GOA does not have sufficient funds to pay the salaries of even a 62,000
                   police force, yet it is under pressure due to its international commitment under
                   the International Monetary Fund’s Poverty Reduction and Growth Facility
                   program to gradually take on this fiscal responsibility. Moreover, LOTFA
                   constantly struggles to find enough funds even for 62,000 police, and it has
                   historically not been able to keep a reserve for emergency payments. 9

The March 2009 UN annual report on the LOTFA reflects a similar assessment of Afghanistan’s
inability to fiscally sustain its security sector today, stating that: “Given the security situation and
low rate of government revenue collection…donor contributions may be needed within a
medium-longer time framework than anticipated at [the] time of setting up of LOTFA.”


9
    JCMB Task Force on Afghan National Police Target Strength, March 2007.


                                                        113
Despite the challenge of funding the ANP, there is, nevertheless, a clear savings both financially
and in terms of saved human lives to the international community and its security forces in
developing a sufficiently effective Afghan police force capability, rather than having
international security forces have to play this role. CSTC-A estimates the cost (in 2010 dollars)
to generate ANA forces to be $1B/10,000 personnel, and the cost to generate ANP forces to be
$.35B/10,000 personnel. They also estimated that the annual sustainment costs for the ANA
would be $210M/10,000 personnel; and the ANP would be $182M/10,000 personnel. By
contrast, the Congressional Research Service in 2005 estimated that the annual cost to field and
sustain U.S. forces in Afghanistan was $267,000 per soldier, which amounts to $2.67B/10,000
soldiers. In addition to the incalculable value of lives saved, it is therefore more economical and
cost-effective to the U.S and the ISAF/Coalition forces to transfer the security responsibility,
including for the police, to the GIRoA as quickly as is feasible by building their forces to a
sufficiently effective size and capability.

Conclusion
The Minister of Interior has indicated that the size of the ANP should be increased to meet the
current security requirements of Afghanistan. He has recommended building an ANP force size
of approximately 160,000. However, since the GIRoA is unable to finance its current ANP force,
the international community will have to shoulder any additional fiscal burden incurred with an
ANP expansion. Nevertheless, the ANP, even more than the ANA, is on the front lines of the
COIN battle in Afghanistan, taking the highest number of casualties, and the ANP is the most
visible and accessible face of the government to the population. An effective police force of
sufficient size will be key to winning the COIN fight, and developing a stable, economically and
politically sustainable Afghanistan. Having this ANP capability will enable U.S. and other
international forces to be able to leave behind a stable Afghanistan sooner rather than later.

Recommendations, Client Comments, and Our Response
19.a. Commander, Combined Security Transition Command–Afghanistan, in coordination with
the Afghan Ministry of Interior, propose to Commander, United States Forces-
Afghanistan/Commander, International Security Assistance Force and the U.S. Mission to
Afghanistan, an increase in the authorized size of the Afghan National Police consistent with an
updated analysis of the security needs of Afghanistan.

Client Comments
Commander, CSTC-A concurred with this recommendation and reported that CSTC-A had
developed and submitted a plan supporting the COMISAF Strategic Assessment in terms of
acceleration, growth, and reform of the ANSF.

Our Response
Commander, CSTC-A comments were responsive. We request that CSTC-A provide us a copy
of the plan they developed that supports the acceleration, growth, and reform of the ANSF.




                                                114
19.b. Commander, United States Forces–Afghanistan / Commander, International Security
Assistance Force, coordinate with the Commander, U.S. Central Command, the U.S. Mission to
Afghanistan, and the appropriate international agencies to initiate those actions necessary to
increase the authorized size and fund the expansion of the Afghan National Police.

Client Comments
The Commander, USFOR-A, dual-hatted as COMISAF, concurred with the recommendation,
but with no comment.

Our Response
Commander, USFOR-A comments were non-responsive. While the Commander, USFOR-A
concurred, he did not specify any actions he planned to take to implement the recommendation.
We request that Commander, USFOR-A, in his dual-hatted role as COMISAF, respond by
describing what efforts will be taken to coordinate with the appropriate international agencies to
initiate the actions necessary to increase the size and fund the expansion of the ANP.




                                               115
Observation 20. Afghan National Police and Rule of Law
The professional connection and cooperation between the ANP and the criminal justice/Rule of
Law (ROL) system at the district level in Afghanistan was tenuous at best. This presented a
serious impediment to establishing a local environment characterized by effective civil policing,
in support of the ROL, and to achieving the establishment of security and order necessary for the
protection of the population in support of COIN objectives.

The institutional and local level coordination between the police and the justice sector has not yet
been bridged effectively by the Government of the Islamic Republic of Afghanistan supported by
USG and international ROL/ANP training/mentoring efforts. Another factor contributing to the
slow development of effective community policing was that the district AUP who had completed
the FDD program had not received sufficient training in the skills necessary to investigate and
present judicially sustainable criminal cases.

Moreover, without an effective link between the local police and Ministry of Justice personnel
responsible for implementing the system of justice at the district level, AUP efforts to implement
FDD program objectives of providing enhanced security for the population, including through
the ability to conduct community policing of criminal activities, have been undermined when
they return to their districts after their training. As a consequence, FDD-trained AUP were
unable to build and sustain public confidence in the police and government, or respect for the
ROL.

Applicable Criteria
Campaign Plan for the Development of Afghan National Security Forces,
Combined Security Transition Command–Afghanistan, 20 September 2008.
This document provides an overarching strategy for the development of the Afghan Security
Forces, to include the MoD and MoI. The plan aims to synchronize security sector development
efforts across the MoD, MoI, CSTC-A, and the wider international community. The plan lays out
the guidance and the processes for ministerial development, and for the generation and
development of the Afghan security forces.

Afghanistan National Development Strategy, 1387 – 1391 (2008 – 2013), “A
Strategy for Security, Governance, Economic Growth, and Poverty
Reduction,” Islamic Republic of Afghanistan. The section on the National Justice
Sector provides three goals for the government to achieve: (1) Improved institutional capacity to
deliver sustainable justice services, (2) Improved coordination and integration within the justice
system and with other state institutions, and (3) Improved quality of justice. This document
identifies the Ministry of Interior (police) as an institution with justice-related mandates and
functions, and states, “[b]y including the MoI (police) and the National Directorate for
Security…this strategy covers parts of the security, coercive, and law enforcement aspects of the
rule of law.”

The Afghan Constitution. Chapter 7, Article 19 states, “[d]iscovery of crimes is the duty
of the police and investigation and prosecution are conducted by the Attorney’s Office in


                                                117
accordance with the provisions of the law. The Attorney’s Office is part of the Executive branch,
and is independent in its performances.”

The Afghanistan Compact, 2006. The Afghanistan Compact of 2006 identifies three
critical and interdependent areas or pillars of activity for the next five years from its adoption: (1)
Security, (2) Governance, Rule of Law and Human Rights, and (3) Economic and Social
Development. The Compact specifies four Rule of Law Benchmarks, including #3:
               A review and reform of oversight procedures relating to corruption, lack of due
               process, and miscarriage of justice will be initiated by the end of 2006 (1387)
               and fully implemented by end of 2010 (1391); by end 2010 (1391), reforms will
               strengthen the professionalism, credibility and integrity of key institutions of the
               justice system (the Ministry of Justice, the Judiciary, the Attorney-General’s
               Office, the Ministry of Interior and the National Directorate of Security.

Army Field Manual 3-24/Marine Corps Warfighting Publication 3-33.5,
“Counterinsurgency.” This document on counterinsurgency operations and planning
emphasizes the importance of ROL in COIN operations

Focused District Development and Rule of Law
The goal of the FDD training and reform program has been to produce a professional AUP
capable of winning the respect and confidence of the Afghan people by setting stable conditions
for maintaining law and order and, in coordination with the ANA, to achieve victory in the
ongoing COIN fight. A critical parallel objective of the FDD process was to mount a
comprehensive effort to establish a system supporting a functioning system of justice and Rule of
Law (ROL) at the district level. CSTC-A OPORD 07-455, which established CSTC-A’s support
for the FDD initiative, lists the objectives of FDD as:
       Develop MoI capabilities
       Enhance AUP capabilities
       Transform AUP loyalties
       Build the ROL
       Build a prosecutorial justice system
       Strengthen AUP linkages to higher headquarters
       Enable the government of Afghanistan and the MoI to
        project success
                                                                           Figure 20. Afghan Uniformed
                                                                                  Police officers.
                                                                                (Source: CSTC-A)
Within the ANP, the uniformed district police were clearly identified as the centerpiece for
establishing the legitimacy of the government with the population. The district police are the
most visible face of the government to most people at the local level, and are responsible for
providing the first line of security for the people and to protect Afghan national values. The
objective of reforming the ANP in the FDD program, therefore, has been to train and equip the
district uniformed police to be professionally capable, thereby having the greatest possible
impact on building confidence and trust among the Afghan people in their government. Such
local loyalty to the national government is critical in defeat of the insurgency.


                                                      118
FDD reform was planned to have a comprehensive and deliberate approach to reforming the
basic building block of the ANP – the district police services – while simultaneously establishing
stronger institutional linkages between the police and the judicial system in support of ROL in
the districts.

From a broader COIN perspective, for the FDD program to succeed, the various U.S. agencies
and international entities also would have to coordinate, integrate, and synchronize their
respective efforts to improve governance and the ROL, and promote economic development and
reconstruction. Concurrent with the FDD process, the AUP receive more advanced training,
upgraded equipment, improved facilities, better command and control linkages, streamlined
procedures, and reorganized leadership. Justice sector reform was supposed to have
simultaneously advanced at the district level to enable the AUP to fulfill their community
policing role upon returning.

Upon completion of FDD, therefore, the intent was to have functioning and mutually reinforcing
investigative, prosecutorial, detention, judicial, and penal systems within the district. The police
would require a working knowledge of the law and civil policing procedures, and the populace
would be made aware of how the legal system worked and how to access elements of that
system. Governors and community leaders would be knowledgeable and supportive of justice
system development, and there would be tangible improvements in the personnel, process, and
facilities necessary to support the operation of the justice system. However, progress in these
areas has been limited, including with respect to forging stronger ties between the AUP and
judicial personnel and processes in the districts.

Disconnect Between the Afghan National Police and the Rule of Law
Unfortunately, the plan to coordinate and synchronize police reform with justice and ROL
reform has met with limited success. In many districts, there are no judges or prosecutors.
Capability Evaluations completed by CSTC-A’s PMTs for those districts that have undergone
the FDD process all too frequently report unsatisfactory coordination between the police and
prosecutors – if prosecutors are even present at the district level. Because the Afghan Interim
Criminal Procedure Code (ICPC) requires that a criminal suspect must be formally charged
within 72 hours of arrest or be released, the lack of effective police coordination with prosecutors
or failure of prosecutors to perform their responsibilities at the district level results in the police
not accomplishing their civil policing function, and also prevents development of a credible
criminal justice system. For example, Regional Command-West PMTs reported in their monthly
Capability Evaluation that in one district there was no prosecutor or judge available locally and,
therefore, the police were unable (or unwilling) to arrest any suspect because a prosecutor’s
guidance was required. Another report on a district in Regional Command-Central simply stated
that its district AUP had no coordination with the prosecutors, and therefore conducted no
investigations and no arrests. As a consequence, the AUP does not develop the effectiveness
intended or the credibility with the population.

The difficulty in developing effective ROL practices at the local level has been further hampered
by a shortage of police with adequate training in criminal investigations. The police are
responsible for detecting crimes, collecting evidence, and seeking suspects in the pursuit of


                                                 119
justice. The ICPC requires the police to report crimes to the prosecutor’s office within 24 hours.
The prosecutor then has 48 hours to interrogate suspects. Many of the PMT Capability
Endorsements analyzed indicated that there were no police in those districts capable of
conducting criminal investigations and that the requirement for initial investigation often had to
be referred to the Provincial Police Headquarters for action.

Not having a sufficient number of police qualified to conduct criminal investigations, coupled
with prosecutors’ offices that do not have the capacity or will to conduct a thorough
investigation, has resulted in judges receiving case files upon which they were unable to reach
decisions. In this scenario, criminals all too often have had to be set free. And, there has been
therefore little inclination for the police to make arrests, even in clear-cut cases, because the
justice system cannot be relied upon to play its role. Until the judicial system at the district level
and the civilian police force are working in tandem, the police, no matter how well trained and
equipped, will have little ability to uphold and promote the ROL. This negatively impacts the
public’s perception of police capability and intentions, and undermines police morale.

Representatives of the ROL Office at Embassy Kabul reported that, “prior to 2005, the police
were not treated as part of the justice system in Afghanistan” and that “the police have been
primarily trained as a military force, not a police force.” They explained that the relationship
between the prosecutors and police has historically been difficult, at best, and the police were
viewed by officials in the Ministry of Justice as “thugs and non-professionals.” The emphasis on
training the police in COIN tactics, given the importance of their security role, to the possible
exclusion of learning traditional policing skills, has reinforced this lack of confidence in the
AUP’s civil policing capabilities.

Numerous external reports have highlighted the continuing weaknesses of the Afghan justice
system. The three main permanent institutions – the Ministry of Justice, the Supreme Court, and
the Attorney General’s Office (Saranwali) – are co-equal in stature, but have fractious relations
with each other. While the police perform a central role in criminal justice by making arrests and
conducting preliminary crime scene investigations, the MoI has not played an active role in the
justice rebuilding process. Nevertheless, there are indications that the lack of coordination at the
ministerial level may be changing. Embassy Kabul ROL advisors reported that members of the
MoI and the Attorney General’s Commission had been meeting monthly to develop standard
operating procedures (SOPs) to increase the efficiency of case hand-offs. However, of the 12
planned SOPs only two had been developed, and neither of those had been approved by the
Minister of Interior at the time of this assessment mission.

Focused District Development Training for Police
The eight weeks of instruction that the district police received while undergoing FDD training
was deficient in civil policing and ROL instruction. A review of the basic eight-week ANP
Program of Instruction revealed that of the total 263 hours allotted, only 28 hours were
collectively devoted to topics such as ethics, the Constitution, penal code, criminal procedures,
and human rights. The preponderance of instruction was directed at safety/survival instruction,
terrorist tactics, counterterrorism, defense, and weapons qualification. Training in criminal
investigations during basic police training received little attention.



                                                 120
The Regional Training Centers (RTCs), where the FDD training for the police is being
accomplished, were also used to train Ministry of Justice personnel (prosecutors, defense
attorneys, and judges) through the State Department’s Justice Sector Support Program. Despite
using common facilities, there had been no overlapping training between Justice Ministry
students and ANP students. While at the RTC, in effect the two groups did not formally interact
through receiving any joint
training on how to professionally
cooperate to assist one another in
their respective functions to
achieve common goals. This
compartmentalized operational
and training philosophy has
repeatedly been identified as a
potential problem by PMTs,
PRTs, and Justice Training
Teams.

U.S. police training advisors
reported that the RTC eight-
week basic police training course
for rank and file policemen,                     Figure 21. RTC graduates in Kandahar.
many of whom were illiterate,                            (Source: NATO – ISAF)
was not designed to create a
highly skilled, professional police force capable of preventing and investigating crimes. FDD
training, on the other hand, was focused on developing a police force that was “fit for purpose” –
providing them with the basic skills to perform either civil policing functions or to support
military-styled operations. PMTs were expected to provide follow-on training to further develop
specific additional policing capabilities. Advanced policing courses such as Criminal
Investigations would be provided periodically at the Central Training Center in Kabul. In
addition, EUPOL has offered advanced training within some of the provinces on criminal
investigations.

Conclusion
The AUP success at the district level depends on its ability to counter criminality, as well as to
defend against and fight insurgents. Thus, the district police have to be able to both serve as light
infantrymen and conduct community policing activities, if they are going to meet the needs of
the government to establish local stability and also build the necessary support within the
populace to succeed in COIN operations.

Recommendations, Client Comments, and Our Response
20.a. Commander, U.S. Forces–Afghanistan, in coordination with Commander, Combined
Security Transition Command–Afghanistan, and Chief of U.S. Mission to Afghanistan, develop
and implement a coordinated action plan to strengthen the cooperation between the police and
criminal justice/Rule of Law at the district level, and ensure that PMTs and PRTs mentor this
outcome.


                                                121
Client Comments
The Commander, USFOR-A, dual-hatted as COMISAF, concurred with the recommendation,
but with no comment.

Our Response
Commander, USFOR-A comments were non-responsive. While the Commander, USFOR-A
concurred, he did not specify any actions he planned to take to implement the recommendation.
We request that Commander, USFOR-A, in his dual-hatted role as COMISAF, respond by
describing what efforts will be undertaken to develop and implement a coordinated action plan to
strengthen the cooperation between the police and criminal justice/Rule of Law at the district
level, and ensure that PMTs and PRTs mentor this outcome.

20.b. Commander, U.S. Forces–Afghanistan, in coordination with Commander, Combined
Security Transition Command–Afghanistan, ensure coordination between law enforcement and
criminal justice/Rule of Law is emphasized in all ANP training and mentoring.

Client Comments
The Commander, USFOR-A, dual-hatted as COMISAF, concurred with the recommendation,
but with no comment.

Our Response
Commander, USFOR-A comments were non-responsive. While the Commander, USFOR-A
concurred, he did not specify any actions he planned to take to implement the recommendation.
We request that Commander, USFOR-A, in his dual-hatted role as COMISAF, respond by
describing what efforts will be undertaken to ensure coordination between law enforcement and
criminal justice/Rule of Law is emphasized in all ANP training and mentoring.

20.c. Commander, Combined Security Transition Command–Afghanistan, in coordination with
the Ministry of Interior, prepare and implement a plan to enhance Afghan National Police’ civil
policing skills in investigating and presenting criminal cases.

Client Comments
Commander, CSTC-A concurred, relating that CSTC’s current emphasis in developing the police
is on those skill sets needed to successfully conduct counterinsurgency operations. He stated that
enhancing ANP civil policing and investigations skills, and the capacity to present criminal
cases, will be included as part of an overarching strategy to improve Rule of Law in Afghanistan
and will include efforts of other USG and international partners.

Our Response
Commander, CSTC-A comments were partially responsive. We understand the need for
emphasis on counterinsurgency training for the ANP, but we also consider that a major failing in
developing a workable Rule of Law system in Afghanistan has been the inability of the ANP to
engage effectively in civil policing actions, to include a more robust participation in criminal


                                               122
investigations. We request that Commander, CSTC-A provide the substance of plans, and their
timetable, to improve and enhance the ANP’s civil policing skills in investigating and presenting
criminal cases and to integrate ANP community policing activities more fully within the overall
Afghan criminal justice system.




                                              123
Observation 21. Focused District Development–Reformed
and Trained Afghan Uniformed Police
Given the current authorized size of the ANP, now at 96,800, and the current and projected rate
of producing personnel in this initiative, the Focused District Development (FDD) program will
not complete the task of training and reforming the Afghan Uniformed Police (AUP) for
Afghanistan’s 365 districts until late 2012. This length of this process could be further prolonged
if the AUP force level were to significantly expand, and if the FDD program were to assume
responsibility for the Provincial Police, in addition to the District Police.

Of the 365 districts, only 56 (through FDD Cycle 7) had so far entered or completed the FDD
process. The rate at which the FDD program can train District Police forces has been constrained
by: (1) lack of a sufficient number of PMTs to embed with the district AUP before, during, and
after the training; (2) limited capacity at existing ANP Regional Training Centers; and (3) an
insufficient number of Afghan National Civil Order Police (ANCOP) available to replace the
AUP in their districts while they undergo the FDD training program.

Creating a reformed, well-equipped, and trained police force, which is the goal of the FDD
program, is essential for providing a stable and secure environment for the Afghan people and
enhancing the credibility of the GIRoA in order to win the COIN fight, as well as address the
growing problem posed by organized crime. The FDD program would have to increase its
capacity in order to be able to accelerate the current rate of graduation or to be capable of
expanding the AUP beyond its current authorized strength.

Applicable Criteria
Combined Security Transition Command–Afghanistan Campaign Plan for
the Development of Afghan National Security Forces, September 20, 2008.
This document provides an overarching strategy for the development of the Afghan Security
Forces, to include the MoD and Mol. The plan aims to synchronize security sector development
efforts across the MoD, MoI, CSTC-A, and the wider international community. The plan
provides guidance for the development of the security ministries and the generation and
development of the Afghan security forces.
Combined Security Transition Command – Afghanistan Operations Order
08-006 Afghan National Security Forces (ANSF) Development Program, 14
January, 2009. This OPORD describes the ANSF structure and bridges the gap between
strategic aims of the CSTC-A Campaign Plan, other development strategies, ANP program
guidance and annual objectives. The plan also describes the FDD objectives and the courses
taught at the RTCs, outlines the Concept of the Operation and Execution of the FDD program;
explains how districts are selected, and projects the FDD Planned Operational Schedule.

Combined Security Transition Command – Afghanistan Fragmentary Order
08-038 to OPORD 08-006, April 08. This FRAGO provides guidance for necessary
adjustments to accelerate the ANCOP fielding program because additional personnel requested



                                               125
in CSTC-A RFF 620, dated 1 February 2007, to keep up with increased requirements of an
expanding ANSF force structure were not provided.

Afghan National Police Focused District Development Training
The FDD Program is a MoI/ANP, CSTC-A managed training and reconstitution program to
reform the AUP to improve their tactical ability to defend the population and themselves, while
improving their understanding of the basic elements of civil policing, ROL, and local
governance.
Districts are nominated for the FDD program by the U.S. Embassy, USAID, UNAMA, CSTC-A,
ISAF, the Regional Commands, USFOR-A, and the MoI. Nominations are sent through an
iterative and integrated process, with the Minister of Interior making the final selection of
participants in each FDD cycle. FDD districts to be reformed are selected approximately every
six months, planning ahead 12 months in order to remain synchronized with projected ISAF
operations and other organizational planning requirements.




                                                                            Reinsertion of Reconstituted
                                      Relief in Place by
                                      Covering Force                        District Police Force
                                                                            -- Relief in Place
                                      -- ANCOP
                                                                            -- Continued Collective Training
                                      -- C2 established


                                                  Reconstitution of the District
           District Assessment                    Police Force
                                                  -- Regional Training Center
           -- Recruiting                          -- Individual Training                     Close Overwatch by PMT
           -- Leader Identification               -- Initial Collective Training
           -- Logistics Preparation               -- Equipping                               -- Continued Collective Training
           -- ROL Coordination                    -- Facilities Built                        -- District Police Force Validation


           0               1                 2                      3                  4                  5                   6
                                                                  Months


                                                       Operational Overwatch by PMT
                                                            -- Periodic Reassessments
                                                              -- Sustainment Training
                                                       -- New Recruit Replacement Training
                                                                 -- Indefinite Period




           7                8                 9                    10                11                 12                  13
                                                                 Months



                                            Figure 22. Typical FDD Time Phases
                                                     (Source: CSTC-A)


The six phases in the FDD process (Figure 3) are as follows:
   1. District assessment–approximately six to eight weeks.


                                                                        126
     2. Relief in place by a covering security force (usually ANCOP) – occurs over a 10 to 14-
        day period.
     3. Reconstitution of the district police force – reorganizing, retraining, re-equipping,
        reviewing the renovation/construction of facilities – eight weeks plus movement time.
     4. Reinsertion of the trained and reformed police force back into their district – one week.
     5. Close overwatch by the PMT – focused overwatch and mentoring by the PMT with
        continued collective training in the district; concludes when the district police force is
        validated and rated at Capability Milestone-1 10 – 2-4 months.
     6. Operational overwatch by the PMT – continued overwatch and sustainment training
        using Qualified Police Mentor (QPM) resources embedded within the ANP Regional
        Command structure – indefinite.

One full cycle of FDD should span approximately 10 months. Once the embedded PMT rates the
district police at CM-1, they are validated by an independent, joint CSTC-A and ANP process in
accordance with the CSTC-A OPORD “Authorization, Organization, and Conduct of
Operations.” The district police are then moved into Phase 6 for an undetermined period of
continuous monitoring, reassessing, retraining, and sustainment training by QPMs working out
of the nearest Provincial Reconstruction Team (PRT) location.

Focused District Development Status to Date
There are currently 365 police districts. CSTC-A reported that by the end of February 2009, six
cycles of FDD had been completed with 52 districts having undergone the reform training. In
addition, 25 city precincts had completed reform training. Over 1,600 policemen had been
trained in the Kabul “Capital Jump Start,” a training program similar to FDD that is conducted at
the Kabul Central Training Center. At the time of this assessment in March 2009, FDD Cycle 7
had begun to train the AUP from an additional four districts and eight provinces. CSTC-A
planned for 15 to 20 districts to be accommodated in FDD cycles 7 through 12, and they
continued to project that given the current size of the AUP, 2012 would be the earliest that
training for all districts in Afghanistan can be completed. The need to complete the FDD training
throughout the country as soon as possible is compelling – in those districts that had completed
FDD, there had been a 60 percent decrease in police casualties.

Focused District Development Training Rate Constraints
Minister of Interior Atmar has identified acceleration of the FDD program as one of six
ministerial priorities in developing a “competent, professional, effective national police in the
service of the people.” 11 There are significant challenges that serve as impediments to
accelerating the FDD, however, including:

10
   Capability Milestone 1 is defined in CSTC-A OPORD 07-455 Annex A, Appendix 3, but is summarized as: 85
percent capable of basic law and order operations and leadership tasks appropriate to local circumstances without
external assistance (except specific operations such as counterinsurgency or narcotics interdiction). As the
insurgency threat decreases and Justice Sector Reform takes place, IC assistance may be required to increase the
professionalism of the police to a higher standard mandated by the GoA, in accordance with the aspirations of the
people of the IRoA.
11
   The Minister’s six priorities include: (1) accelerating FDD and other programs, (2) anti-corruption, (3) police
intelligence, (4) increased police authorizations, (5) securing key cities and highways, and (6) providing security for
the elections.


                                                         127
      shortage of PMTs
      limited training capacity at the RTCs
      shortage of trained ANCOP units

Police Mentoring Teams
CSTC-A indicated that the greatest impediment to providing FDD training has been the critical
shortage of PMTs. A PMT, designed to consist of 16 persons (but rarely meeting that manning
objective), is intended to be assigned to every district and each provincial and regional police
headquarters. PMTs are additionally required for the ANCOP and the Afghan Border Police
units. The overall PMT requirement calls for approximately 2,375 personnel. As of May 2009,
only about 39 percent of that requirement had been met.

Without a significant increase in the number of PMTs, it will not be possible to expand the FDD
program. Additionally, the long-term plan for post-FDD trained districts was to replace PMTs
with oversight from the PRTs and to partner with ISAF forces, when possible and appropriate.
With predictably less follow-on mentoring once in this phase, however, there is a risk that ANP
units that had completed the initial stages of FDD could revert back to pre-FDD performance
levels.

The recent decision to send an additional U.S. Brigade Combat Team (BCT) to Afghanistan to
train and mentor the Afghan National Security Forces will significantly mitigate the PMT
manning shortfall in Afghanistan, but it will not eliminate it. Current analysis indicates that even
with the additional trainers provided by the new BCT, there will still be a shortage of over 200
PMT personnel. Unless DoD takes the necessary steps to fill all the military mentor force
requirements for PMTs for the ANP, as well as ETTs for the ANA training and mentoring
mission, as requested by previous CSTC-A Requests for Forces, PMTs and ETTS will continue
to be unable to fully accomplish their intended mission.




   Figure 23. From left: U.S. PMTs discuss training with local police officers in Bagram; British Royal
                          Marines participate in ANP officer training in Sangin.
                    (Sources: National Guard Bureau; British Ministry of Defence)
With the April 2009 dual-hatting of Commander, CSTC-A as Commander, NATO Training
Mission-Afghanistan, it may be possible to engage ISAF forces to help overcome remaining
shortages in the ANP mentoring mission. In Regional Command-North, Swedish and Finnish
Military Observation Teams were reportedly providing uncoordinated but effective police district
training for the AUP in Jawzjan, Sari-Pul, Balkh, and Samangan Provinces. EUPOL has
provided four PMTs at the Provincial level. Germany, the UK, the Dutch, and Canadians have


                                                    128
supplied bilateral police mentoring support through their respective PRTs. Indeed, because of the
PMT support that these bilateral partners provided, CSTC-A was able to maximize the training
capacity for FDD Cycle 7.

The bulk of civilian police (CIVPOL) support for mentoring the ANP has been provided by
DynCorp through its contract with the State Department Bureau of International Narcotics and
Law Enforcement (INL). In March 2009, there were 498 DynCorp contractors serving as trainers
and mentors at various levels, a large number of whom were embedded in the PMTs with the
FDD district police. These CIVPOL advisors are critical in ensuring the ANP training has the
correct proportion of and emphasis on community policing instruction, in addition to small unit
tactical training. They have also been essential in detecting and correcting corrupt practices.

Training Center Capacity
The following is a list of the 18 ANP training facilities currently operating throughout
Afghanistan.

   Location                  Type Training             ANP Branch            Capacity
   Kabul CTC                 Kabul Jump Start          AUP                   500
   Jalalabad RTC             FDD                       AUP                   315
   Kandahar RTC              FDD                       AUP                   315
   Herat RTC                 FDD                       AUP                   315
   Konduz RTC                FDD                       AUP                   315
   Bamyan RTC                CID, Basic 8              AUP                   90
   Gardez RTC                FBD                       ABP                   400
   Lonestar                  FBD                       ABP                   500
   Sheberghan                FBD                       ABP                   300
   Spin Boldak               FBD                       ABP                   200
   Mazur-e-Sharif RTC        National Police           ABP and ANCOP         315
   Adraskan NPTC             National Police           ANCOP                 800
   Rushmore                  FDD Sustainment           AUP                   100
   Shaheen                   FDD Sustainment           AUP                   100
   Shouz                     FDD Sustainment           AUP                   300
   Ghazni                    FDD Sustainment           AUP                   100
   Costell                   FDD Sustainment           AUP                   150
   Camp Parsa                FDD Sustainment           AUP                   150
                                  Table 1. ANP Training Facilities

The Kabul CTC was dedicated to training the Kabul Uniformed Police in the Kabul Jump Start
Program. It was additionally used for specialized group and advanced individual training
courses. Of the remaining centers listed above, four – Jalalabad, Kandahar, Herat, and Konduz –
were devoted to FDD training. These FDD-only centers had a combined capacity of 1,260 AUP
trainees per cycle. RTC Gardez had been designated as a training site for the Focused Border
Development program. RTC Mazur-e-Sharif was used to train both the ABP and ANCOP, and
was projected to be available by September 2009 for FDD training. CSTC-A reported that they
were building a National Police Training Center (NPTC) in Wardak Province with a targeted


                                               129
completion date of March 2010. The initial annual capacity for the NPTC was projected to be
500, growing to 2,000 within two years. The addition of the NPTC will significantly improve the
police training capacity throughput.

The FDD Sustainment Sites trained new recruits and replacement police for those districts that
had already completed their group FDD training. The current capacity per cycle of the
sustainment sites is 900 with a goal of 1,200 by March 2009. This is considered adequate to
cover new recruits in FDD-certified districts. Sustainment sites provide the same training
curriculum as that received by districts undergoing FDD as a group.

There were competing requirements for the training facilities. Mazur-e-Sharif and Gardez had
been converted from exclusively AUP training sites to also include emergent needs for ANCOP
and Afghan Border Police training. By converting these facilities back to exclusively FDD
training by September 2009, annual FDD throughput could be increased by approximately 1,430
AUP. This increase in training capacity becomes particularly important in view of recent and
further potential increases in the authorized strength for the ANP.

Afghan National Civil Order Police (ANCOP)
CSTC-A projected that the ANCOP force of 5,375 would be fully fielded by January 2010. If the
FDD program were accelerated or expanded, however, there could very well be a shortfall in
ANCOP units to backfill the district police while they are in training. Early plans had
investigated the possibility of using Police Provincial Reserve Companies to “fill in the “gaps” in
ANCOP coverage of districts undergoing FDD training. But, most of the Provincial Reserve
Companies had not themselves been FDD-trained.

Efforts to train district police without replacing them with ANCOP units in the districts during
the absence of the AUP have not proven successful. For example, in some high-threat districts in
the south, the Marines conducted In-District Reform in which half of the district police were sent
to FDD training, while the other half remained on the job, supplemented by the Marines. While
                                                               the police received some
                                                               worthwhile training from the
                                                               effort, many of the other important
                                                               facets of FDD (such as
                                                               infrastructure development,
                                                               prosecutorial training, and police
                                                               organizational restructuring) could
                                                               not be accomplished as envisioned.
                                                               The initiative therefore met with
                                                               mixed results and, reportedly,
                                                               those districts that underwent the
                                                               In-District Reform generally have
                                                               not demonstrated much
                                                               improvement in capability.
      Figure 24. Afghan National Civil Order Police officers.
            (Source: German Federal Foreign Office)




                                                    130
FDD for Provincial Police
The initial concept for FDD identified the AUP at the district level as its focal point, without
seriously considering the ramifications of not providing similar reform and training at the
provincial level. To reform and train a district force only to send it back into a province where
the Provincial Police had not been similarly trained and reformed could be counterproductive
since they would have been trained and equipped to different standards.

In a recent FDD cycle, eight Provincial Police units received training, and CSTC-A indicated
that FDD Cycle 8 would include another four Provincial Police units.

Conclusion
The FDD program appears to have produced successful results thus far in reforming the police at
the district level. Program throughput, however, has been slow, and all districts will not complete
the process until 2012 at the current rate of training. It would be advantageous to accelerate the
FDD process; however, acceleration is constrained by RTC capacity, the number of CIVPOL
available to be embedded as PMTs with the police districts, and by the availability of ANCOP to
relieve the AUP while they undergo training at the RTC. The recent designation of a second U.S.
Brigade Combat Team for deployment to Afghanistan as a training brigade will double the
current number of military PMTs and should have a significant positive impact on the FDD
program capacity. The limitations imposed by the capacity restrictions of the RTCs remains an
impediment until the new NPTC is completed in 2010.

Recommendations, Client Comments, and Our Response
Revised/Deleted Recommendation. As a result of comments received to draft
Recommendation 21.c., we have deleted the draft recommendation and we renumbered draft
Recommendation 21.d. to Recommendation 21.c.

21.a. Commander, Combined Security Transition Command – Afghanistan, in coordination
with Commander, International Security Assistance Force/Commander, U.S. Forces-
Afghanistan, and Embassy Kabul (for International Narcotics and Law Enforcement
contractor support), request the resources necessary to build the capacity to increase the rate
at which Afghan National Police are trained by the Focused District Development program.

Client Comments
Commander, CSTC-A concurred. He related that CSTC-A had developed a plan supporting
COMISAF’s Strategic Assessment in terms of acceleration, growth, and reform of the ANSF. He
stated that arrival of the 4-82 BCT enables FDD to be initiated in twice the number of districts
than in the past; however, plans to reform the police will be formalized as part of COMISAF’s
overall strategy for reforming the police.

Our Response
Commander, CSTC-A comments were partially responsive. We acknowledge that arrival of the
4-82 BCT substantially increases the training capability with respect to the ANP; however, the


                                                131
response does not indicate what plans are in place to increase the capacity of training facilities,
nor does it state what is being done to increase the number of civilian police trainers and/or
mentors. We request that Commander, CSTC-A provide a more detailed response to this
recommendation that discusses the number, size, and capacity of police training centers (and any
plans thereto), and the numbers of civilian police instructors (current and future). Further, we ask
that the response describe the coordination that has taken place with Embassy Kabul and INL
and/or international agencies to provide civilian police instructors to provide civilian police
training and mentorship.

21.b. Commander, Combined Security Transition Command – Afghanistan, in coordination with
the Minister of Interior, plan for the Focused District Development training of provincial police
companies in provinces where district police will or have participated in the Focused District
Development program.

Client Comments
Commander, CSTC-A concurred, stating that CSTC-A had developed a plan supporting
COMISAF’s Strategic Assessment in terms of acceleration, growth, and reform of the ANSF.

Our Response
Commander, CSTC-A comments were partially responsive. We request that CSTC-A
specifically indicate what plans are in preparation or being implemented to train the provincial
police companies in those provinces where district police will or have participated in the FDD
program.

21.c. Chairman, Joint Chiefs of Staff, recommend approval and resourcing of the Combined
Security Transition Command–Afghanistan Request For Forces 937 and 938 that requested an
increase in the manning for Police Mentoring Teams to the level required to complete the police
mentoring mission.

Client Comments
Chairman, Joint Chiefs of Staff concurred, reporting that RFF 938 has been fully resourced. RFF
937 had been 97.5 percent sourced, with the remaining personnel requirements still being
examined.

Our Response
Chairman, Joint Chiefs of Staff comments were responsive, and no additional response is
required.




                                                132
Observation 22: Afghan Border Police Training Issues
The Afghan Border Police (ABP) did not receive a standardized Program of Instruction (POI) in
the Focused Border Development (FBD) training program.

In order to accomplish the FBD training in the timeframe required, two different contractors
were used to conduct the training – one, under contract to DoD/CSTC-A, and another, contracted
by the State Department. The contractors used two separate and distinct POIs to conduct the
training. Each contractor trained the ABP trainees at their respective training facilities for
different lengths of time. In addition, contract restrictions and other limitations on one of the
contractors prevented its trainers from training the Border Policemen on some of the authorized
ABP equipment.

As a result, the training provided to the ABP in the FBD program lacked unity of effort and was
not based on a uniform standard. In addition to being inconsistent, the POI was not completed by
the end of the training cycle, in some instances.

Applicable Criteria
Campaign Plan for the Development of Afghan National Security Forces, 20
September, 2008. This document provides an overarching strategy for the development of
the Afghan Security Forces, to include the MoD and Mol.
Afghan National Development Strategy, Islamic Republic of Afghanistan:
Afghanistan National Development Strategy: A Strategy for Security,
Governance, Economic Growth, and Poverty Reduction, 1387-1391 (2008–
2013). This document discusses goals and policy directions, the National Development
Strategy, cross-cutting issues, and the monitoring framework.

Afghan Border Police Mission and Structure
The ABP provides the MoI with an interdiction and law enforcement capability at international
borders, including 14 Border Crossing Points, and at four international airports. The ABP are
responsible for protecting Afghan borders from illegal entry by insurgents, arms and human
traffickers, and drug smugglers, as well as for controlling pedestrian and vehicular traffic. Their
mission is highly kinetic as they patrol some of the most dangerous areas of the country. Mission
implementation is complex and elusive since it entails monitoring over 3,500 miles, within a
Border Security Zone that stretches 34 miles into Afghanistan, with relatively limited ABP
personnel resources.

The most current 1388 Tashkil authorizes 17,621 ABP, organized into five Border Police zone
headquarters corresponding to the five ANA regions in Afghanistan. There are 33 Border Police
battalions (kandaks) consisting of 122 companies. As of March 2009, there were 12,660 ABP
assigned to the force. Securing the border of Afghanistan with Pakistan with an effective Border
Police force is an essential objective of the COIN effort and is a goal of the Afghan National
Development Strategy.



                                               133
Focused Border Development Program
In October 2008, recognizing a growing problem with corruption and the need for improved
training to increase effectiveness within the ABP, CSTC-A initiated the FBD program as a
means to reform and improve its performance. The FBD program was modeled after the Focused
District Development (FDD) program, with which it shares common objectives, in that selected
companies of ABP would be removed from their assigned duty stations and sent to one of four
training locations to complete group training. Like the FDD program, the ABP receive improved
equipment and uniforms in conjunction with their training. Initially, the program was slated to
train a total of 52 ABP companies (approximately 4,200 ABP) from Regional Command-East,
but that number was expanded to include additional ABP companies from RC-North and RC-
South. As of mid-March 2009, 24 ABP companies had received FBD training.

Unlike FDD, the FBD program did not have a standardized POI. Also unlike FDD, in which the
entire Afghan Uniform Police district force attended as a unit, in the case of the FBD, the
kandaks did not attend the FBD training at one time. A kandak commander selected 30-40 men
from various companies to attend FBD training. That has been the procedure since the border
could not be left without an ABP
presence, and unlike FDD, there were no
Afghan National Civil Order Police to
take the place of the ABP while they
attended training. The ABP also did not
have assigned PMTs, relying instead on
irregular mentoring by military teams
provided by the local Coalition battle
space owner. These military ABP
mentors did not accompany the ABP
during the FBD training, unlike the
PMTs who were embedded with the
AUP throughout their FDD training and
                                                Figure 25. Graduates of the Focused Border
afterwards.                                        Development Program in Spin Buldak.
                                                        (Source: NATO – ISAF)

In some zones, the security firm, Blackwater, under contract by DoD/CSTC-A, was the FBD
training contractor for the ABP. In other zones, DynCorp, under contract with the Department of
State’s International Narcotics and Law Enforcement Affairs (INL), was the FBD training
contactor for the ABP. Each contractor had its own POI, and even though both programs were
eight weeks in total duration, the training provided to the ABP through these two POIs was not
standardized and consistent.

Blackwater Training
To accomplish the expanded ABP training, CSTC-A initially added the requirement as a task
order to an existing counternarcotics training contract it already had with the firm Blackwater.
The CSTC-A Program Manager explained that the goal was to train 2,700 ABP during each FBD
cycle. However, because Blackwater did not have the capacity to manage that scale of training at
its facilities, CSTC-A expanded FBD training to include the INL/DynCorp-run Regional
Training Center in RC-East to achieve the overall ABP training goals.


                                              134
Although the training provided by both contractors was eight weeks in duration, the Blackwater
POI called for six weeks of instruction at its facility followed by two weeks of tactical field
training that Blackwater instructors would deliver at the ABP duty location. Blackwater trained
the ABP on all weapons and equipment authorized by the Tashkil and issued them at the
Blackwater training site. CSTC-A reported, however, that the ABP were not receiving the final
two weeks of training in all cases, due to command and control issues with the local battle space
commander. In at least one zone, the battle space commander reportedly did not allow the
Blackwater contractors to conduct the final two weeks of tactical field training outlined in its
POI that included night operations and collective unit training, which are critical tactical modules
for ABP operational development. The CSTC-A program manager explained that when this field
training had been presented, it had been very effective in increasing the ABP unit’s capability.

DynCorp Training
At the DynCorp RTC in RC-East, the POI called for ABP training to be conducted for eight
weeks on-site at the RTC. However, training on certain types of equipment, such as weapons and
operating all terrain vehicles was not included, even though that equipment was authorized by
the Tashkil and issued to ABP during FBD. As a result, the ABP trained by DynCorp at the RTC
in RC-East did not receive instruction on the use of some of their authorized equipment. CSTC-
A indicated that it was negotiating with INL to adjust the DynCorp contract to include that
training in the future POI. In the meantime, some CSTC-A military mentors had to be selectively
detailed to the RTC to provide training on certain types of equipment, such as crew-served
weapons. The DynCorp Regional Commander verified that changes to the POI were being
negotiated, but believed those changes would not be quickly made or easy to implement.

Summary
To prepare the ABP in the FBD training initiative to become an effective force in the COIN
fight, it was important that its training be consistent and thorough. Because two U.S. contractors
were applying two different POIs to train the ABP, standardized training was not provided.

It was not evident that the two POIs were properly vetted to ensure they were comparable in
terms of providing standardized ABP training, for example, with respect to training in the use of
authorized equipment. In addition, one contractor had contractual restrictions that prohibited its
ability to provide instruction on some of the weapons and equipment issued at the BP training
site.

Finally, the inability of one of the contractors to provide two critical weeks of FBD program
field training to some ABP personnel, due to lack of battle space owner cooperation, diminished
the operational readiness of those particular police and prevented the contractor from completing
its training obligations.




                                                135
Recommendations, Client Comments, and Our Response
22.a. Commander, Combined Security Transition Command–Afghanistan, coordinate with the
Department of State’s Bureau of International Narcotics and Law Enforcement Affairs (for the
DynCorp Regional Training Center Focused Border Development program) and with the
Department of Defense Contracting Officer Representative (for the Blackwater Focused Border
Development program) to ensure that the two Focused Border Development training programs of
instruction meet mission requirements and are standardized across Afghanistan.

Client Comments
CSTC-A concurred with this recommendation, noting that they had adopted and implemented a
single standardized FBD Plan of Instruction.

Our Response
Commander, CSTC-A comments were responsive, and no additional comments are required.

22.b. Commander, Combined Security Transition Command–Afghanistan, coordinate with the
Commander, Regional Command-East, to ensure that Blackwater contractors are allowed to
conduct the two weeks of tactical field training required for the ABP, as provided in the contract.

Client Comments
Commander, CSTC-a concurred with the recommendation, reporting that CSTC-A had
incorporated an investigation and criminal case presentation skill set in Phase I of the Border
Development POI, and had trained police professionals as part of its mentor teams.

Our Response
Commander, CSTC-A comments were not responsive to the intent of the recommendation. We
request that the Commander, CSTC-A explain whether Blackwater police trainers are now being
allowed into RC East to conduct the final phase of ABP instruction, per their contract, and
confirm that no further impediments exist to their conducting this instruction.




                                               136
Observation 23. Ministry of Interior Inspector General
The Inspector General (IG) Directorate 12 within the Afghan MoI is understaffed and under-
trained to adequately perform its inspector general oversight functions, including internal
auditing and anti-corruption missions.

This occurred because the MoI has not committed an adequate number of appropriately trained
personnel and resources to execute its mission. Additionally, CSTC-A mentoring has not ensured
that appropriate assistance was given to the timely development of doctrine, policy, and
planning, and that the necessary training of individual skills required to accomplish the
Ministry’s oversight and anti-corruption mission was provided.

As a result, the IG Directorate has not developed its capabilities as quickly as it could have and,
specifically, has not had as significant an impact on corruption within the MoI and the ANP.

Applicable Criteria
DOD Directive 3000.05. DODD 3000.05, “Military Support for Stability, Security,
Transition, and Reconstruction (SSTR) Operations,” November 28, 2005, provides guidance on
stability operations that will evolve over time as joint operating concepts, mission sets, and
lessons learned develop and establishes DOD policy and assigns responsibilities within the DOD
for planning, training, and preparing to conduct and support stability operations. The Directive
also states it is DOD policy that:

                 Stability operations are a core U.S. military mission that the Department of
                 Defense shall be prepared to conduct and support. They shall be given priority
                 comparable to combat operations and be explicitly addressed and integrated
                 across all DOD activities including doctrine, organizations, training, education,
                 exercises, materiel, leadership, personnel, facilities, and planning.

                 Stability operations are conducted to help establish order that advances U.S.
                 interests and values. The immediate goal often is to provide the local populace
                 with security, restore essential services, and meet humanitarian needs. The
                 long-term goal is to help develop indigenous capacity for securing essential
                 services, a viable market economy, rule of law, democratic institutions, and a
                 robust civil society.

                 Many stability operations tasks are best performed by indigenous, foreign, or
                 U.S. civilian professionals. Nonetheless, U.S. military forces shall be prepared
                 to perform all tasks necessary to establish or maintain order when civilians
                 cannot do so. Successfully performing such tasks can help secure a lasting
                 peace and facilitate the timely withdrawal of U.S. and foreign forces.




12
  The MoI Restructure Implementation and Development Plan for Internal Affairs dated October 25, 2008, states
that the Minister of Interior approved a change in title from” Internal Affairs Directorate” to “Inspector General
Directorate.” Under the proposed structure, Internal Affairs was projected to become a department within the
Inspector General Directorate. As the new organizational nomenclature had not become effective at the completion
of this assessment, we use both terms interchangeably.


                                                       137
IG Role in Anti-Corruption
In recent years, corruption within the ANP has been a systemic problem and a significant
concern of the GIRoA and international community. Corruption within the ANP, including at
senior levels and within the MoI, has affected everything from promotions to assignments, to the
resolution of criminal cases, and has prevented the development of a culture of accountability for
professional conduct.

Systemic corruption has also negatively impacted the public perception of the GIRoA, and
damaged its legitimacy. Moreover, by diminishing trust of government authority, police
corruption has opened the door to increased Taliban influence, especially in the rural areas in the
eastern and southern regions of the country where the reach of government authority is already
tenuous.

The 2006 DOD/DOS Interagency Assessment of Afghanistan Police Training recognized
shortcomings in the MoI’s internal affairs capability and pointed out that it needed an active
internal affairs or inspector general oversight capacity to detect, investigate, and report
allegations of mismanagement, abuse of authority, fraud, waste, and corruption. Recognizing the
importance of a fully operational internal affairs oversight function, the CSTC-A and the U.S.
Embassy’s Bureau of International Narcotics and Law Enforcement representatives committed
initial resources to what was supposed to become a robust internal affairs/inspector general
capability within the MoI.

Unfortunately, the original commitment to creating a fully capable MoI IG has not been realized
due to lack of sufficient personnel resources and training allocated to achieving the objective.
An effective and credible IG within the MoI that could have had a more significant deterrent
effect on corruption within the ministry and the ANP has not yet developed.

IG Personnel Quantity and Quality
From an initial authorization of 61 MoI internal affairs positions on the 2005 Tashkil, the 2009
Tashkil now authorizes 131 positions for all the IG components. Of these, 19 positions at the
MoI headquarters are in the anti-corruption unit; another 42 positions are designated as Internal
Affairs officers, with duty at one of the six regional police headquarters. Other positions within
the IG’s office are devoted toward administrative and document inspections and professional
standards. The audit function in the MoI IG has yet to be fully established, with inspections
personnel fulfilling dual roles in a nascent combined inspections and audit office.

Despite the increased manpower authorization for the IG, many of the positions have not been
filled. In addition, even with its full complement of authorized personnel, the IG only has 19
positions assigned exclusively to departmental anti-corruption efforts. Recent priority tasking by
the Minister to focus on anti-corruption has taxed the capacity of the department to accomplish
its mission, requiring the IG to double task other inspectors to engage in anti-corruption
investigations. Even by double tasking personnel, the IG reported he had only 53 staff available
to accomplish country-wide anti-corruption investigations for the entire 81,509-strong ANP.
There were no corresponding internal affairs positions within the ABP, the ANCOP, or the
Counternarcotics Police (CNP). The MoI IG’s anti-corruption investigators must cover those
sub-organizations, as well as the AUP.


                                                138
Minister of Interior Atmar recently cited system-wide anti-corruption and leadership reform
within the MoI and ANP as two of his top priorities. His staff is now focused on improving
administrative accountability, such as eliminating corruption related to electronic funds transfers,
and “ghost police,” who do not in fact exist but have been maintained on the payroll of some
police units. The Minister planned to assign one IG to each provincial police headquarters to
provide oversight and accountability for weapons. Moreover, he has undertaken specific
initiatives to establish property accountability among MoI and ANP leadership, including
requiring mandatory disclosure of assets for all police leaders, establishment of a major anti-
corruption task force within the IG, and creating a new merit-based appointment system.

Under the direction of the Minister, the MoI IG recently drafted a MoI Anti-Corruption Plan, and
also sent several teams of inspectors into the provinces to inventory weapons, verify personnel
payroll lists, and account for assigned vehicles. As a result of the Ministry’s new police leader
financial disclosure program and anti-corruption emphasis, the IG identified over 90 criminally
suspicious activities. Consequently, more than ten police general officers were relieved of
command on corruption charges, along with 400 policemen.

Increased IG Resources Needed
CSTC-A, in coordination with INL, has provided one full-time civilian mentor to the MoI IG’s
office. The CSTC-A IG, an Army O-5, additionally serves as a part-time mentor. Although
EUPOL provides some mentoring capability to the MoI Headquarters, neither it nor CSTC-A,
nor ISAF had yet provided sufficient mentoring, coaching, and training resources to the MoI
IG’s office, even though it was recently designated as the permanent body within the MoI to
investigate allegations of police corruption. To address the mentoring shortcoming, the Minister
asked the international community to provide 34 IG mentors, one for each province, to assist the
ANP in developing its internal affairs inspection capability.

In principle, to maximize effectiveness, IG personnel should be selectively detailed from among
the ranks of the most accomplished and professional personnel within the MoI. Each person
within the IG should be individually vetted and screened for professional expertise, ethics, and
integrity. In coordination with the MoI and the IG, CSTC-A should increase the MoI IG Tashkil
authorizations to include internal and financial audit capabilities. Along with providing
additional qualified mentoring staff, CSTC-A should consider providing more vigorous technical
training for the IG’s anti-corruption investigators, to better develop their capacity for corruption
detection, as well as providing specialized training to improve the audit and inspections
capability.

If adequately empowered, trained, and resourced, the MoI IG’s Office could serve as a positive
vehicle to detect, investigate, and report mismanagement, abuse, and corruption. An
independent, professional internal audit, investigations, and inspection organization could make
a significant positive impact in combating corruption within the ANP. In view of the vigorous
approach to anti-corruption and ethics development undertaken by the current Minister, the MoI
and ANP have an unprecedented opportunity to initiate a sustained attack on corruption’s
corrosive effect and improve their relationship and credibility with the population.



                                                139
Recommendations, Client Comments, and Our Response
23.a. Commander, Combined Security Transition Command–Afghanistan mentor the Minister
of Interior to initiate appropriate internal personnel selection policies and procedures that ensure
only the most experienced, professional, and ethically qualified personnel are vetted and
selected for positions within the MoI Inspector General’s Office.

Client Comments
Commander, CSTC-A concurred with the recommendation, stating that the MoI IG is in the
early stages of implementing a merit-based promotion system.

Our Response
Commander, CSTC-A comments were partially responsive. While a merit-based promotion
system is to be desired, and should be a part of an overall personnel management strategy going
forward, it does not satisfy the full intent of the recommendation. The MoI IG needs to recruit, as
well as retain, only those personnel who maintain an appropriately high standard of
professionalism, especially ethical. We request that Commander, CSTC-A explain what actions
are being or will be taken to mentor the Minister of Interior to ensure that personnel who are
recruited or retained within its Inspector General directorate meet a high ethical standard.

23.b. Commander, Combined Security Transition Command–Afghanistan mentor the Minister of
Interior to conduct a detailed review of authorized IG positions against requirements to ensure
that the Tashkil provides sufficient manpower to properly accomplish the anti-corruption and
internal audit missions for the ANP and MoI.

Client Comments
Commander, CSTC-A concurred with the recommendation, noting that his (CSTC-A) IG
continues to personally mentor the MoI IG with respect to this matter. He states that the MoI IG
has officially requested the Minister of Interior to increase the Tashkil by 300 inspectors for the
Office of the MoI IG. He reports that the request is under consideration.

Our Response
Commander, CSTC-A comments were responsive, and no additional comments are required. We
will assess the size, composition, qualifications, and makeup of the MoI IG office as part of a
follow-on evaluation.

23.c. Commander, Combined Security Transition Command–Afghanistan identify and provide a
sufficient number of additional U.S., International Security Assistance Force, or Coalition
mentors and trainers to enable the Ministry of Interior Inspector General to build its institutional
capacity in support of the Ministry’s audit and inspections functions and to accommodate its
enhanced anti-corruption role.




                                                140
Client Comments
Commander, CSTC-A concurred with this recommendation, stating that CSTC-A had recently
completed a top to bottom review of the MoI trainer requirements as part of the ISAF-led
“resources to task” analysis and the results of that analysis would be considered as part of
forthcoming requests for additional trainers.

Our Response
Commander, CSTC-A comments were responsive, and require no additional comments. We will
assess the number of U.S. and international mentors and trainers assigned to the MoI IG as part
of a follow-on evaluation.




                                              141
Appendix A. Scope, Methodology, and
Acronyms
We conducted this assessment from December 17, 2008, to August 10, 2009, in accordance with
the Quality Standards for Inspections. We planned and performed the assessment to obtain
sufficient and appropriate evidence to provide a reasonable basis for our observations,
conclusions, and recommendations, based on our objectives. Site visits to Afghanistan were
conducted from March 10, 2009 to March 31, 2009.

We reviewed documents such as Federal Laws and regulations, including the National Defense
Authorization Act, the Foreign Assistance Act, the Security Assistance manual, and appropriate
CENTCOM, ISAF, USFOR-A, and CSTC-A guidance.

The scope of our assessment in Afghanistan was to determine whether U.S. Government,
Coalition, and Afghan Ministry of Defense and Ministry of Interior goals, objectives, plans,
guidance, and resources to train, equip, and field the Afghan National Forces (ANSF) were
prepared, issued, operative, and relevant.

We visited or contacted organizations in the U.S., the U.S. Central Command area of
responsibility, and in Afghanistan that are responsible for planning and accomplishing the
training, equipping, and fielding mission for the ANSF. We also visited with leaders of the North
Atlantic Treaty Organization and with partner-nation representatives involved in this process.
We reviewed the processes involved in the train and equip mission and spoke with leaders and
managers at all levels, ranging from general officers, to staff officers, to embedded training team
and police mentor team members in the field. We met with Afghan leaders from the ministry
level down to the kandak and district police. We also met with Afghan Inspectors General at
various levels.

The ANSF Team chronology was:

January – February 2009               Research and fieldwork in CONUS

February 2009                         Fieldwork in Europe (NATO, Britain)

March 10, 2009 to March 30, 2009      Fieldwork in Afghanistan

March 31, 2009                        Outbrief to CSTC-A

April 13, 2009                        Outbrief to CENTCOM

April – May 2009                      Analysis and report writing

August 2009                           Draft assessment report issued

September 2009                        Management comments received and evaluated


                                               143
Limitations
We limited our review to DOD-funded programs, NATO-funded programs, and international
donation programs supporting the security forces of Afghanistan.

Use of Computer-Processed Data
We did not utilize any computer-processed data in this assessment.

Use of Technical Assistance
We did not use Technical Assistance to perform this assessment.

Acronyms Used in this Report
The following is a list of the acronyms used in this report.

AA&E                   Arms, Ammunition, and Explosives
ABP                    Afghan Border Police (also Border Police [BP])
AED                    Afghanistan Engineer District (U.S. Army Corps of Engineers)
ANA                    Afghan National Army
ANATC                  Afghan National Army Training Command
ANCOP                  Afghan National Civil Order Police
ANP                    Afghan National Police
ANDS                   Afghan National Development Strategy
ANSF                   Afghan National Security Forces
APPF                   Afghan Public Protection Force
APPP                   Afghan Public Protection Program
ARSIC                  Afghan Regional Security Integration Command
ASFF                   Afghanistan Security Forces Fund
AUP                    Afghan Uniformed Police
BCT                    Brigade Combat Team
BOG                    Boots on Ground
BP                     Border Police (also Afghan Border Police [ABP])
CAF                    Capabilities Assessment Form
CERP                   Commanders Emergency Response Program
CF                     Coalition Forces
CFC                    Consolidated Fielding Center
CJTF                   Combined Joint Task Force
CM                     Capability Milestone (a readiness level)
CMA                    Central Movement Agency
CNIK                   Counter-Narcotics Infantry Kandak
CO                     Contracting Officer
COIN                   Counterinsurgency
COMISAF                Commander, International Security Assistance Force
COR                    Contracting Officer’s Representative
CSTC-A                 Combined Security Transition Command—Afghanistan
CTAG                   Combined Training Advisory Group


                                                144
DATES      ISAF Directorate of ANA Training and Equipment Support
DCMA       Defense Contract Management Agency
DODD       DOD Directive
DODI       DOD Instruction
DTG        Date / Time / Group
EPS        Electronic Pay System
ETT        Embedded Training Team
EUPOL      European Union Police
FAR        Federal Acquisition Regulations
FBD        Focused Border Development
FDD        Focused District Development
FMS        Foreign Military Sales
FORSCOM    Forces Command (U.S. Army)
FY         Fiscal Year
FRAGO      Fragmentary Order
GIRoA      Government of the Islamic Republic of Afghanistan
HEB        Hazeb Emerging Business
HMMWV      High Mobility Multi-Purpose Wheeled Vehicle
IAG        Iraq Assistance Group
ICMAG      Integrated Civil-Military Action Group
IDLG       Independent Directorate of Local Governance
IG         Inspector General
ILO        In lieu of
IPCB       International Police Coordination Board
IMET       International Military Education and Training
INL        Bureau of International Narcotics and Law Enforcement Affairs
IPTF       International Police Task Force
ISAF       International Security Assistance Force- North Atlantic Treaty
           Organization
JCC-I/A    Joint Contracting Command–Iraq/Afghanistan
JCMB       Joint Coordination and Monitoring Board
JMD        Joint Manning Document
JRAC       Joint Regional ANP Center
JRTC       Joint Readiness Training Center
JTD        Joint Tables of Distribution
JMETLs     Joint Mission Essential Task Lists
KMTC       Kabul Military Training Center
LOA        Letter of Offer and Acceptance
LOTFA      Law and Order Trust Fund Afghanistan
METL       Mission Essential Task List
MM or mm   Millimeter
MoD        Ministry of Defense (Afghanistan)
MoI        Ministry of Interior (Afghanistan)
MOS        Military Occupational Specialty
MRAP       Mine Resistant, Ambush Protected
NDS        National Directorate of Security



                                  145
NPTC        National Police Training Center
NTM-A       NATO Training Mission-Afghanistan
NCO         Noncommissioned Officer
OCC-R/P     Operations Coordination Center (Region or Province)
OMLT        Operational Mentor and Liaison Team
OPORD       Operations Order
OSD (C)     Office of the Secretary of Defense (Comptroller)
PfP         Partnership for Peace (a NATO program)
PMT         Police Mentoring Team
POI         Program of Instruction
POMLT       Police Operational Mentor and Liaison Team
PRT         Provincial Reconstruction Team
PTRAT       Police Training Readiness Assessment Tool
QPM         Qualified Police Monitor
RBAC        Regional Border Assistance Command
RC          Regional Command
RCAC        Regional Corps Assistance Command
RFF         Request for Forces
RoL         Rule of Law
RPAC        Regional Police Assistance Command
RTC         Regional Training Center
SAO         Security Assistance Office
SWA         Southwest Asia
TF          Task Force
TRADOC      Training and Doctrine Command (U.S. Army)
TRAT        Training Readiness Assessment Tool
UNAMA       United Nations Assistance Mission in Afghanistan
USCENTCOM   U.S. Central Command
USD(AT&L)   Under Secretary of Defense for Acquisition, Technology, and
            Logistics
USD(P)      Under Secretary of Defense for Policy
USFOR-A     U.S. Forces–Afghanistan
USJFCOM     U.S. Joint Forces Command
VTC         Video Teleconference




                                   146
Appendix B. Summary of Prior Coverage
During the last three years, the Government Accountability Office (GAO) and the Department of
Defense Inspector General (DODIG) have issued a number of reports and testimony discussing
either (1) the accountability and control over munitions and other equipment provided to the
ANSF, (2) the development of ANSF logistical capability, or (3) the development of ANSF
medical capability.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
DODIG reports can be accessed over the Internet at http://www.dodig.mil/audit/reports or at
http://www.dodig.mil/inspections/ie/reports.
Some of the prior coverage we used in preparing this report have included:

Department of Defense Reports
Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1230, Public Law 110-181), “Report on Progress toward Security and Stability in Afghanistan,”
June 2008.

Report to Congress in accordance with the 2008 National Defense Authorization Act
(Section 1231, Public Law 110-181), “United States Plan for Sustaining the Afghanistan
National Security Forces,” June 2008.

Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1230, Public Law 110-181), “Progress Toward Security and Stability in Afghanistan,” January
2009.

Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1230, Public Law 110-181), “Progress Toward Security and Stability in Afghanistan,” June
2009.

Government Accountability Office
GAO-08-661, “Further Congressional Action May Be Needed to Ensure Completion of a
Detailed Plan to Develop and Sustain Capable Afghan National Security Forces,” June 2008.

GAO-08-883T, “U.S. Efforts to Develop Capable Afghan Police Forces Face Challenges and
Need a Coordinated, Detailed Plan to Help Ensure Accountability,” June 18, 2008.

GAO-09-263SP, “Securing, Stabilizing, and Developing Pakistan’s Border Area with
Afghanistan,” February 2009.

GAO-09-280, “Afghanistan Security: U.S. Programs to Further Reform Ministry of Interior and
National Police Challenged by Lack of Military Personnel and Afghan Cooperation,” March 9,
2009.




                                              147
Department of Defense Inspector General
DODIG Report No. IE-2007-001/DoS Report No. ISP-IQO-07-07, “Interagency Assessment of
Afghanistan Police Training and Readiness,” November 2006.

DODIG Report No. IE-2007-005/DoS Report No. ISP-I-07-34, “Interagency Assessment of the
Counternarcotics Program in Afghanistan,” July 2007.

DODIG Report No. SPO-2009-001, “Assessment of Arms, Ammunition, and Explosives Control
and Accountability; Security Assistance; and Sustainment for the Afghan National Security
Forces,” October 24, 2008.




                                          148
Appendix C. Glossary
This appendix provides definitions of terms used in this report.

Accountability - DOD Instruction 5000.64, “Accountability and Management of DOD-
Owned Equipment and Other Accountable Property,” November 2, 2006, states that
accountability is the obligation imposed by law, lawful order, or regulation, accepted by an
organization or person for keeping accurate records, to ensure control of property, documents, or
funds, with or without physical possession. The obligation, in this context, refers to the fiduciary
duties, responsibilities, and obligations necessary for protecting the public interest. However, it
does not necessarily impose personal liability upon an organization or person.

Foreign Military Sales Program - The Foreign Military Sales (FMS) Program is that part
of security assistance authorized by the Arms Export Control Act and conducted using formal
agreements between the U.S. Government and an authorized foreign purchaser or international
organization.

Those agreements, called Letters of Offer and Acceptance (LOA), are signed by both the U.S.
Government and the purchasing government or international organization. The LOA provides
for the sale of defense articles and/or defense services (to include training) usually from DOD
stocks or through procurements under DOD-managed contracts. As with all security assistance,
the FMS program supports U.S. foreign policy and national security objectives.

DOD Financial Management Regulation Volume 15, Definitions, April 2002 (current as of July
17, 2008), defines a FMS case as a U.S. DOD LOA and associated supporting and executing
documents.

Foreign Military Sales Pseudo Cases – According to personnel at the Defense Security
Cooperation Agency, the pseudo LOA or case is used by the U.S. Government to track the sale
of defense articles and/or services (to include training and design and construction services) and
are generally funded by a U.S. Government entity (for example, the U.S. Government DOD
funding provided to the Afghanistan Security Forces Fund is used to fund pseudo FMS cases for
Afghanistan).

The pseudo LOA itemizes the defense articles and services included in the Letter of Request.
However, the pseudo LOA is not signed by the foreign purchaser or international organization
receiving the articles and/or services. The pseudo LOA is authorized by public law and the Arms
Export Control Act.

Joint Manning Document – Chairman of the Joint Chiefs of Staff Instruction 1301.01C,
“Individual Augmentation Procedures,” January 1, 2004 (current as May 1, 2006) states that a
manning document of unfunded temporary duty positions constructed for or by a supported
combatant commander that identifies the specific individual augmentation positions to support
an organization during contingency operations.



                                                149
Joint manning documents (JMDs) for permanent activities with a joint table of distribution or
joint table of mobilization distribution should only identify individual augmentation positions for
temporary military or DOD personnel.

JMDs for activities without a joint table of distribution (JTD) or joint table of mobilization
distribution (JTMD) (e.g., some joint task forces) should identify all positions required for that
activity to support the mission. Positions should be identified as unit fill, ISAF/Coalition fill,
civilian/contractor fill, or individual augmentation fills on the JMD.

Kandak – An organization in the Afghan National Army (ANA) that is roughly the equivalent
of a U.S. Army battalion.

Logistics - Joint Publication 1-02 states that logistics is the science of planning and carrying
out the movement and maintenance of forces. In its most comprehensive sense, it is those
aspects of military operations that deal with:
      design and development, acquisition, storage, movement, distribution, maintenance,
       evacuation, and disposition of materiel
      movement, evacuation, and hospitalization of personnel
      acquisition or construction, maintenance, operation, and disposition of facilities
      acquisition or furnishing of services.
Military Support to Stability, Security, Transition and Reconstruction - DOD
Directive 3000.05, Military Support for Stability, Security, Transition, and Reconstruction
(SSTR) Operations,” November 28, 2005, defines military support to SSTR as DOD activities
that support U.S. Government plans for stabilization, security, reconstruction and transition
operations, which lead to sustainable peace while advancing U.S. interests.

Security - Joint Publication 1-02 defines security as a condition that results from the
establishment and maintenance of protective measures that ensure a state of inviolability from
unintentional or directly hostile acts or influences. For the purpose of the Arms, Ammunition,
and Explosives (AA&E) Strategic Plan, security entails visibility over and physically keeping
AA&E in the custody of only those with specific authorization, and the ability to quickly identify
and respond to situations or incidents of actual or potential compromise of AA&E while in the
logistics chain.

Security Assistance Organizations - DOD Directive 2055.3, “Manning of Security
Assistance Organizations and the Selection and USDP Training of Security Assistance
Personnel,” March 11, 1985, defines security assistances organizations as all DOD component
elements, regardless of actual title, located in a foreign country with assigned responsibilities for
carrying out security assistance management functions under Section 515 of Public Law 87-195,
“Foreign Assistance Act of 1961,” September 4, 1961 (22 U.S.C. 2151 et seq.).

Stability Operations - DOD Directive 3000.05 defines stability operations as military and
civilian activities conducted across the spectrum from peace to conflict to establish or maintain
order in States and regions.


                                                 150
Appendix D. Organizations Contacted and
Visited
We visited, contacted, or conducted interviews with officials (or former officials) from the
following NATO, U.S., and Afghan organizations:

Europe
North Atlantic Treaty Organization
Officials assigned to the North Atlantic Treaty Organization

Afghanistan
   North Atlantic Treaty Organization Senior Civilian Representative to Afghanistan
   U.S. Ambassador to Afghanistan and key staff members
   Deputy Chief of Staff for Operations, International Security Assistance Force
   European Union Police key staff members

United States
Department of State
   Officials assigned to the International Narcotics and Law Enforcement Affairs Bureau
   Officials assigned to the Bureau of South and Central Asian Affairs (SCA)

Department of Defense
   The Under Secretary of Defense (Comptroller)

    Joint Staff

       Officials assigned to the J5 Afghan desk, Europe/NATO desk, and Current Operations
       Officials assigned to the J4 Health Services Support Division and Future Plans Division.

    U.S. Central Command
       Deputy Commander, U.S. Central Command, and key senior staff members
       Deputy Commander, U.S. Forces–Afghanistan
       Assistant Division Commander, Combined Joint Task Force 101 (Bagram)
       Commander, Combined Security Transition Command–Afghanistan and key staff
        members
        -- Commander, Combined Joint Task Force Phoenix and key staff members
        -- Commander, Afghan Regional Security Integration Command-Central, South, East,


                                               151
           and North, their subordinate elements, and key personnel
        -- Regional Training Centers at Gardez and Mazur-e-Sharif
        -- Counter-Insurgency Academy (Kabul)
        -- Consolidated Fielding Center (Kabul)
       Commander, Afghanistan Engineer District and key staff members (Kabul)
       Deputy J7-Regional Command-South (Kandahar)

    Defense Agencies
       Officials assigned to the Defense Intelligence Agency
       Officials assigned to the Defense Contract Management Agency

Government of the Islamic Republic of Afghanistan
Ministry of Defense
   Minister of Defense
   Ministry of Defense Inspector General
   Ministry of Defense General Staff Inspector General
   Ministry of Defense National Military Command Center
   Kabul Military Training Center
   Depot 0 and Depot 1 (Warehouse Facilities)
   22 Bunkers Ammunition Storage Facility
   Forward Support Depots in Kandahar and Mazur-e-Sharif
   201st Corps
    -- Chief of Staff
    -- Combat Service Support Kandak and Embedded Training Team
   205th Corps
    -- Corps Commander
    -- 1st Brigade Commander, G3, and Operational Mentor and Liaison Team
    -- Corps Deputy Inspector General
   203d Corps
    -- Corps Commander
    -- 1st Brigade and Embedded Training Team
    -- Commando Kandak and
    -- 3d Brigade Embedded Training Team
   209th Corps
    -- Corps Commander
    -- 1st Brigade and Operational Mentor and Liaison Team




                                              152
Ministry of Interior
   Minister of Interior
   Ministry of Interior, Inspector General
   Ministry of Interior, Commander of the Afghan National Civil Order Police (ANCOP)
   Ministry of Interior, National Police Command Center
   Provincial Police Headquarters – Kandahar and Mazur-e-Sharif
   Regional Police Logistics Center-Kandahar and Mazur-e-Sharif
   Joint Regional Afghan National Police Center (Kandahar)
   Kabul Afghan Police Districts 1 and 2
   7th Kandak, 1st Brigade, Afghan National Civil Order Police (ANCOP) – Kabul
   Operations Coordination Center – Region (Gardez and Mazur-e-Sharif)
   Afghan National Detention Center – Kabul




                                               153
Appendix E. Afghan/U.S. Policy, United States
Code, Federal Regulations, and DOD Policies
Part I – Policy and Plans
NATO Partnership for Peace Program. This NATO program provides assistance to
countries who want to develop cooperative military and peacekeeping relations with NATO.
The overarching goal of the Partnership for Peace Program (PfP), as defined by the member
countries of NATO, is to enhance stability and security throughout Europe and Eurasia by
forging strong partnerships between the NATO Alliance and partner countries. Partnerships are
based on practical cooperation and commitment to democratic principles. Full participation in
PfP is essential for countries that want to join NATO because the partnership allows those
countries to develop interoperability with NATO forces and to prepare their force structure and
capabilities for possible future membership.

The Afghan Constitution, Article 43, [Education]. Establishes education as the right
of all citizens of Afghanistan, obliging the state to devise and implement, free of charge,
effective programs for a balanced expansion of education all over Afghanistan, and to provide
compulsory intermediate level education.

Afghanistan National Development Strategy, 1387 – 1391 (2008 – 2013), “A
Strategy for Security, Governance, Economic Growth, and Poverty
Reduction,” Islamic Republic of Afghanistan. This document discusses goals and
policy directions, the National Development Strategy, cross-cutting issues, and the monitoring
framework.

The Afghanistan Compact, 2006. The Afghanistan Compact of 2006 identifies three
critical and interdependent areas or pillars of activity for the five years from its adoption: (1)
Security, (2) Governance, Rule of Law and Human Rights, and (3) Economic and Social
Development.

U.S. Government Counterinsurgency Guide, January 2009. This document
examines the theory and principles of insurgency and counterinsurgency (COIN), the
components of an effective COIN strategy, and interagency assessment, planning and
implementation.

Afghan National Army Fielding Plan. This Ministry of Defense/CSTC-A document
provides information on plans to develop and field kandaks through the end of December 2011,
with a target of 134,000 ANA personnel (122,000 in kandaks and 12,000 in training, hospital
etc.)

Afghan National Army Tashkil. This document establishes the end strength, rank and
skill structure, and equipment requirements for the ANA and subordinate units. It is similar to a
U.S. Army Modified Table of Equipment (MTOE).


                                                 155
Afghan National Police Tashkil. This document establishes the end strength, rank and
skill structure, and equipment requirements for the ANP and subordinate units.

MoD/ANA Decree 4.2 “Materiel Accountability Policy and Procedures,”
June 2009. This MoD decree establishes the basic policies and procedures to account for
military materiel in the ANA.

MoI Policy, “Process for the Management of Logistics,” January 6, 2009.
This policy prescribes common procedures, formats, forms, and time standards for the logistics
management processes of the MoI and movement of logistic information between supporting and
supported organization/activities of the ANP.

Part II – Federal Laws
Public Laws. Congress provided approximately $18.25 billion to the Iraq Security Forces
Fund and approximately $18.95 billion to the Afghanistan Security Forces Fund through Public
Laws 109-13, 109-234, 109-289, 110-28, 110-161, 110-252, and 111-32. These Public Laws
define the train and equip mission performed in Iraq and Afghanistan. The laws specified that the
Iraq Security Forces Fund and the Afghanistan Security Forces Fund funds be used to provide
funding; equipment; supplies; services; training; facility and infrastructure repair, renovation,
and construction for the security forces of Iraq and Afghanistan.

Title 10 USC 168, (10 U.S.C. 168), amended on February 10, 1996. The
Secretary of Defense may conduct military-to-military contacts and comparable activities
designed to encourage a democratic orientation of the military forces of other countries. To carry
out the program, Title 10 states that funds appropriated and made available for carrying out the
authorized activities may be used for, among other things, U.S. activities and expenses for
military liaisons and traveling contact teams as well as for seminars and conferences held in the
theater of operations.

Part III – Federal Regulations
Federal Acquisition Regulation (FAR) Subpart 46.201, “Quality Assurance:
General.” This subpart states that the contracting officer should include appropriate contractor
quality performance requirements in the contract solicitation and in the contract itself. These
requirements may range from inspection at the time of acceptance to a comprehensive program
for controlling quality during contract execution.

FAR Subpart 46.4, “Government Contract Quality Assurance.” This subpart
states that Government contract quality assurance must be performed at such times (including
any stage of manufacture or performance of services) and places (including subcontractors’
plants) as may be necessary to determine that the supplies or services conform to contract
requirements. Quality assurance surveillance plans should be prepared in conjunction with the
statement of work. The plans should specify all work requiring surveillance and the method of
surveillance. FAR Subpart 46.4 (e) states that Government inspection must be performed by or
under the direction or supervision of Government personnel.


                                               156
FAR Subpart 46.402(e), “Government Contract Quality Assurance at
Source.” This subpart states: “Agencies shall perform contract quality assurance, including
inspection, at source if government inspection during contract performance is essential.” Quality
assurance surveillance plans ensure effective Government contract quality assurance,

FAR Subpart 46.5, “Acceptance.” This subpart states:
               Acceptance constitutes acknowledgement that the supplies or services conform
               with applicable contract quality and quantity requirements, except as provided in
               this subpart and subject to other terms and conditions of the contract.
               Acceptance may take place before delivery, at the time of delivery, or after
               delivery, depending on the provisions of the terms and conditions of the
               contract. Supplies or services shall ordinarily not be accepted before completion
               of Government contract quality assurance actions.

Part IV – Department of Defense Policies
Secretary of Defense Memorandum dated January 19, 2007, Subject:
Utilization of the Total Force. This document establishes tour length policy for the
various DoD military components.

Department of Defense Directive 1404.10, “DOD Civilian Expeditionary
Workforce,” 23 January 2009. This document establishes the policy through which an
appropriately sized subset of the DOD civilian workforce is pre-identified to be organized,
trained, and equipped in a manner that facilitates the use of their capabilities for operational
requirements. These requirements are typically away from the normal work locations of DOD
civilians, or in situations where other civilians may be evacuated to assist military forces where
the use of DOD civilians is appropriate.

DOD Directive 1322.18, “Military Training”. September 3, 2004. This DODD
states that:

               Members of the Department of Defense shall receive, to the maximum extent
               possible, timely and effective individual, collective, unit, and staff training
               necessary to perform to standard during operations…

               The DOD Components shall ensure their individuals and organizations are
               trained to meet the specific operational requirements of the supported
               Combatant Commanders, as identified in Combatant Commander-approved
               Joint Mission Essential Task Lists (JMETLs), before deploying for operations
               and while deployed.

DOD Directive 2055.3, “Manning of Security Assistance Organizations and
the Selection of USDP Training of Security Assistance Personnel,” March
11, 1985. This DODD provides guidance for the staffing of security assistance organizations.

DOD Directive 3000.05, “Military Support for Stability, Security, Transition,
and Reconstruction (SSTR) Operations,” November 28, 2005. This directive


                                                     157
provides guidance on stability operations that will evolve over time as joint operating concepts,
mission sets, and lessons learned develop. It also establishes DOD policy and assigns
responsibilities within the DOD for planning, training, and preparing to conduct and support
stability operations. The DODD also states it is DOD policy that:

                    Stability operations are a core U.S. military mission that the Department of
                    Defense shall be prepared to conduct and support. They shall be given priority
                    comparable to combat operations and be explicitly addressed and integrated
                    across all DOD activities including doctrine, organizations, training, education,
                    exercises, materiel, leadership, personnel, facilities, and planning.

                    Stability operations are conducted to help establish order that advances U.S.
                    interests and values. The immediate goal often is to provide the local populace
                    with security, restore essential services, and meet humanitarian needs. The
                    long-term goal is to help develop indigenous capacity for securing essential
                    services, a viable market economy, rule of law, democratic institutions, and a
                    robust civil society.

                    Many stability operations tasks are best performed by indigenous, foreign, or
                    U.S. civilian professionals. Nonetheless, U.S. military forces shall be prepared
                    to perform all tasks necessary to establish or maintain order when civilians
                    cannot do so. Successfully performing such tasks can help secure a lasting
                    peace and facilitate the timely withdrawal of U.S. and foreign forces.

DOD Instruction (DODI) 5000.64 “Accountability and Management of DOD-
Owned Equipment and Other Accountable Property,” November 2, 2006.
This DODI:
          Provides policy and procedures for DOD-owned equipment and other accountable
           property and establishes policy and procedures to comply with 40 U.S.C., section 524.
          Requires that accountable property records shall be established for all property
           purchased, or otherwise obtained, that are sensitive as defined in DOD 4100.39-M,
           “Federal Logistics Information System,” Volume 10, Table 61, November 2007.

DOD Instruction 5010.40, “Managers’ Internal Control Program
Procedures,” January 4, 2006. This DODI states that management internal control
procedures are basic to U.S. Government accountability and are specified in this instruction.
DODI 5010.40, E3.14, identifies operational and administrative controls for Security Assistance
Management of Foreign Military Sales.

DOD 5105.38-M, (Security Assistance Management Manual, October 3,
2003.) This manual provides guidance for the administration and implementation of Security
Assistance 13 and related activities in compliance with the Foreign Assistance Act, the Arms
Export Control Act, and related statutes and directives. It states that:




13
     Security Assistance is defined in Appendix C.


                                                          158
                 …[T]itle to FMS materiel normally transfers from the USG [U.S. Government]
                 to the purchaser immediately upon its release from a DOD supply activity 14
                 (point of origin). However, USG security responsibility does not cease until the
                 recipient Government’s or international organization’s Designated Government
                 Representative (DRG) assumes final control of the consignment.

                 …[T]he maximum processing time between Implementing Agency receipt of
                 the Letter of Request and release of the Letter of Offer and Acceptance should
                 normally be no more than 120 days, with no adjustments for hold times,
                 additional work needed to clarify requirements, or any other consideration.
                 Although delays may occur while processing some LOAs [Letter of Offer and
                 Acceptance], Implementing Agencies should process at least 80 percent of their
                 total number of LOAs within 120 days.

CJCS Manual 3122.01A, “Joint Operation Planning and Execution System
(JOPES) Volume I, Planning Policies and Procedures,” September 29,
2006.) This manual sets forth planning policies, processes, and procedures to govern the joint
operation planning and execution activities and performance of the Armed Forces of the United
States. It provides military guidance for the exercise of authority by combatant commander(s)
and other joint force commanders in development of selected tactics, techniques, and procedures
for joint operations and training. It provides military guidance for use by the Armed Forces in
preparing their appropriate plans. Enclosure (R) of the manual describes the responsibilities and
procedures for completing a Request for Forces (RFF) or Request for Capabilities (RFC)
message.

Defense Contract Management Agency Mission Statement. The Defense
Contract Management Agency (DCMA) provides “Contract Administration Services to the
Department of Defense Acquisition Enterprise and its partners to ensure delivery of quality
products and services to the warfighter; on time and on cost.” Additionally:

                 Before contract award, DCMA provides advice and services to help construct
                 effective solicitations, identify potential risks, select the most capable
                 contractors, and write contracts that meet the needs of our customers in DOD,
                 Federal and allied government agencies.

                 After contract award, DCMA monitors contractors' performance and
                 management systems to ensure that cost, product performance, and delivery
                 schedules are in compliance with the terms and conditions of the contracts.

U.S. Counterinsurgency (FM 3-24), December 2006/Marine Corps
Warfighting Publication (MCWP) No. 3-33.5, “Counterinsurgency,”
December, 15, 2006. This document establishes doctrine (fundamental principles) for
military operations in a counterinsurgency (COIN) environment.

Headquarters Department of the Army (HQDA) Execution Order (EXORD)
171-09, US Forces Augmentation to NATO Operational Mentor and Liaison

14
 DoD 5105.38-M states a supply activity can be either a DoD storage depot or a commercial vendor that furnishes
materiel under a DoD-administered contract.


                                                      159
Team (OMLT), date time group 220426 Zulu April 2009 (classified). This
document establishes training requirements and other criteria for assigning U.S. National Guard
soldiers to NATO OMLTs via the National Guard’s SPP.

FORSCOM Message: Subject/2008 Revised Transition Team Training
Guidance, DTG 080257 Mar 08, Unclassified. This message provides updated
training guidance for transition teams deploying in support of operations in Southwest Asia.
This document replaces IAG training guidance DTG 182148Z Jan 07 and aligns previous
guidance for transition teams deploying to Southwest Asia with FORSCOM training guidance
for follow on forces deploying in support of operations in Southwest Asia. This message directs
that all transition team personnel are to conduct pre-deployment training in accordance with this
message.

FORSCOM Message: Subject/FORSCOM Training Guidance for Follow-On
Forces Deploying in Support of Southwest Asia (SWA), DTG: 172053Z Nov
08, Unclassified. This message provides a stand-alone document which does not require
referencing prior messages and incorporates requirements and procedures identified in
Headquarters, Department of the Army Execution Order 150-08, Subject: “Reserve Component
Deployment Expeditionary Force Pre and Post-Mobilization Training Strategy.” It is used to
guide development of the unified and collaborative reserve component deployment training
plans.

Campaign Plan for the Development of Afghan National Security Forces,
Combined Security Transition Command–Afghanistan, 20 September 2008.
This document provides an overarching strategy for the development of the Afghan Security
Forces, to include the Ministry of Defense (MoD) and Ministry of Interior (Mol). The plan aims
to synchronize security sector development efforts across the Ministry of Defense, Ministry of
Interior, the Combined Security Transition Command–Afghanistan (CSTC-A), and the wider
International Community. The plan lays out the guidance and the processes for security ministry
and Afghan security forces generation and development. It also takes into account the
Afghanistan National Development Strategy (AN DS) dated April 2008 and the altered
circumstances since these agreements and strategies were conceived, including changes to the
security environment. It is complementary to Commander, International Security Assistance
Force Operations Plan (COMISAF OPLAN) 38302 and supports the ISAF security effects.

Combined Security Transition Command–Afghanistan Operations Order
08-006, Afghan National Security Forces (ANSF) Development Program, 14
January 2008. This order provides guidance for the development and execution of the current
United States Fiscal Year 2008 CSTC-A program to generate the Afghan National Security
Force (ANSF). It bridges the gaps between strategic aims of the CSTC-A campaign plan,
subordinate development strategies, and budget execution with program guidance focused on
annual operational objectives. The order describes a program to develop the currently approved
ANSF structure and is a document that serves as a basis of record to direct changes to the
program as required.




                                               160
Combined Security Transition Command – Afghanistan Fragmentary Order
08-038 to OPORD 08-006, April 2008. This FRAGO provides guidance for necessary
adjustments to accelerate the ANCOP fielding program because additional personnel requested
in CSTC-A RFF 620, dated 1 February 2007, to keep up with increased requirements of an
expanding ANSF force structure were not provided.

Program Management Plan (PgMP) for the Afghan National Army (ANA)
Program, for various Facilities throughout Afghanistan, Afghanistan
Engineer District, U.S. Army Corps of Engineers, March 2009. This document
seeks to ensure successful design and construction of facilities supporting the fielding of the
Afghan National Army (ANA) Soldiers throughout Afghanistan. This PgMP outlines the
procedures and responsibilities Afghan and U.S. organizations will undertake during the
acquisition planning, management, design, construction and closeout of the programmed
facilities.

The Corps of Engineers, Afghanistan Engineer District, Interim Manning
Document, May 2009. This document lists personnel authorized and personnel assigned to
the AED with position title.

Afghanistan Engineer District, U.S. Army Corps of Engineers, Command
Brief, December 2008. This document provides an overview of the AED mission in
Afghanistan to include a command introduction, command relationships, AED workload
history/forecast, Afghan National Security Forces, U.S. and ISAF/Coalition forces, roads, CERP
funded projects and support for others, and construction execution and challenges. The brief was
presented to the DODIG during our visit in March 2009.

Request for Forces 937 and 938. These are classified documents dealing with manning
requirements.




                                                161
162
Appendix F. Client Comments
Office of the Undersecretary of Defense (Comptroller)
Comments                                                  Final Report
                                                           Reference




                                                        Recommendation
                                                        13 Changed

                    Click to add JPEG file




                                  163
Chairman, Joint Chiefs of Staff Comments

                                              Final Report
                                               Reference




                                            Wording of
                                            Recommendation
                   Click to add JPEG file   21.c. changed to
                                            reflect clarification.




                                 164
Commandant, U.S. Marine Corps Comments




                 Click to add JPEG file




                               165
                         USMC




Click to add JPEG file




              166
                         USMC




Click to add JPEG file




              167
Commander, USCENTCOM
Commander, US Forces-Afghanistan
Commander, CSTC-A Comments




                  Click to add JPEG file




                                168
                           CENTCOM
                            Response




                         Draft
                         Recommendation
                         21.c. has been
                         deleted from final
                         report




Click to add JPEG file




              169
                         USFOR-A
                         Response




Click to add JPEG file




              170
                         CSTC-A
                         Response




Click to add JPEG file




              171
                         USFOR-A
                         Responses




Click to add JPEG file




              172
                         USFOR-A and
                           CSTC-A




Click to add JPEG file




              173
                         CSTC-A




Click to add JPEG file




              174
                         CSTC-A




Click to add JPEG file




              175
                         CSTC-A




Click to add JPEG file




              176
                         CSTC-A




Click to add JPEG file




              177
                         CSTC-A




Click to add JPEG file




              178
                         CSTC-A




Click to add JPEG file




              179
                         CSTC-A




Click to add JPEG file




              180
                         CSTC-A




Click to add JPEG file




              181
                         CSTC-A




Click to add JPEG file




              182
                         CSTC-A




Click to add JPEG file




              183
                         CSTC-A




Click to add JPEG file




              184
                         CSTC-A




Click to add JPEG file




              185
                         CSTC-A




Click to add JPEG file




              186
                         CSTC-A




Click to add JPEG file




              187
                         CSTC-A




Click to add JPEG file




              188
                         JCC I/A




Click to add JPEG file




              189
                         JCC I/A




Click to add JPEG file




              190
Commander, U.S. Army Forces Command Comments




                 Click to add JPEG file




                               191
                         U.S. Army
                           Forces
                         Command




Click to add JPEG file




              192
Chief, U.S. Army Reserve Comments

                                           U.S. Army
                                            Reserve




                  Click to add JPEG file




                                193
                         U.S. Army
                          Reserve




Click to add JPEG file




              194
Chief, National Guard Bureau Comments

                                             National
                                           Guard Bureau




                  Click to add JPEG file




                                195
                           National
                         Guard Bureau




Click to add JPEG file




              196
                           National
                         Guard Bureau




Click to add JPEG file




              197
U.S. Army Corps of Engineers Comments

                                           U.A. Army
                                            Corps of
                                           Engineers




                  Click to add JPEG file




                                198
                         U.S. Army
                          Corps of
                         Engineers




Click to add JPEG file




              199
                         U.S. Army
                          Corps of
                         Engineers




Click to add JPEG file




              200
                         U.S. Army
                          Corps of
                         Engineers




Click to add JPEG file




              201
                         U.S. Army
                          Corps of
                         Engineers




Click to add JPEG file




              202
                         U.S. Army
                          Corps of
                         Engineers




Click to add JPEG file




              203
Director, Defense Contract Management Agency
Comments
                                               DCMA




                  Click to add JPEG file




                                204
                         DCMA




Click to add JPEG file




              205
                         DCMA




Click to add JPEG file




              206
                         DCMA




Click to add JPEG file




              207
208
Appendix G. Report Distribution
Department of State
U.S. Ambassador to Afghanistan
Assistant Secretary of State for Political-Military Affairs
Inspector General, Department of State

Office of the Secretary of Defense
Secretary of Defense 
Deputy Secretary of Defense
Chairman of the Joint Chiefs of Staff*
Under Secretary of Defense for Acquisition, Technology and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer*
Under Secretary of Defense, Personnel and Readiness
Deputy Chief Financial Officer
Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Policy*
Vice Chairman of the Joint Chiefs of Staff
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense for Health Affairs
Assistant Secretary of Defense (Public Affairs)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy
Director, Joint Staff
Director, Operations (J-3)
Director, Strategic Plans and Policy (J-5)

Department of the Army
Secretary of the Army
Assistant Secretary of the Army for Acquisition, Logistics, and Technology
Commander, U.S. Army Forces Command*
Commander, U.S. Army Materiel Command
Chief, National Guard Bureau*
Chief, U.S. Army Reserve*
Commander/Chief of Engineers, U.S. Army Corps of Engineers*
Commander, Afghanistan Engineer Division, U.S. Army Corps of Engineers*
Auditor General, Department of the Army
Inspector General of the Army

Department of the Navy
Chief of Naval Operations*


    Recipient of draft report


                                                209
Commandant of the Marine Corps*
Naval Inspector General
Deputy Assistant Secretary of the Navy (International Programs)

Department of the Air Force
Chief of Staff of the Air Force*
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Commander, Air Force Security Assistance Center
Inspector General of the Air Force

Combatant Commands
Commander, U.S. Central Command*
  Commander, U.S. Forces–Afghanistan*
  Commander, Combined Security Transition Command–Afghanistan*
Commander, Joint Contracting Command–Iraq/Afghanistan*
Commander, Joint Forces Command*

Other Defense Organizations
Director, Defense Contract Management Agency*
Director, Defense Intelligence Agency
The Special Inspector General for Afghanistan Reconstruction

Other Non-Defense Federal Organizations
Comptroller of the United States
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman
and Ranking Minority Member
Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Foreign Relations
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
   House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
   House Subcommittee on Government Management, Organization, and Procurement
   House Subcommittee on National Security and Foreign Affairs
House Committee on International Relations


*Recipient of the draft report



                                             210
